<html>
<title> - TRANSITION ASSISTANCE PROGRAM FOR GUARD AND RESERVE FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                   TRANSITION ASSISTANCE PROGRAM FOR
                        GUARD AND RESERVE FORCES

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2008
                  FIELD HEARING HELD IN SOUTH BEND, IN

                               __________

                           Serial No. 110-87

                               __________

       Printed for the use of the Committee on Veterans' Affairs










                         U.S. GOVERNMENTING PRINTING OFFICE

  43-053                       WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001

















                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
MICHAEL F. DOYLE, Pennsylvania       MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              BRIAN P. BILBRAY, California
JOHN T. SALAZAR, Colorado            DOUG LAMBORN, Colorado
CIRO D. RODRIGUEZ, Texas             GUS M. BILIRAKIS, Florida
JOE DONNELLY, Indiana                VERN BUCHANAN, Florida
JERRY McNERNEY, California           STEVE SCALISE, Louisiana
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

                  Subcommittee on Economic Opportunity

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           JERRY MORAN, Kansas
JOHN J. HALL, New York               VACANT

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.





















                            C O N T E N T S

                               __________

                              May 16, 2008

                                                                   Page
Transition Assistance Program for Guard and Reserve Forces.......     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    52
Hon. John Boozman, Ranking Republican Member.....................     3
    Prepared statement of Congressman Boozman....................    53
Hon. Joe Donnelly................................................     4

                               WITNESSES

U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary, Veterans' Employment and Training Service...........    41
    Prepared statement of Mr. McWilliam..........................    69
U.S. Department of Defense, Jane Burke, Principal Director, 
  Military Community and Family Policy...........................    42
    Prepared statement of Ms. Burke..............................    71
U.S. Department of Veterans Affairs, James A. Whitson, Director, 
  Eastern Area, Veterans Benefits Administration.................    44
    Prepared statement of Mr. Whitson............................    76

                                 ______

American Legion, Department of Indiana, Stephen W. Short, 
  Department Adjutant............................................    33
    Prepared statement of Mr. Short..............................    65
Blosser, Staff Sergeant Donald A., Granger, IN...................    26
    Prepared statement of Staff Sergeant Blosser.................    63
Indiana National Guard:
  Major General R. Martin Umbarger, Adjutant General of Indiana, 
    Joint Forces Headquarters....................................     6
    Prepared statement of Major General Umbarger.................    53
  Major Cathy Van Bree, Director of Family Programs, Joint Forces 
    Headquarters.................................................     9
    Prepared statement of Major Van Bree.........................    55
  Colonel Roger D. Peterman, Transition Assistance Advisor.......    10
    Prepared statement of Colonel Peterman.......................    56
Masapollo, Lori, Niles, MI.......................................    24
    Prepared statement of Ms. Masapollo..........................    62
McCool, Dawn, North Liberty, IN..................................    23
    Prepared statement of Ms. McCool.............................    60
Saenz, Roy, South Bend, IN.......................................    20
    Prepared statement of Mr. Saenz..............................    57
Whitehead, Gary M., Elkhart County Veterans Service Officer, 
  Elkhart, IN....................................................    35
    Prepared statement of Mr. Whitehead..........................    68
Williams, Elizabeth L., Indianapolis, IN.........................    19
    Prepared statement of Ms. Williams...........................    57

                       SUBMISSION FOR THE RECORD

Indiana Department of Veterans Affairs, Indianapolis, IN, Charles 
  T. ``Tom'' Applegate, Director, statement......................    80

 
       TRANSITION ASSISTANCE PROGRAM FOR GUARD AND RESERVE FORCES

                              ----------                              


                          FRIDAY, MAY 16, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:00 p.m., at 
Indiana University--South Bend, Wiekamp Hall, Room 1001, 1700 
Mishawaka Avenue, South Bend, Indiana, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.

    Present: Representatives Herseth Sandlin, Donnelly and Boozm
an.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity hearing on the Transition Assistance Program (TAP) 
for Guard and Reserve Forces, provided by the U.S. Department 
of Defense (DoD), U.S. Department of Veterans Affairs (VA), and 
the U.S. Department of Labor (DoL), will come to order.
    I'd like to thank my good friend and Ranking Member, Mr. 
John Boozman of Arkansas, for joining us here today, for his 
leadership on the Subcommittee, and for the productive 
bipartisan working relationship that we enjoy.
    I would also like to thank Congressman Joe Donnelly, from 
here in Indiana, for his hospitality in inviting us to South 
Bend. I'm honored to be here today. Mr. Donnelly is a hard-
working, valued Member of this Subcommittee, who also works in 
a strong bipartisan manner to provide our Nation's 
servicemembers, veterans, and their families the best available 
programs and services they need and deserve.
    Much progress has been made in education benefits, 
vocational rehabilitation services, employment programs, and VA 
Home Loan programs; however, I think everyone would agree that 
we must remain vigilant to guard against any decline in 
benefits or services, and we must continue to address unique 
needs experienced by members of the National Guard and Reserve 
Forces and their families.
    Like many of my colleagues on the Subcommittee, the State 
of South Dakota has had servicemembers who have been activated 
in support of operations in Iraq and Afghanistan. Some of these 
brave men and women have returned injured and are currently in 
need of healthcare and employment services. They, like all 
disabled veterans from around the country, deserve our best 
efforts to provide a seamless and effective transition from 
military service to civilian life and the work force.
    Earlier last year, this Subcommittee held its first hearing 
that included the Department of Labor's Veterans' Employment 
and Training Service programs that were created to assist 
veterans with employment assistance and protect the 
servicemember's employment rights. While these programs have 
proven to be quite successful in certain parts of the country, 
today we will receive testimony from servicemembers who could 
benefit from these programs but who may not be aware they 
exist.
    Like my colleagues here today, I have had the opportunity 
to meet with local government officials and veterans back in my 
district in my home State of South Dakota. I have had many 
opportunities to speak with leadership staff, the Governor of 
South Dakota, Mike Rounds, and the Adjutant General of South 
Dakota's National Guard, Major General Steve Doohen, about ways 
to improve existing veterans' programs.
    I am glad that we have succeeded in making some progress 
for our Nation's Reserve Forces. Included in the final version 
of the National Defense Authorization Act of 2008, we were able 
to gain bipartisan support for the language that would allow 
mobilized members of the Reserve Forces to use their Chapter 
1607 education benefits for 10 years after they separate from 
service. While this is progress in the right direction, we must 
remain committed to expanding all benefits to help meet the 
needs of our servicemembers in the 21st century without 
sacrificing the quality of the services and the programs for 
veterans of past wars.
    Furthermore, our Subcommittee has been working with the 
full Committee Chairman, Congressman Bob Filner of California, 
to address the immediate needs of servicemembers and their 
families who face possible foreclosures on their homes. The 
Ranking Member of the full Committee, Steve Buyer, also from 
Indiana, has also been working with us to address the 
foreclosure crisis and its impact on our Nation's veterans.
    As we have heard at a recent Subcommittee hearing, data 
specific to veterans does not exist or is limited in scope, 
leaving us with an incomplete picture that makes it hard for us 
to get a good idea of how the current mortgage problems are 
affecting our veterans. But, because veterans and their 
families come to us and talk with us about the problems that 
they are having, we know that there is more for us to do as 
they encounter these problems, to protect against the 
instability that results from losing one's home.
    Today, thousands of veterans throughout our country deserve 
better, and we must do our best to ensure they are afforded the 
protections they need as they adjust to life after their 
military service.
    I am particularly interested in hearing about the issues of 
concern from National Guard and Reserve members, veterans and 
their spouses, and the actions the administration is taking to 
resolve the concerns of employment, education, rehabilitation, 
and housing, to provide effective transition assistance. We all 
know the effort it takes to undergo innovative approaches to 
assist soldiers and their families before, during, and after 
deployment. I look forward to learning more about the 
strategies employed by the leadership here in Indiana.
    I look forward to working with Mr. Boozman, with Mr. 
Donnelly, and the Members of this Subcommittee to ensure that 
all of our servicemembers are provided both proper training to 
complete their mission and the proper benefits to help them 
readjust and succeed in life after the military.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 52.]
    Ms. Herseth Sandlin. I now recognize the distinguished 
gentleman from Arkansas, Mr. Boozman, for any opening remarks.

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair. It's truly good to be 
here, and I want to welcome and thank our panelists for taking 
time out of their very busy schedules to come and share. I know 
this is going to be a very productive field hearing. I also 
want to thank Mr. Donnelly so much for inviting us to be here. 
It's been a real pleasure working with him on the Subcommittee. 
You know, I think our Subcommittee, I think the Veterans' 
Affairs Committee, in general, is the kind of thing that you 
want to see in Washington, since the people working together--
you know, there's a difference between Republicans and 
Democrats in some areas, but when it comes to veterans, we're 
on the same page.
    So, again, thank you for being here, and thank you in the 
audience for also being here. I also want to thank our 
Chairlady for her hard work and leadership in so many different 
ways.
    Indiana has certainly always been well-represented in the 
defense of our country, from the Indiana territory militia 
formed in 1801 to the 196,000 Hoosiers who served in the Civil 
War to those now serving in the 76th Brigade Combat team. And, 
in fact, I was visiting with the General; Arkansas also has the 
39th Brigade deployed, and they're not too far from each other, 
serving in Iraq.
    It's no secret that today's National Guard and Reserves are 
now an operational force and no longer a strategic reserve. 
That's one of the reasons that H.R. 5684, a bill that Ms. 
Herseth Sandlin introduced, which we very much support, 
contains a very significant upgrade to the education benefits 
of the Guard and Reserve.
    Our Guardsmen and Reservists share many of the challenges 
of military life with their active-duty counterparts. They also 
face some unique difficulties, and we should endeavor to 
minimize those negative centers to the Service. One such 
challenge is, the members of the Guard and Reserves face 
multiple transitions in their deployment cycles. It's not easy 
to leave your job and support your family, health insurance, 
retirement benefits, seniority, and other factors important to 
all of us. When the servicemember returns home, we should do 
everything in our power to ease that transition.
    I, especially, am very pleased with you, Madam Chair, in 
that you and I have visited several States where they have had 
solid programs to smooth the transition from combat to civilian 
life, and I'm really eager to learn about how Indiana meets 
that responsibility. I'm also very pleased that you've invited 
several wives to testify, because, without their strong 
support, we would probably have to rethink how we structure our 
Armed Forces.
    Finally, I want to thank each of those here who wear or 
have worn the uniform for their service. And I believe we owe a 
special recognition to the spouses, who pay the bills, raise 
the children, fix the appliances and the car, and take care of 
the myriad of things that keep a family intact while the 
servicemember is deployed. My dad was in the Air Force for 20 
years, and I know how tough it is when mom or dad is away for 
extended periods of time. So, a special thanks to the family.
    And, with that, I turn it over to you, Madam Chair.
    [The prepared statement of Congressman Boozman appears on 
p. 53.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I would now like to recognize the distinguished gentleman 
from Indiana, Mr. Donnelly, for any opening remarks he may 
have.

             OPENING STATEMENT OF HON. JOE DONNELLY

    Mr. Donnelly. Thank you, Madam Chairwoman.
    The first thing I'd like to say is how grateful we are to 
you and to Ranking Member Boozman for being here, being with 
all us to hear the concerns and the ideas of everyone in 
Indiana. We know how exceptional the servicemen and women from 
Arkansas and South Dakota are, and we have great gratitude to 
them, as well.
    Also, I would just like to mention--and I know General 
Umbarger was with the family yesterday--we lost a young man on 
May 10th, Joseph Ford, the first member of the 76th Brigade, 
who was killed. And it is with deep and heart-felt feeling in 
all of us that we honor him here today.
    And, General, thank you for being with the family 
yesterday, and I know you'll be with them again in the next few 
days.
    To my fellow Members of the House Veterans' Affairs 
Subcommittee, I want to thank all of you for coming to South 
Bend, to the 2nd District of Indiana, a place that has 
exceptional pride in both our country and all those who serve. 
The topic of transition assistance is a timely subject around 
the country and here in Indiana. As was said, we have over 
4,000 young men and women from our Guard in Iraq. The members 
of Company F, 151st Infantry of the Indiana National Guard, 
arrived home safely just last week back to South Bend, and they 
are dealing with all the transition assistance issues that any 
family could have to work with.
    I want to recognize the immense contributions of these 
people in F Company, of those who are serving right now, and 
the men and women here on the home front who are waiting for 
them to come back, trying to hold things together.
    As the fourth largest National Guard in the country, 
Indiana is a source of tremendous pride for our State. These 
men and women citizen soldiers selflessly serve to protect us 
in the event of natural or manmade disasters at home and also 
on the field of battle thousands of miles away. We are in both 
Iraq and Afghanistan, and over 10,000 have served overseas 
since September 11th.
    The strain on the members and their spouses and the family 
is great. Guardsmen and Reservists come home, just a few days 
removed from the war zone, and must readjust, almost on the 
run, to their lives as civilians. Weighing in are such 
challenges as returning to work during an economic downturn, 
resuming family responsibilities, seeking an education, getting 
things back together on the job front. Unfortunately, many also 
return home bearing physical injuries or the invisible wounds 
of post traumatic stress disorder (PTSD). We owe a lot to our 
Hoosier men and women who put their lives on the line for our 
safety, but, most of all, we owe all our veterans the promise 
that, when they return home, they will have the access to the 
services they need to smoothly transition back to civilian 
life. Transition assistance can help us to provide this.
    I want to thank Sergeants Roy Saenz and Don Blosser, Mrs. 
Elizabeth Williams, Mrs. Dawn McCool, and Mrs. Lori Masapollo 
for being here today to give your firsthand accounts of the 
transition assistance process and what your families have gone 
through.
    I also mentioned him before, but I want to thank Major 
General Umbarger. We are fortunate to have you leading our 
National Guard here in our State. I want to recognize Indiana 
Department of Veterans Affairs Director, Tom Applegate, for his 
testimony today, and to thank him for the work he does on 
behalf of the veterans.
    Finally, I want to recognize all the VSOs who are here. You 
are the lifeline for all our veterans throughout the 
Congressional District. I want to thank the representatives of 
the Departments of Veterans Affairs, Labor, and Defense for 
being here today, and we look forward to all the testimony. You 
have given your heart and soul to this country, you have 
continued on afterward, and we want to thank you for your 
efforts, and we want to make sure that we're treating our 
veterans the right way.
    Ms. Herseth Sandlin. Thank you, Mr. Donnelly.
    I would like to thank all of the panelists who will be 
testifying before the Subcommittee today.
    For all of you in the audience, this is a formal hearing of 
the Veterans' Affairs Subcommittee on Economic Opportunity. 
We've had a chance to visit with the witnesses ahead of time, 
to review their testimony, to invite them formally to be on our 
schedule of witnesses today. The questions that Mr. Boozman, 
Mr. Donnelly and myself will pose will be directed to the 
witnesses.
    We are more than happy to visit with others in attendance 
for any questions you may have of us or others that have joined 
us as witnesses following today's hearing. Unlike more informal 
settings, today is a formal hearing of the Veterans Affairs' 
Committee, and we look forward to hearing from our scheduled 
witnesses. Their written testimony will be made a matter of 
hearing record, and they will be summarizing their testimony so 
that we have time for questions for each of our four panels 
today.
    Let me welcome our first panel, Major General Martin 
Umbarger, Indiana Adjutant General; Major Cathy Van Bree, with 
Indiana National Guard Family Programs; and Mr. Roger Peterman, 
with Indiana National Guard Transition Assistance.
    Again, I would like to remind all of you, our witnesses, 
that your entire written statements will be entered for the 
hearing record. I think that our lights here will be working, 
correct? Each of you will be recognized for 5 minutes. When it 
gets down to the yellow, that's your signal to try to 
summarize, if you can. I'm usually not too hard when the 5 
minutes are up, but, again, we do have four panels, and we want 
to make sure that there's plenty of time for questions. If you 
could just monitor that and try to wrap up within 5 minutes, 
we'd appreciate it.
    General Umbarger, we're going to begin with you. Thank you, 
again, for your service here in the State of Indiana, the great 
partnership that I know you have with so many fellow adjutant 
generals across the country, and for your service on behalf of 
the men and women that you represent here in Indiana. You are 
now recognized for 5 minutes, General.

   STATEMENTS OF MAJOR GENERAL R. MARTIN UMBARGER, ADJUTANT 
GENERAL OF INDIANA, JOINT FORCES HEADQUARTERS, INDIANA NATIONAL 
GUARD; MAJOR CATHY VAN BREE, DIRECTOR OF FAMILY PROGRAMS, JOINT 
FORCES HEADQUARTERS, INDIANA NATIONAL GUARD; AND COLONEL ROGER 
 D. PETERMAN, TRANSITION ASSISTANCE ADVISOR, INDIANA NATIONAL 
                             GUARD

           STATEMENT OF MAJOR GENERAL MARTIN UMBARGER

    Major General Umbarger. Well, thank you, Madam Chair--
Chairwoman Herseth Sandlin, Congressman Boozman, my good friend 
Congressman Donnelly. Thanks for your support for the National 
Guard and all the soldiers of Indiana. Other Members on the 
Subcommittee, distinguished guests of the audience--I see a lot 
of veterans sitting behind me--God bless you. Thank you for the 
service to the country that you've given to us.
    It's a great opportunity for me speak on the issues 
regarding the care, treatment and benefits of our soldiers, 
airmen and families. Soldiers and airmen of the Indiana 
National Guard continue to answer the call on behalf of our 
Nation and the State of Indiana. As you know, the National 
Guard is a dual-missioned organization. We have a State mission 
in support of local first responders in their time of need, 
responding to manmade and natural disasters of our State. Our 
other mission is the Federal mission of reinforcing the Army 
and the Air Force in their missions all over the world.
    Since 9/11, I think you must agree, our great soldiers and 
airmen have done this important mission, and they've done it in 
spades. We currently have over 14,500 soldiers and airmen 
assigned to the Indiana National Guard, and we're extremely 
proud and boast of being the fourth largest Army National Guard 
in the Nation. We are presently at 106 percent of our 
authorized strength, and, over the past 3 years, Indiana has 
ranked in the top five States in the Nation in recruiting and 
retention. We are present--each of the past 3 years, the 
Nation's top recruiter has come from our ranks.
    Over 14,000 soldiers and airmen have been deployed to fight 
against the Global War on Terror. Presently, we have 4,133 
Indiana Guardsmen, both Army and Air, deployed to multiple 
sites worldwide, doing a variety of missions. No State has more 
deployed than Indiana, at this time.
    The accomplishments of our brave soldiers and airmen are 
many, but the stresses of the multiple deployments have taken a 
toll on our force and caused many adjustments to be made by my 
Joint Force Headquarters' Indiana staff to support them during 
the pre-deployment, deployment and post-deployment phases. 
Prior to 9/11, what used to be a normal baseline of events, 
insufficient staffs of maybe one deep assisted with providing 
benefits to soldiers, airmen, and families. Today, in order to 
provide care of our soldiers, airmen, and their families is 
sweeping changes, administrative procedures, changes to the 
authorizations have been made.
    Prior to 9/11, the staffing of the Indiana Guard was either 
one or two deep or non-existent concerning veterans' services 
to servicemembers and their families. Since 9/11, and the 
multiple deployment of our Hoosier Guardsmen, we have created a 
new directorate on my Joint Force staff--Indiana staff. The 
directorate is called my ``Civil Military Affairs 
Directorate.'' We are one of the only few States which have 
caused--created this J9 Directorate to support servicemembers, 
their families, and employers during pre-deployment, 
deployment, and post-deployment.
    I gave you a handout of that. It kind of shows you, 
normally, this would be conducted by our personnel. They have 
personnel for so many needs, and our personnel on pay and 
awards and whatnot, and we felt the need to put these key areas 
under a--one directorate. And you see the different programs. I 
show the circle. They're all, in fact, to assist the soldier. 
It's Family Programs, Veterans Assistance--Veterans Transition 
Assistance, which I have Roger here, who works for me, and 
Cathy on the Family Programs. Our Ceremonial Unit. We give 
honors to those that have given the ultimate. Our Chaplain's a 
very important part of a key component when we have an issue 
with the family. Our band will--ultimately, everybody wants our 
band, and we love our band for going away and coming home, but 
that, too, is linked to those wonderful occasions when linked 
back to the family, and our Command Historian are all linked to 
that.
    Several other changes in the staffing priority were also 
made to assist the servicemember through innovative techniques 
and hard decisions. The Indiana National Guard Relief Fund was 
established to assist families that incur economic difficulties 
during deployment. This 501(c)(3) fund was established as a 
result of many Hoosiers and organizations wanting to contribute 
financial assistance in many, many ways to our soldiers and our 
families. The fund assists families during times of economic 
difficulties as a result of their deployment.
    What I had was many officers would tell the Guard's story, 
and we'd talk to people who'd say, ``What can we do, General? 
Tell me.'' And we'd get calls from a lady who gives us $20, all 
the way to Lily Endowment, who has given us over $750,000, and 
they don't even want me to talk about it. But this is the way 
we get money in that we can use for issues of families of which 
we have no means or no way to help them. So I'm very, very 
proud of that program.
    We also have the Stay-Behind Title 10 Officers and Non-
Commissioned Officers that are each authorized at each Armory 
Headquarters. These professional soldiers are very important to 
the continuity and support to the servicemember during the pre-
deployment, deployment, and post-deployment phases. As an 
example--and it would be very much like there is in the 39th 
out of Arkansas--we have 17 Title 10 soldiers, combined with 
military technicians, that man our 28 armories that were 
vacated by the--by the Brigade going off.
    Initially, in the early stages after 9/11, when the unit 
was deployed, everybody went. There was nobody staying home. 
And our Armory and the Department of Defense said, ``See if you 
can't keep a certain number on Title 10 status and stay home to 
work with and assist with the families,'' and we want to thank 
you for that. It's--that's a very good thing.
    Our number one asset in the Indiana National Guard always 
has been and will continue to be our people, our soldiers, and 
our airmen. All the weapon systems, vehicles, and military 
equipment are absolutely essential to our mission, but nothing 
is more important than our servicemembers and their families. 
During these demanding times to provide professional military 
units for Federal missions in support of our Nation, and 
provide support for Homeland Security missions, we must have 
instituted many initiatives to provide support to the 
servicemember. In many cases, we have re-assigned personnel in 
order to provide the proper support, if you will, taking it out 
of hide. However, recently, I am very pleased to say that we 
have received additional funding and authorizations which 
enables me to provide this much-needed support to our soldiers 
and airmen.
    One program, the Community-Based Health Care program, 
CBHCO, is a great program assisting our wounded warriors. In 
the past, once our soldiers returned, they were quickly 
demobilized off Title 10, which was bad for our soldiers and 
their families. The Army CBHCO program allows our wounded 
warriors to remain on Title 10 close to or at home, work at a 
military facility while their medical issues are being 
resolved. The sustainment of this program and others to assist 
the servicemember is an absolute must. With the exception of 
the Veterans Transition Assistance Officer, Roger Peterman, 
which requires at least one more advisor, we are now staffed at 
a sufficient level to provide the proper support, but I am 
concerned that these resources may some day be pulled from us. 
This would be a huge mistake. As we have learned the hard way 
as a Nation over the years, caring for our wounded and our 
veterans must continue long after the conflict ends.
    I will--I thank you, key Members of Congress, for providing 
the funding programs for such as the Yellow Ribbon 
Reintegration program. Programs such as this that care for our 
soldiers and families prior to deployment, during the 
deployment, and long after their return is critical to their 
proper reintegration back into their civilian careers. As a 
Nation, we have come a long way in taking care of those that 
are serving our country. I thank all of you for your support 
you have given to our heroes that have volunteered to serve 
their State and country. I thank you for the privilege and 
opportunity to be with you today. I am very proud to wear the 
uniform and serve in the ranks of these great young men and 
women, the few who are serving for the benefit of the many of 
our Nation.
    Madam Chairman, this concludes my testimony.
    [The prepared statement of Major General Umbarger appears 
on p. 53.]
    Ms. Herseth Sandlin. Thank you, General.
    Major Van Bree, you are recognized.

               STATEMENT OF MAJOR CATHY VAN BREE

    Major Van Bree. Madam Chairwoman and Members of the 
Subcommittee, thank you for this opportunity to speak to our 
soldiers and their family members concerning issues surrounding 
those.
    Ms. Herseth Sandlin. Could you move your microphone a 
little closer to you, please?
    Major Van Bree. Due to the large number of our 
servicemembers deploying recently, the Department of Defense, 
the Office of Secretary of Defense, and the State of Indiana 
have all taken notice that the families of our servicemembers 
need support and assistance. To that end, resources have been 
delivered, resulting in increased staff and resources in 
childcare and youth programming, family assistance, family 
readiness, mental health, and resource and referral through the 
Military OneSource, through Military Family Life consultants, 
and other agencies that have stepped up to this challenge.
    Indiana National Guard soldiers and airmen are now 
experiencing the largest deployment, as Major General Umbarger 
stated earlier. You will find some detailed information in the 
supplement I provided entitled ``Family Programming 
Capabilities.''
    In the last 8 months, the Indiana National Guard Family 
Programs staff has grown from a staff of six to now 32 full-
time personnel in order to better respond to the needs of the 
personnel--to the personnel and to their families. This staff 
serves all servicemembers and their families within Indiana, to 
include the National Guard, Reserves, active duty, and the 
retirees from all branches of the military.
    The resources we provide during pre-mobilization, 
mobilization, and post-mobilization are completely invaluable 
to our customers. These services include, but are not limited 
to, TRICARE training and assistance, Family Readiness Group 
planning and program implementation, youth programming, 
marriage enrichment seminars through the Strongbonds program, 
free mental health counseling, homecoming support, financial 
classes, unit rear detachment training, National Guard Relief 
Fund financial grant requests, as well as a myriad of other 
services that you'll find on slide six of that supplement.
    Financial issues are the number one topic we assist 
families with when they are facing and/or returning deployment. 
We assist families with the financial issues through those 
services that we now have. The Family Assistance Specialist, 
the Family Readiness Support Assistant, our Military Family 
Life Consultant, and also our Military OneSource that have just 
newly been delivered to family programs.
    It is critical that we continue on with the funding of 
these programs in the future years. Our families now trust 
these services, they now rely on these services, and to take 
them away would be a huge detriment. Unfortunately, most of 
these new programs are only funded for 12 to 36 months. We 
serve as a combat multiplier on the battlefield, as we are able 
to focus on the families while Combatant Commanders can now 
focus on their mission. Further, we are a retention tool that 
far outweighs any cost.
    The transition process is not over once the servicemember 
returns from mobilization. Some servicemembers take up to 12 
months or longer to fully re-integrate into their family, 
civilian employment, and/or their community. We take Indiana 
citizens out of--excuse me. We take Indiana citizens out of our 
State, away from their loved ones, away from their careers, and 
send them into a hostile environment. We cannot expect them to 
return mentally, emotionally, or physically as they departed 
Indiana. Assisting the servicemembers and their families within 
this transition process is essential. Some servicemembers are 
now volunteering for their third and fourth deployments. The 
revolving door of deployment is a strain for them, as well as 
their parents, their spouses, their children, and civilian 
employers, which can effectively be addressed by our programs, 
Transition Assistance and Employer Support of the Guard and 
Reserve.
    TRICARE is a part of that transition. While the financial 
benefit of TRICARE is sufficient, there are many issues within 
TRICARE that we need to address. Little to no provider coverage 
is available in some areas of Indiana, as many families travel 
over 45 minutes to get to their primary care provider. 
Referrals are cumbersome and takes weeks to months in some 
instances. Mental health outpatient services are not covered 
past the six free sessions initially available each calendar 
year. Claims processing is slow to providers, and reimbursement 
to families is slow, taking many months in some cases. Lack of 
providers and lack of updated provider lists are also a key 
complaint from our family members.
    TRICARE is a wonderful option to our servicemembers and 
their families, but has these--has some logistical constraints. 
Families transition from their current TRICARE--excuse me--from 
their current insurance to TRICARE, and back and forth to their 
civilian insurance, up to three and four times during their 
military career, and have little time to trip over the 
logistical roadblocks in their way. TRICARE needs to be more 
user-friendly in order to reduce the amount of stress the 
families already endure.
    And that concludes my testimony.
    [The prepared statement of Major Van Bree appears on p. 
55.]
    Ms. Herseth Sandlin. Thank you, Major.
    Colonel Peterman, you are now recognized.

             STATEMENT OF COLONEL ROGER D. PETERMAN

    Colonel Peterman. Madam Chairwoman, Members of the 
Subcommittee, I appreciate this opportunity to testify before 
you today in reference to the Transition Assistance Advisor 
(TAA), and Employer Support of Guard and Reserve, commonly 
referred to as ESGR, as it applies to the pre-mobilization, 
mobilization, and post-mobilization of our Indiana soldiers.
    The TAA program is primarily designed to serve the members 
of the National Guard and their families. Additionally, we 
proudly serve the members of all Reserve components, veterans, 
and their families. The Transition--as the Transition 
Assistance Advisor, I work to provide a statewide point of 
contact in assisting members with access to veterans' benefits 
and medical services. Services are provided at all phases of 
soldier deployment in conjunction with other Indiana National 
Guard directors. The TAA also provides assistance in obtaining 
entitlements through the TRICARE Health System and access to 
community resources.
    The Transition Assistance Advisor works to build a 
community partnership through the National Guard, Reserves, DoD 
services, Department of Veterans Affairs, Indiana Department of 
Veterans Affairs, the veterans service organizations (VSOs), 
and the local communities. The TAA provides communication and 
coordination between these partners. We provide education and 
support to all eligible servicemembers and their families. A 
very important factor of this process is raising the awareness 
and the understanding of the available State and Federal VA 
benefits, as it--and the other various community agencies that 
can assist our servicemembers.
    Help is provided to the individual servicemember, ensuring 
that they are aware of the entitlement programs, access to 
metal care--mental care and benefits of TRICARE. There are many 
deadlines that require action, such as post-dental care. 
Servicemembers and their families needing counseling are 
advised where and how to get the help they need. Information is 
provided on insurance, such as Servicemembers' Group Life 
Insurance and Traumatic Servicemembers' Group Life Insurance. 
The TAA supports the VA and the local communities in helping 
develop job fairs designed to help servicemembers, veterans, 
and their families to find jobs. Assistance is also provided to 
our servicemembers in locating their lost DD-214s.
    Transition Assistance is provided during pre-mobilization, 
mobilization, and demobilization. During homecoming events, 
information is made available to servicemembers and their 
families in the form of VA--a form of brochures on VA benefits, 
educational opportunities, re-employment rights, and other 
relevant resources. At that point, the re-integration process 
has started.
    At 90 to 120 days, the Seamless Transition is conducted at 
the local unit or at a community center. Many organizations are 
brought together to ensure our soldiers receive the information 
and resources needed to return to several--to civilian life. 
Representatives at this event include finance, legal, VA 
benefits, VA Medical Center, Department of Labor, County 
Service Officers, TRICARE, Chaplain, Small Business 
Administration, Secretary of State, Employer Support of the 
Guard and Reserve, family programs, American Legion, the 
Disabled American Veterans (DAV), Veterans of Foreign Wars 
(VFW), and American Veterans (AMVETS).
    The TAA program is successful because we care about 
soldiers, veterans, and their families. Over 90 percent of the 
TAAs are veterans or spouses of military members. Many TAAs 
have worked through the disability process. They have 
experienced the process and can help guide the servicemember 
through it. We helped build strong partnerships and coalitions 
with the VA Service Organizations, family programs, the 
Department of Labor, and the Employer Support of Guard and 
Reserve. Major Van Bree and I, the Family Programs Director, 
work closely on a daily operational level because our work 
overlaps. We are both serving as members of the Adjutant 
General's staff.
    Now, I'd like to talk a little bit about a volunteer 
organization in which I serve as the State Chairman. Employer 
Support of the Guard and Reserve. The Employer Support of the 
Guard and Reserves--Reserve is a volunteer organization through 
the Department of Defense.
    The mission of the ESGR is to gain and maintain active 
support of all public and private employers for the men and 
women of the National Guard and Reserves. Additionally, this 
volunteer organization provides education, consultation, and, 
if necessary, informal mediation between the employer and the 
employee of Guards and Reserves.
    The ESGR is required to inform employers and their National 
Guard and Reserve employees of their rights and 
responsibilities to the Uniformed Employment and Re-Employment 
Rights Act, USERRA, Title 38 of U.S. Code chapter 43. Indiana 
has 16 school-trained Ombudsmen who serve to mediate the issues 
between the employer and employee in the military. Currently, 
Indiana also has 105 volunteers serving around the State.
    In summary, the ESGR's goal is to support the American 
employers who share their employees with the Department of 
Defense to ensure the national security. ESGR helps employers 
to understand their vital role that they play in the defense of 
this country. We develop and promote culture in the American 
employer and the value of military service of these employers.
    Madam Chairwoman, this concludes my testimony. Thank you 
for this opportunity to speak before you on behalf of the 
Transition Assistance program and the ESGR. I would now 
entertain your questions.
    [The prepared statement of Colonel Peterman appears on p. 
56.]
    Ms. Herseth Sandlin. Thank you, Colonel. Thank you for your 
good work.
    I'd now like to recognize Mr. Boozman for the first round 
of questions.
    Mr. Boozman. Thank you, Madam Chair.
    General, the DoD, have you visited with them about adding a 
Title 10 type--Title 10 days following deployment to the 
transition program? Have you--is that something that you would 
like to get done, or----
    Major General Umbarger. You mean for a select few, or for 
the entire----
    Mr. Boozman. For the entire.
    Major General Umbarger. Uh, I've never addressed that. I 
guess I would say----
    Mr. Boozman. Is that something you'd be in favor of?
    Major General Umbarger. No. I don't know that I would be 
quite for that or not, because what we find, as our soldiers 
come home--I mean, they're--we're citizens first and soldiers 
second in the Reserve component. And we'll find, when they get 
into demobilization process, most of--the majority of them want 
to go home and see their families and get re-integrated back 
into the workforce as soon as they possibly can.
    I wouldn't mind having a limited ability for those that--
and we have some of that. We've got what's called Operation 
Warrior Trainers, where we have a soldier who's come back from 
a deployment, and we have two or three wanting to stay on for 
12 months or 24 months to train others that are going over, 
like, at Camp Atterbury, and we do this a lot. So it's just--we 
have the ability to do that. I don't know that I'd want 
everyone to stay on Federal service the minute they come home.
    Mr. Boozman. How about the--not being able to drill post-
deployment for 90 days; would you be in favor of changing that.
    Major General Umbarger. You know what? What I'm in favor 
of--and I've thought about this a lot, and it differs with 
Adjutant Generals, certainly. I feel like 90 days should be the 
option. We will find some of our soldiers would not want to 
come in. They want to be with their family, and getting back 
into the system, and they don't want to come back to drill that 
first 30 days. But we have found most want--they want to come 
back to the friends they've been to war with. And I think it 
ought to be their call for 90 days.
    And then, what we talked about, that Seamless Transition, 
on that third month when they come back, that's when we bring 
them back and we give the awards and we have all of these 
wonderful groups that are there. So they kind of get a chance 
to think, hey, you know, the euphoria of getting home is kind 
of over their back, getting ready to become a citizen. Hey, 
maybe I can improve myself. So that's a great time for us to 
have them to have this Seamless Transition program we explained 
to you, and it works very, very well. But I think it should be 
an option, not enforced either way; a mandatory, or you can't 
come back.
    Mr. Boozman. Mr. Peterman, the--are the members paid for 
their TAA classes in--that they appear--that they go through 
post-deployment? Are their families allowed to come? A lot of--
--
    Colonel Peterman. Their families are invited and encouraged 
to come. What we have found, as the General said, when our 
servicemembers get home, first of all, they want to go home, 
and you're standing between them and going home. So, the 
process, we don't get a lot of them. We see better success at 
the Seamless Transition, but, being a guy, he doesn't want to 
admit that he has problems. And what we have found, that if the 
spouse accompanies them, when he is asked, ``Do you have 
problems or issues,'' he'll say no. And she says, ``Let me tell 
you about the problems he really has.''
    Also, from my ESGR experience, where we have employers that 
are constantly calling us and saying, Hey. Johnny Jones went 
off. He was a great employee. When he came back, he's a 
different person. How do we address that? And, so, 
consequently, we're working on programs to work with the 
employers on the PTSD. So that's an issue that we see rising 
every day.
    Mr. Boozman. Major Van Bree, you're fighting the battle, it 
sounds like you mentioned, in trying to get insurance and some 
of the difficulties there. I know, in our area, it's always a 
battle making sure that there's providers under that insurance 
plan when there's nobody there to do it, you know.
    I'm worried about divorce; you know, things like that. What 
do we--what would you have us--what area would you like us, 
really, to focus on, in the sense that the divorce problems, 
things like that going on? Are these financial, or are they----
    Major Van Bree. Sir, most of the issues that we have with 
TRICARE is provider support. I, personally, have had to change 
doctors two times--or, three times now, because previous 
doctors might have not taken TRICARE, or they might have taken 
it and then they decided to pull out of it because they didn't 
care for the program. That seems to be consistent, I wouldn't 
say 100 percent, but, obviously, at my level, I kind of get the 
issues that people below me cannot resolve on their own--on 
their own level.
    Divorce, obviously, takes a lot of--adds to that problem, I 
should say. But the biggest problem that we have is the 
provider support and, you know, where to find those doctors and 
where to find the list of providers in your area, because those 
lists that are provided are rarely updated, and, if they are--
you know, if they are updated, they're just plain inaccurate.
    Mr. Boozman. Thank you very much.
    Thank you, Madam Chair.
    If you would, it would really be helpful if you would just 
jot down, you know, some of those things that you come across, 
as far as the problems in dealings with TRICARE. And if you 
would let us have that, that would be helpful.
    Major Van Bree. Sure.
    Mr. Boozman. Thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. Donnelly.
    Mr. Donnelly. Thank you. General Umbarger, The J9 
Directorate. They have great programs in Arkansas and South 
Dakota, as well, but that model that we use in Indiana, has 
that been shown to other States, or has--have other States 
inquired as to that?
    Major General Umbarger. You know, just this past, I think 
it was 3 months ago, we went to the Army Guard there at 
Alexandria, and we presented our home State, saying what we're 
doing, and this is one of the programs that we presented to 
General Vaughn and his staff, and--General Vaughn's the 
Director of the Army Guard--and they really, really liked it.
    It's just something we created ourselves, and we felt like 
we needed--really needed it, and I think there's two other 
States that picked it up. We have shared it with others to 
consider. It may not be the answer for everyone, but what I 
found is, you know, in the Armed--Army, we have J1, personnel; 
2, intelligence. So, the J1 is so involved with promotions and 
awards and all the issues of mobilization and demobilization. 
So, what you found was Family Programs and all these issues to 
support the families and problems, it didn't raise to the 
level, which it should.
    That's why we set up a separate directorate, and I think 
it's--I'm very proud of it. I think it is the way to do it, and 
we would share it with any State that they might--if they want 
a copy to show our successes with it.
    Mr. Donnelly. Is there a clearinghouse, for instance, that 
the 50 different Guards can go to and see best practices in 
this area or that area, much like you put the components of the 
J9 together.
    Major General Umbarger. Not that I'm aware of. You know, 
I've got to be honest. It's almost like, you know, the States 
are--I mean, we're all independent States, and we kind of run 
our organizations a little better. But we do share--if there is 
something like this that is really successful, it's--we meet 
three times a year as a body, the Adjutant Generals, and that's 
where a lot of things like this are discussed.
    Mr. Donnelly. And, Major Van Bree, in your testimony, you 
talk about mental health visits. There are six free visits per 
year. What happens after those six free visits?
    Major Van Bree. Then you have to pay out of your pocket, 
sir.
    Mr. Donnelly. Which makes the ability to receive the mental 
health assistance----
    Major Van Bree. Right.
    Mr. Donnelly [continuing]. Much more----
    Major Van Bree. What I have right now is, I have two 
military Family Life consultants who do solution-based 
counseling. It is not long-term counseling. It's not medical 
counseling for PTSD or anything such as that. If the family 
needs long-term counseling, they would need to go through a 
mental health provider, through these six free visits, and then 
have to pay out of pocket for the rest, or use a supplemental 
insurance if they have one.
    Mr. Donnelly. Then, the other question I have for you is, 
in terms of TRICARE, you know, we'll be hearing testimony about 
the unavailability of it in certain areas because of doctors 
not accepting it. What are your suggestions to make TRICARE 
more acceptable to local physicians or to make it a program 
that medical clinics want to be a part of.
    Major Van Bree. Well, it does need to be enticing to them 
to take TRICARE, but I can't speak to what those would be. I 
don't know if it's a higher pay-off or, you know, financial 
pay-off for them, or pay-out. I don't know what that would be. 
I can't speak to that--to the dollars of that, or maybe just 
more timeliness of paying claims, because that seems to be an 
issue, too.
    If I go to the doctor, and they are not getting their 
reimbursement from TRICARE, of course, I'm liable because I 
signed, saying that I will take--accept financial liability. So 
I'll pay my whatever--$300 or whatever that case may be, until 
TRICARE pays. So, either TRICARE is going to pay the doctor's 
facility, or TRICARE will pay to me. And it seems that 
sometimes it takes too long. It takes 4, 5, 6 months sometimes.
    Mr. Donnelly. Okay. And, Colonel Peterman, in regards to 
the employers, have you found, when it's the second deployment, 
the third deployment, it becomes much more difficult for that 
particular employer in regards to the individual.
    Colonel Peterman. Absolutely. What we find, employers that 
are involved with the first rotation, it's great. They're very 
supportive. We have employers that are paying full salaries and 
benefits to the Guardsmen and Reservists. When it comes to the 
second--let's say, for the third time--and, as General Umbarger 
mentioned, there are people who are on their fourth tour--
they're saying, ``Hey. When do we get a break from this thing? 
You know, we keep having to replace this individual. We have to 
guarantee their job,'' and, in many cases, they have to go out 
and hire an additional person to come in and to fill in during 
that year. And, at the end of that year, when that 
servicemember comes back, then they have a decision to make. 
And we find, at times, they don't want to give up the person 
they just hired, even though the law says that they have to.
    So there are getting to be more and more concerns and 
problems with employers based on the multiple deployments.
    Mr. Donnelly. Thank you.
    Thank you, Madam Chairwoman.
    Ms. Herseth Sandlin. Thank you, Mr. Donnelly.
    General, what year did you establish the J9 Directory?
    Major General Umbarger. Oh, gosh. What? I'd say over a year 
ago.
    Major Van Bree. Yes, sir.
    Ms. Herseth Sandlin. To be clear, I think, Major Van Bree, 
you mentioned you went from six to now 32 full-time employees. 
Is this all State funding?
    Major Van Bree. No. None of it.
    Ms. Herseth Sandlin. It's all Federal funding. Is that all 
DoD and TAA?
    Major Van Bree. I believe my dollars come from NGT, so 
where they originate I can't really tell you, ma'am, but they 
all go through our different contract companies. I have seven 
other contract--excuse me--seven different contract companies 
that those dollars go to to provide those services.
    Ms. Herseth Sandlin. Okay. In providing those services, the 
second panel we're going to hear from are folks who have been, 
maybe, unaware of all the programs that exist. Can you describe 
the outreach, either pre-deployment, during deployment, and 
post-deployment, to spouses and families about the different 
programs that are available through the Federal or State 
agencies.
    Major Van Bree. Yes. If you go to the types of support that 
are provided, it spells out some of the heavy hitters. I won't 
say that it's--that it is all-inclusive, but it's slide six.
    Ms. Herseth Sandlin. Yeah. I see that. What kind of 
outreach do you do?
    Major Van Bree. Well, the marketing and so forth that we 
do, unfortunately, we do not have the funds to pay for a 
marketing person. So, what I do is, I take my Family Assistance 
Specialist and I take my--all my contractors, basically, and 
have them market their own programs. And, you know, it's a 
double-edged sword because, while they're marketing, they're 
not servicing, you know, like they should be, obviously. 
They're not getting in the weeds with these people.
    So, the outreach is going out through the pre-deployment 
and talking with the units, talking with the family members, 
conducting pre-deployment briefings, and having them--you know, 
basically marketing our services to them to tell them what they 
are. You know, saying, ``Hey, dude. These services are now 
available to you.'' Now, these are all new within the last 8 
months, so we've--I mean, we've really been hitting it hard.
    And then, during deployment, obviously, we conduct outreach 
calls. Every 30 days, the family member will get an outreach 
call to say, you know, ``How you doing? What can we do for you 
today?''
    And then, after deployment, we conduct post-deployment 
briefings to do the Seamless Transition and work with 
Transition Assistance, ESGR, and all the other DSOs that come 
in and talk to our servicemembers and their families. And we're 
willing to integrate into that, as well. And for those old or 
new families that are not in the deployment cycle currently, we 
offer all those services and then some in focusing on financial 
assistance and so forth to try--you know, to kind of intern for 
TRICARE issues that they have during transition.
    Major General Umbarger. Madam Congresswoman.
    Ms. Herseth Sandlin. Yes.
    Major General Umbarger. One thing that, you know, might 
help us a lot is positions come as part of the supplemental 
support, you know, in the Global War on Terror. The concern 
that I have is that when the supplemental--and I know, as a 
Nation, we'd like to see them go away, but they're not in the 
base budgets of the Army or of the DoD, and I would be afraid 
there would be a bill payer, as I said in my testimony, long 
after, it's hopefully sometime, you know, where our soldiers 
aren't being deployed. Still, the veteran issues and the 
soldier issues and the family issues continue. So I'm always 
asking--I'm afraid the Army--big Army or the Air Force might 
use that as a bill payer for other things.
    Ms. Herseth Sandlin. Very good point, General. I'm glad you 
clarified, because that's why I wanted to know, the breakdown, 
and knowing that this is primarily Federal funding, we know 
it's coming through the emergency supplemental. A number of us 
in Congress--and I know that Mr. Donnelly was in a press 
conference at the beginning of this conference--was calling on 
the Pentagon and the administration to include more of the 
spending in the regular budgeting process on budget.
    I can understand emergency spending in the first year or 
two, maybe three, but we are well beyond emergency spending, in 
my opinion, at this point. This is much easier to predict, 
especially as it relates to the programs that you're 
administering. They are so important to the servicemembers.
    Colonel Peterman, is the outreach, that Major Van Bree 
described, similar to the programs you're administering as it 
relates to the followup and the outreach?
    Colonel Peterman. Yes, ma'am. They overlap each other, and 
I work with servicemembers and veterans well after this, any 
time they have a problem or concern, whether it be navigating 
VA, whether that's getting education. Sometimes it's issue, I'm 
working some--with some soldiers now on purple hearts. We cover 
through all stages. And it's ongoing.
    Ms. Herseth Sandlin. I have two more questions. I'll wrap 
up quickly.
    In response to Mr. Donnelly's question on the impact of the 
multiple deployments on employers, are you seeing an increase 
of USERRA claims for those who have been deployed more than one 
time?
    Colonel Peterman. I would say not at this point. They're 
calling and they're saying, ``When are we going to get some 
relief?`` When we saw a real spike, when the brigade was 
mobilized and we had 30--3,300 soldiers that were--left their 
jobs and going with the--and the cases spiked. We expect 
another big avalanche when they return home, which they're due 
back in December. So, in March of next year, we see the 
caseload is going extremely high.
    Ms. Herseth Sandlin. Thank you. One last question.
    General Umbarger, the housing crisis. Any sense of how many 
of your servicemembers are experiencing problems? Have you been 
tracking this in any of the programs that you've been 
administering under your command?
    Major General Umbarger. I really can't say that we've seen 
a big spike in the number of issues. I mean, we have soldiers 
getting into economic difficulties, but, at this time, it 
hasn't been part of a deal that they've made that they cannot 
handle anymore being on the other side of a loan for a home or 
something.
    Ms. Herseth Sandlin. That's good to hear. Hopefully, the 
lenders will be working closely with the families, particularly 
in light of the challenges with the deployment.
    Well, I thank you all for your testimony and your response 
to our questions. I'd like to see if Mr. Boozman or Mr. 
Donnelly have any follow-up questions at this time.
    Mr. Boozman. I don't have any follow-up. I do think, 
though, that the panel and you make a very good point about the 
base budget and the fact that it doesn't include such stuff so 
that we don't--so that we won't have to worry about some of 
these things that are very, very of necessity, you know, in 
going forward, taking people. You know, we've made a 
commitment, to a lot of people with the war, and, for a number 
of different reasons, we need to increase the budget. So I 
appreciate you bringing that up. I appreciate your comments, 
Madam Chair.
    Mr. Donnelly. Nothing further.
    Ms. Herseth Sandlin. Well, thank you for your continued 
service to our Nation, for the protection of our Nation, and, 
certainly, your service to our servicemembers here in the great 
State of Indiana. Thank you.
    I'd now like to invite our witnesses on our second panel up 
to the witness table. Joining us on the second panel of 
witnesses is Mrs. Elizabeth Williams, National Guard member and 
spouse of a member of the Indiana National Guard; Mr. Roy 
Saenz, a member of the Marine Reserve Company; Mrs. Dawn 
McCool, spouse of a National Guard member; Mrs. Lori Masapollo, 
spouse of a Reservist; and Mr. Donald Blosser, member of the 
Indiana National Guard. We welcome you to the Subcommittee 
Field Hearing, and we appreciate your time and your testimony.
    As I mentioned prior to the first panel of witnesses, your 
written statements will be made part of the hearing record in 
their entirety. If you could summarize your opening statement 
within 5 minutes, it will give plenty of time for follow-up 
questions.
    Mrs. Williams, we'll start with you. You are recognized.

STATEMENTS OF ELIZABETH L. WILLIAMS, INDIANAPOLIS, IN (INDIANA 
 NATIONAL GUARD MEMBER AND SPOUSE OF DEPLOYED INDIANA NATIONAL 
GUARD MEMBER); ROY SAENZ, SOUTH BEND, IN (FORMER MEMBER OF THE 
MARINE CORPS RESERVES); DAWN MCCOOL, NORTH LIBERTY, IN (SPOUSE 
 OF INDIANA NATIONAL GUARD MEMBER); LORI MASAPOLLO, NILES, MI 
   (SPOUSE OF ARMY RESERVIST); AND STAFF SERGEANT DONALD A. 
      BLOSSER, GRANGER, IN (INDIANA NATIONAL GUARD MEMBER)

               STATEMENT OF ELIZABETH L. WILLIAMS

    Ms. Williams. Madam Chairwoman and Members of the 
Subcommittee, I appreciate the opportunity to be here today and 
to testify on my views and experiences in regards to the 
Transitional Assistance Program, and the ability of our family 
to cope with re-adjustment needs and the deployment of my 
spouse, Captain Christopher Williams.
    My husband is scheduled to return this month for his second 
year-long deployment. In 2003, he deployed for, approximately, 
15 months. Then he deployed for the second time in June of 
2007, and is expected to turn--return any day.
    There has been significant progress in the efforts to 
provide transitional assistance to the soldiers and their 
families since my spouse's first deployment experience. During 
his 2003 deployment, I can recall very little assistance 
available to support the families of the deployed 
servicemembers, outside of the Family Readiness Group and 
Military OneSource. That's certainly not the case today. 
There's a lot more available.
    It appears as though the Family Readiness Group is often 
used as the primary source of communication and information 
dissemination as it pertains to families and their available 
resources. Without the unit having a functioning Family 
Readiness Group, the soldiers, and especially the spouses, can 
often be left in the dark. I acknowledge that perhaps my 
testimony is also based on the fact that I am also a 
servicemember, as well as a spouse; therefore, I have the 
advantage of understanding the military and how it functions, 
as opposed to those spouses who may not.
    My husband deployed with a small detachment, which does not 
have a functioning Family Readiness Group. The little 
detachments can easily fall through the cracks, from time to 
time, even with the wonderful system that we have recently 
established. It appears as though our system may be designed 
for at least company-sized units and, when small units deploy, 
similar to my husband's unit, they can easily be forgettable. 
Perhaps those units could be assigned to a Family Readiness 
Group which has already been established, or there could be a 
secondary means of communication other than the Family 
Readiness Group, used to distribute information to spouses and 
family members of the deployed military members.
    I have recently learned that we now have many new tools and 
resources in place, such as the Family Assistance Centers and 
the Family Readiness Support Assistants. We could never have 
too many of these. We already have 15 Family Assistance 
Centers; however, we really could use more Family Readiness 
Support Assistants to ensure the family Readiness Groups are 
functioning properly and the Transitional Assistance Program 
benefits and resources are communicated effectively. Because 
sometimes we have family members who are already stressed out. 
And, so, it takes a lot of extra time. They may be overwhelmed 
with the additional load that they have because their family--
because of the soldiers who are deployed.
    And, so, sometimes it might be helpful to have a--they may 
not be able to participate in Family Readiness Groups the way 
that they would like to. So, if they're already stressed, then 
for them to also head to--which is a great outreach. It's a 
great outreach. It's a great way for some people to really be 
able to get involved and that, but there may be some family 
members who aren't able to--and, also, who aren't located 
geographically within a--you know, a close area to where it 
makes sense for, you know, them. Even though our Family--we--
our--they offer great opportunities to be able to video 
conference and that type of thing.
    But, yeah. Maybe just putting more Family Assistance 
Centers, like a stable organization that can be there, even 
when the Family Readiness Groups, perhaps, are not able to 
function in the way that they would like, or when there are 
small detachments, maybe it could help to cover those.
    But, Madam Chairwoman, this concludes my prepared 
testimony, and I'd be pleased to answer any questions you or 
your Members of the Subcommittee might have.
    [The prepared statement of Ms. Williams appears on p. 57.]
    Ms. Herseth Sandlin. Thank you very much.
    Mr. Saenz, you're now recognized.

                     STATEMENT OF ROY SAENZ

    Mr. Saenz. Thank you, Madam Chairwoman and Members of the 
Subcommittee, for this opportunity to speak with you about my 
transition. My name's Sergeant Roy Saenz. I served in the 
United States Marine Corps Reserves for 8 years, from August 
1997 to August of 2005. While I was in the Reserves, I was 
activated twice in support of Operation Iraqi Freedom.
    My first deployment was with Engineer Company B here in 
South Bend. Prior to leaving to our theater of operations and 
when we were returning, we went through a series of debriefings 
in Kuwait. This series was approximately 3 days' worth of 
classes that we had. The debriefing I remember the most was the 
medical brief. We were given a questionnaire, asking about any 
issues we may have. Two things stood out; one, quote, If we had 
any issues, we would be placed on medical hold in Camp 
Pendleton until they were resolved, end quote; and, two, quote, 
We're not telling you not to put any issues on the 
questionnaire; just that you would be on medical hold, quote.
    This meant that we would not be able to return home with 
our unit. Meanwhile, we were already aware of plans that were 
being made for our reunion back home in South Bend. Friends and 
family had been glued to the newspapers, following our every 
move, because we had an embedded reporter with us. So, at both 
ends of the phone lines, everyone wanted to be reunited, not 
stuck in California.
    When we arrived in California, at Camp Pendleton, many 
units were returning there. So there was a very tight and quick 
schedule to get us through our briefs. We again went through a 
medical brief. This time, however, we waited in line and met 
with the doctor for a quick and very basic evaluation. If we 
brought anything up, they told us, ``You can stay. We will do a 
full evaluation, but you will have to wait until next week.'' 
Again, this meant that we would not be able to return home with 
our unit. Myself, I was in a unique position, where my mother 
and younger brother, who live in Arizona, had already flown to 
South Bend to meet us. So, the incentive to report anything, 
even minor, was trumped by the desire to reunite with family 
and friends.
    Upon arriving in South Bend, we received 3 days of leave. 
After that, we had a variety of classes over the course of the 
next week. Representatives from the Marine Corps League, 
Veterans of Foreign Wars of the United States, and American 
Legion came with the intent of mostly increasing membership; 
however, through their comments, we did hear, ``Make sure you 
keep a copy of your selective reenlistment bonus (SRB) and 
medical records, and take your DD-214 to the county recorder's 
office.''
    My return from my second deployment, which was with Bridge 
Company Bravo from Folsom, Pennsylvania, was very much the 
same; however, upon returning, this time through Camp Lejeune, 
they informed us that we would not be held in Camp Lejeune; 
that we would be fixed once upon returning to our home unit. 
This time, as an attachment, I was then to spend 3 days with 
the unit in Folsom, Pennsylvania, and then be returned to my 
unit in South Bend.
    I have a couple of issues that I would like to bring to the 
Subcommittee's attention. The first one is that the educational 
process and opportunities that are available to servicemembers 
while on active duty, there's a lot of downtime while you are 
in Iraq and the opportunity to take classes. And, upon 
returning, while I was on medical hold, there was opportunity 
to take continuing education classes for college. This 
information was not revealed to me until June of 2005, which 
was 23 days prior to me coming off of active duty.
    The programs that were made available and the information 
was very inconsistent at that point in time, with things such 
as the REAP program, Reserve Education and Assistance Program. 
And the 2 years active--continuous active duty buy-in--it is 
Active Duty Reserve GI Bill. And there's a lot of information 
about that at that time that we weren't aware--made aware of 
due to the local unit levels not having the information readily 
available.
    The next thing that I would like to bring up to the 
Subcommittee is the filing of a claim process. Being in a 
unique position, where I fell off of contract at the end of 
my--coming off of active duty, whereas previously mentioned, 
the 90 days of hold for optional drilling, I chose not to do. 
But when coming off, I immediately filed for my VA Service 
claim. The process took about 8 months for the initial 
decision. Post to that, I continued to receive treatments for 
PTSD at a local VA, which is a local clinic here in South Bend.
    Eventually, I went to the Work One force--I'm sorry, Work 
One office, which is the unemployment office here in St. Joseph 
County. At that point, I happened to stumble across a sign that 
said, ``Are you a veteran? Have you talked to a VA 
representative?'' Fortunately, I spoke with the representative. 
He informed me about the Vocational Rehabilitation Programs 
Coordinator in Fort Wayne, Indiana. So I met with him, and he 
was very thorough and very informative. I, later on, had 
medical issues that I--from injuries that I received in Iraq, 
which landed me in the hospital in May of 2007.
    As of May of 2008, the VA is still declining to pay this 
bill. It is during this process and during the compensation and 
pension pro--examination that I realized that there was a 
miscommunication and very limited communication between the VA 
benefits compensation and pension and the VA medical side.
    The last point that I would like to also illustrate is the 
PTSD factor. One of my Marines called me about a week--after a 
month we came--from when we came back. Because we were attached 
to a different unit in Folsom, Pennsylvania, the commanding 
officer at the local level here's response was, ``He's Folsom's 
problem, not ours.'' Unfortunately, this Marine was later on 
discharged Other Than Honorably. These--this Marine, who served 
honorably, reached out to the unit, and we failed him due to a 
system that was not prepared for handling the PTSD of Reserve 
Marines--or Marines, and, by command, was not willing or 
prepared to handle the mixed issues with units.
    My recommendation to this Subcommittee is as follows: 
Evaluate Reserve troops returning from Iraq and Afghanistan for 
PTSD related-issues at 45, 90-day and one-year mark. These 
evaluations should be done whether the servicemember is still 
on active duty, active reserves, individual ready reserves, or 
off of contract.
    The VA--the second recommendation is, the VA Medical and 
Benefits Departments develop a more efficient communication 
system to allow for a faster and smoother process of claims by 
veterans.
    Third is, currently, there are no efficient programs post-
service that inform veterans of programs and assistance 
resources in their local regions. Many veterans get frustrated 
and give up on the system.
    Fourth, better inform Reserve servicemembers, while still 
under contract, of programs available while on active duty, 
better inform them of programs available post-service using 
available resources, such as VA service representatives, other 
local veterans' representatives, including but not limited to 
unemployment agencies.
    Fifth would be establish a way for troops to deal with 
Administration problems that occur after they separate from 
service, such as unresolved pay issues.
    And my last recommendation would be--which is probably the 
most important, at this point, for when the troops go to 
veteran status--is to re-evaluate what services can be offered 
at the local level. Many veterans do not have the flexibility 
of schedule nor the means to travel long distances to receive 
assistance.
    My experience in 2007 was, I made eight trips to Fort 
Wayne, which was over 2\1/2\ hours; two trips to Marion, over 
2\1/2\ hours; and six trips to Indianapolis, over 3 hours one 
way, to receive assistance through the VA system.
    That concludes my testimony. Thank you.
    [The prepared statement of Mr. Saenz appears on p. 57.]
    Ms. Herseth Sandlin. Thank you very much.
    Ms. McCool, thank you for being here. You are now 
recognized.

                    STATEMENT OF DAWN McCOOL

    Ms. McCool. Thank you, Subcommittee Chairwoman Sandlin, 
Congressman Boozman and Congressman Donnelly. I really 
appreciate the opportunity to share my experience today. My 
husband is currently a member of F Company 151st infantry. He 
was deployed in 2003 to Afghanistan for 15 months. His unit was 
deployed again in 2007 to Iraq, and Jim stayed back as the Rear 
Detachment Commander.
    The main source of the assistance when he was deployed was 
the Family Readiness Group. Unfortunately, it was not up and 
running, you know, as we had hoped. It was--mainly consisted of 
three women. We did try to involve a lot more family members, 
but it was very low. It just--the support was not there. 
Colonel Warrick did try to help us, you know, get it going. We 
had planned a big family day at Culver Military Academy. Had a 
humongous turnout for that. And we had also planned one for the 
zoo, so we got a call list of all the guys that were currently 
deployed. Had a lot of people respond by saying, yes, they 
would be there, and we had maybe 20. So it was a very tough 
experience, but it's nice to hear that there are more--you 
know, more resources out there than what I was aware of at the 
time that he was deployed.
    Okay. The one resource that was provided on a broad scale 
for the Family Readiness Group was a conference they held at 
Scott Field, and that was just information on making the Family 
Readiness Group stronger, things that we could implement to 
help build up the--you know, the success for the Family 
Readiness Group. It also--but it--you know, it did not mention 
the fact, you know, anything abut the transition for the--when 
the guys came home. We were just kind of in the dark.
    My husband returned to the U.S. in July of 2005, and he 
came home in August of 2005. Once we found out that they were 
coming home, there was a whole new, you know, set of emotions 
that set in. It was just trying to, you know, reintegrate him 
into the family. Our three children--you know, it was great to 
have dad home, but, you know, it was just--it was a big--it was 
a struggle.
    He was--when he got home, he got to stay home without 
returning to his full-time job for Shindler Elevator for 5 
months, so that was, you know, a time for us to get to know 
each other again. And I, you know, currently work for AM 
General, where we build the military Humvees, and it is--they 
were very, very supportive. Anything, you know, I needed. And I 
definitely, you know, want to say thank you to them.
    And I think that concludes my testimony.
    [The prepared statement of Ms. McCool appears on p. 60.]
    Ms. Herseth Sandlin. Thank you.
    Ms. Masapollo--am I pronouncing that correctly?
    Ms. Masapollo. Masapollo; yes.
    Ms. Herseth Sandlin. Thank you for being here, as well. You 
are now recognized.

                  STATEMENT OF LORI MASAPOLLO

    Ms. Masapollo. Okay. And thank you, Madam Chairwoman 
Sandlin, Congressman Boozman, and Congressman Donnelly. And 
thank you for the invitation to be here today. I appreciate it. 
Can you hear me okay?
    Ms. Herseth Sandlin. Can you pull that a little bit closer? 
Thanks.
    Ms. Masapollo. I'm rarely quiet.
    I am Lori Masapollo. My husband is Lieutenant Gary 
Masapollo. He's with the U.S. Army Reserves, and he has been a 
commissioned officer for 22 years, and, as we speak, he is 
currently at Fort Benning, out-processing from the fourth full-
term deployment that he has had since 9/11. We're no stranger 
to deployments. Unfortunately, I am a stranger to most of the 
Transition Assistance Programs that I've heard mentioned here 
today. And I would think that probably a lot of that has to do 
with the fact that, like Ms. Williams testified, my husband 
does not deploy with a full regiment behind him and take off 
from a structured environment. He's usually gone--going in 
small groups, sometimes just on his own, as he did on this one, 
and that resource of having Family Readiness Groups and a 
community of like-minded people who are also deploying with 
him, and their families left behind, doesn't exist for us. And, 
so, we tend to fall through the cracks on a lot of these 
programs.
    But I wanted to testify today, he's been gone 41 of the 
last 79 months, and, actually, I think that was conservative, 
in that I think it's more like 42 or 43 of the last 79 months. 
And that has certainly left issues with our family. And while 
he's getting ready to retire when he comes home from this, I 
would like to address some programs that we would have seen to 
be beneficial to us over the course of his service and, 
certainly, what we are concerned about is out there existing 
and made aware to younger Reservists that are currently serving 
and/or do Reserves.
    As Gary comes off this deployment, he needs to find a job, 
and that is his primary concern right now, and a great deal of 
stress to him. He currently--or, before deployment, in the past 
several years, he was a contracted Army employee who taught 
Military Science and International Law classes at the 
University of Notre Dame for the Fighting Irish Battalion. He 
had to give up that contract when he took his last deployment 
so they could fill his position. So he's coming home 
unemployed.
    He's 45 years old, and that's the first time he's been in 
that situation. He is very nervous. So--and I think he's facing 
a lot of the same stress situations that most veterans do. If 
you've spent most of your life in military service and you're 
coming home to a job market like this one, he's worried. How do 
you find a new employer that's not going to see his 25 years in 
the military and look at what he's done and not see that as 
intimidating or think, good grief. This guy must be too 
regimented, you know, to work well in the civilian work force. 
That is a major concern for him.
    And I think if we would have--you know, what we're doing to 
combat that has been entirely on our own. We are reaching out 
to fellow servicemembers who have already transitioned. We are 
seeking out third-party Web sites. We're doing everything we 
can to try to update his resume and help craft it in such a way 
that he is seen as an asset, which I believe him to be.
    So, if the military does offer any kind of resume crafting 
assistance, job placement, some of the support where you are 
partnering employers who have interest in military personnel, 
or would be, you know, amenable to that sort of thing, we've 
never been offered that. In fact, I can tell you that, right 
now, at Fort Benning, what he got handed was, ``If you got any 
questions, try this Web site,'' stamped him, and sent him on, 
you know.
    If he's unable to find work, his education will probably 
need to be brushed up or rede--you know, recenter him to 
different employment skills that will make him employable 
somewhere else. If there is anything out there, he does not 
know when I'm speaking with him, and he has never been given 
any information about what education assistance is available to 
him now, and GI Bill would not apply. He doesn't know what's 
out there. But that sort of thing would be very helpful, 
because we're going to have to come up with something when he 
comes home.
    When he comes off active duty and goes to find employment, 
healthcare coverage is a major concern for us. Gary and I have 
five children. One of our sons has since deployed with the Air 
Force, but the other four depend on us for healthcare. And I 
will echo that finding TRICARE providers in this area is very 
difficult. Keeping one for any length of time is practically 
impossible. If they are involved with the program, they 
frequently get out.
    I'm also very concerned that Gary's going to come home with 
more stress than on previous deployments, because he is 
unemployed, and that--it can lead, possibly, to some more 
psychological issues than what he's had in the past. We do miss 
him very much when he's gone, but when he comes back here, 
there's a large period of re-adjustment to bring him back into 
the family, to make him feel like he is contributing, and he 
has concerns there.
    Again, during out-processing at Fort Benning, they simply 
told him, ``Go to a VA Hospital. Find your VA Hospital. If 
you've got issues, go there,'' or, as you indicated, ``If you 
want us to do a full work-up on you here and discuss it, you'll 
be held.'' And it's kind of the issue that it's almost a 
threatening circumstance. He certainly doesn't care to spend 
any more time at Fort Benning, Georgia, than he needs to. He 
wants to come home to his family, and I would think that that's 
like most Reservists coming home; they want to get on with 
their lives. They're not interested in being held up. But our 
closest VA Hospital is hours away and not really a viable 
option, and he does have issues.
    I mean, mentioned in my comments, Gary, when he was 
drilling, as the regular Army has downsized, these Reservists 
are being asked to more frequently augment troops and go back 
in to do multiple deployments. He's 90 miles away from drill, 
in Homewood, Illinois, or Gary, Indiana. Those people have 
never reached out to me. This last time he deployed as an 
individual augmentee, he went with a pool and left 308 to take 
this last assignment, which means he's really off everybody's 
radar, and there is nobody following up with us to make sure 
that we have the resources we need to cope pre-, post-, or 
during deployment.
    So I think that anybody who takes on a Reservist's role 
right now is really a wonderful patriot, because there's not 
really a lot of perks involved with this job right now. When 
they leave--you know, when you're gone as often as they are, 
he's coming home to rusty skill sets for business. You know, 
there's a lot that the rest of the world continued to learn and 
grow and do that he is behind on when he comes back to the 
corporate world. He has lost promotions, small 401K nest eggs, 
because he hasn't been home to contribute, and, except for this 
latest tour, he had to maintain two households.
    MacDill Air Force Base has somehow condemned on-base 
housing. They put him out into a private sector apartment, a 
furnished apartment, at $3800 a month. When you do that, 
combined with renter's insurance, food, and waiting to get 
reimbursed, sometimes 2 to 3 months later, while you're also 
maintaining your home expenses here for us, that's a lot of 
financial burden to place on someone when they're away. While 
we had the resources to deal with that, I think there's a lot 
of young Reservists that do not, and that's a financial burden 
they should not be made to cope with.
    That's over time. My apologies, but thank you for allowing 
my testimony today.
    [The prepared statement of Ms. Masapollo appears on p. 62.]
    Ms. Herseth Sandlin. Of course. We appreciate it very much.
    Mr. Blosser, you are now recognized.

         STATEMENT OF STAFF SERGEANT DONALD A. BLOSSER

    Sergeant Blosser. Thank you, Madam Chairwoman and 
Subcommittee Members, for the opportunity to speak with you 
about the transition experience. My name is Staff Sergeant 
Donald A. Blosser, for the Indiana National Guard.
    I served for 12 years in active duty, from 1980 to 1992, 
and I was stationed at Fort Lewis, Washington, when I was sent 
to Arizona Army--or, National Guard, the unit for deployment to 
what, at the time, was Operation Desert Shield. We were motor 
transfer operators. We deployed from Arizona to Saudi Arabia in 
January 1991, returned August 1991. The call-up went 
sufficiently, although One Stop and other services provided was 
not around at the time or was in the process of going in. We 
did not see the Veterans Affairs representatives at the time.
    We had general medical exams, as is preliminary exercise. 
On the return, we did not stay in Arizona for a prolonged time, 
and returned back to Fort Lewis. Upon return to Fort Lewis, we 
were placed in units that we would like to go to, because Fort 
Lewis was drawing down, and our unit was gone when we came 
back.
    We did meet with representatives and agencies on active 
duty that mostly were medical and some VA. I spent from 
September 2005 to present with the Indiana National Guard. I 
went back to my civilian job, driving trucks, from 1992 to 
2005. One large lure for joining the National Guard was to 
finish what I had started, to retire and to serve my country. 
And to receive my benefits. And this was--I was not receiving 
it due to a youthful oversight.
    I was put on active duty status in July of 2006 and 
deployed to the region on October 2000--correction, October 7, 
2006. I deployed with the National Guard unit out of Camp 
Shelby, Mississippi, and there were 55 soldiers from the State 
of Indiana who joined the unit of Mississippi, in order to 
bring it to 299 strong. There were soldiers from Kentucky, 
Tennessee, Michigan, as well, to reach its number. This was 
difficult at times because it brought together different 
mentalities from different parts of the country.
    When I returned on September 25th, 2007, from Iraq, I 
demobilized at Camp Shelby, Mississippi. I spent 3 days out-
processing. They broke the days down into areas--groups; one 
was personnel, one was meeting representatives, one getting 
information on the One Stop, the Veterans Administrative 
benefits, and TRICARE. They gave us stations to visit, and the 
whole unit had to pass through. We were issued a check-sheet 
that had to be initialled by each representative to assure that 
we covered each station. The medical area had nine substations. 
The benefits station had five organizations represented. Once 
you went to final station, you were cleared.
    The State of Indiana had representatives at Camp Shelby to 
assist us, and any equipment, weapons to get transferred back 
over, and to help us make reservations for travel back to the 
State of Indiana. The representatives from Indiana were 
professional and represented--the Indiana National Guard was a 
constant, from the advance before deployment, when a lieutenant 
from the Joint Force headquarters in Indianapolis and I were 
the advance party. We met with the commander and made 
arrangements and were joined by three to four other Indiana 
representatives who helped transfer the equipment.
    Upon return, there were Indiana representatives there to 
take care of our equipment. We had no worries as far as who was 
being transferred from one State to the next. All Indiana 
representatives were very sharp and smooth during the process. 
The Kentucky representatives were sharp, as well, and they had 
72 soldiers that had deployed. Michigan and Tennessee did not 
have representatives, but we're talking groups of about 12 
people.
    There was a true, individual concern for each soldier 
passing through. We were told that we would be going through 
this again in about 90 days at the State level. Around the 
middle of January, we did this at the 38th Infantry Division 
Headquarters Armory in Indianapolis. I completed medical 
questionnaires, saw a doctor, and met with representatives from 
the Veterans Administration, One Stop, the VFW, American 
Legion, and other support groups, including TRICARE. That event 
went fairly well. I'm comparing this from when I came back from 
Desert Storm.
    I had been deployed with Dayton Freight Line for 9 years. I 
put them in an award for the State--from the State, because I 
told them I was leaving to serve. They wished me well, told me 
to be safe, and took care of my family while I was overseas. I 
did not ask questions. All they asked for was document orders, 
showing that I was being deployed. While I was gone, they 
checked on my family twice, they also checked and gave her 
profit sharing checks, and gave her any assistance that she 
needed.
    When I came back, they gave me a pro-rated profit sharing 
check, welcomed me back with open arms, and . . . I have heard 
of the horror stories of some civilian jobs out there that 
don't receive the servicemembers as well as I received with my 
civilian job.
    To end on a positive note, overall, I must say that the 
soldier is better informed and taken care of. In my situation, 
the TRICARE needs to see improvement. And this concludes my 
statement.
    [The prepared statement of Sergeant Blosser appears on p. 
63.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Blosser.
    I thank all of our witnesses. I would now like to recognize 
Mr. Donnelly for the first round of questions.
    Mr. Donnelly. The first question I have is for Ms. McCool 
and Ms. Williams. Has there been any--in the Family Readiness 
Group, is there any standard process that is used, or is it 
different from time to time?
    Ms. Williams. Sir, I believe there is a standard process--
standard operating process, but--for procedures, but if the 
unit--if it's not stood up, you know, in the beginning, or if 
they don't--coming into it in the beginning, then they never--
those, you know, processes and procedures are never employed.
    Mr. Donnelly. So it's pretty easy to get lost between the 
cracks in this process.
    Ms. Williams. From the smaller detachments, I think so, 
sir. Our--I mean, our Family Readiness Program is outstanding. 
We have a wonderful State that does a great job, great 
leadership. They support their soldiers and families, and, if 
you were to call, at any point in time, to the Family Programs 
office and say, hey, I need help with this, I believe they 
would do everything they could to help. I think it's just when 
a lot of information--if information is disseminated through 
the Family Readiness Group, if you don't have a functioning 
Family Readiness Group, then that's where you can have an 
issue. But if you have another conduit, such as the Family 
Assistance Centers, and they could disseminate the information, 
I think that would be really helpful as a backup.
    Mr. Donnelly. And the next thing is just a comment I have. 
We heard from Sergeant Saenz about the long distances you had 
to travel for hospital-type care.
    Mr. Saenz. Yes, sir.
    Mr. Donnelly. And we heard from Ms. Masapollo about the 
long distances, and we've been talking about that in this area 
for a significant amount of time, and we're fortunate to have 
folks from the VA here. And, to you, I say, this is the hole in 
the yard. And what I mean by that is, from this spot, in this 
building, your closest VA hospital is 2\1/2\ hours away. It's 3 
hours to Indy, it's 2\1/2\ hours to Fort Wayne, 2\1/2\ hours to 
Battle Creek, 3 hours to Chicago, and we are the place that has 
been forgotten.
    And it is not just--I bring this up because we have seen, 
firsthand today, the effect that this has on our community; 
that this is not just a desire to fill up a hospital building 
or fill up medical care, but it is directly impacting the lives 
of the people who serve our community, and we have truly been 
the area that has been forgotten about. At least from what I 
see. Has your experience been the same?
    Ms. Masapollo. Yes. Yes, it has.
    Mr. Donnelly. And, Ms. Masapollo, in regards to your 
husband's employment at Notre Dame, is he appointed and placed 
there by the Army, or is that an appointment by military aid?
    Ms. Masapollo. The Army placed him there, and then he 
contracted through Comtech----
    Mr. Donnelly. Okay. So----
    Ms. Masapollo [continuing]. For that position, but he did 
have to relinquish it when he was deployed so they could fill 
it. Otherwise, they would not have a professor for the 
program--for the ROTC program.
    Mr. Donnelly. Okay. And I guess my question, then, in 
followup is, is there not something else to guarantee him when 
he's not deployed to serve his country?
    Ms. Masapollo. No.
    Mr. Donnelly. Then I think Mr. Peterman can talk to you 
later about that, as to how that adds up. Maybe you could 
assist me on that.
    Thank you, Madam Chairwoman.
    Ms. Herseth Sandlin. Thank you, Mr. Donnelly.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Again, thank all of you for serving in your different ways, 
and the--I do think it's important that we get this smaller 
group thing fixed in the sense that, hopefully, as the war 
winds down, I think the deployments that we have in the future, 
hopefully, at some point fairly soon, will be of that nature. 
You know, it's one thing when the whole brigade leaves, and 
things, and you've got all of that support, but the other 
situation, as we--again, as this thing winds down, which it 
will do, at some point, that we have the ability to outreach to 
those smaller groups.
    I thank you, Madam Chair. We appreciate you bringing that 
to our attention.
    Hopefully, we can get you fixed up, Mr. Saenz, with some of 
your problems. I don't know what Mr. Donnelly--you know, Joe, 
myself, and the Chairlady will see if we can get some of these 
things addressed a little bit more timely. The bureaucracy is 
so frustrating and I know that that is frustrating. And, so, we 
appreciate your reminding us of that. I guess, sadly, I have 
constituents like you that remind me, it seems like, on a daily 
basis, as they run into the bureaucracy, also. But we do 
appreciate your service. And, again, thank you very much for 
your very, very helpful testimony.
    Thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. I fully agree 
on this issue regarding the smaller detachments, and I think 
that we will be able to follow-up with a later panel here 
today. When we get back to Washington to address this issue, we 
will have some creative ideas that maybe some States are coming 
up with. I think, certainly, we're seeing it with the National 
Guard, with some folks that are volunteering for additional 
deployments, and then maybe, in certain terms, are being 
brought to full strength with units of prior deployment.
    I'm particularly concerned about our Reserve members, 
because even in South Dakota, we know exactly who to go to when 
we want to find out what's going on with different Guardsmen 
from the State; where they are in-country, what are the dates 
of demobilization. We can get everything, but we don't always 
have the same kind of contact, the go-to contacts--for all of 
these different Reserve units in the State. When they're 
getting attached to larger units it's very difficult.
    I think, Ms. Masapollo, you've highlighted, from the family 
perspective, just how difficult this is, particularly when 
there are multiple deployments.
    I do want to spend a little bit of time with my questions 
for you, Mr. Saenz, as it relates to the education benefits. I 
appreciate the recommendation you've made to the Subcommittee 
today as it relates to followup in identifying and re-assessing 
for PTSD. I think that's a very important recommendation, that 
we have spoken with our colleague from the full Committee and 
our Health Subcommittee in our districts and other colleagues' 
districts, and in especially looking at re-evaluating services 
at the local levels to assist folks.
    Let's talk about this education benefits issue that you 
experienced. Can you explain that in just a little bit more 
detail to me about what was available to you in-country during 
the deployment, and the fact that you weren't aware of some of 
the benefits until 23 days right before de-activation. 
Sergeant, just cover that again for me.
    Mr. Saenz. The--most Marine Reserves, when they join on, 
there's the Collect Reserve GI Bill that is part of the initial 
contract right.
    Ms. Herseth Sandlin. Which is pertaining to our Chapter 
1606 Benefit.
    Mr. Saenz. Yes, ma'am. What was going on when we were 
coming off of deployment is, in the Administrative systems, the 
units for almost all rela--all branches of military, there's 
information that they have, primarily regarding educational 
opportunities. For example, while you're on active duty, you 
can go to college, and they basically pay for it, whether 
it's--if you're stationed in a certain area for a long period 
of time, you're able to go to a local university there if your 
command allows it. Other folks choose online opportunities. And 
those items are paid for.
    A lot of times, now, while we're--our troops are deployed 
to Iraq and Afghanistan, they are in a position where there's a 
lot of downtime, and where they could use something of that 
nature, whether it be a correspondence or an online, because 
there are a lot of bases now that have the online capabilities, 
so that the--they would be able to plug into those types of 
things. However, that information's not getting to them. 
Whether it be a unit level issue or a branch issue, the 
information's just not getting to them that these are available 
options for them.
    The second part of that is that the REAP Program, Reserve 
Educational and Assistance Program, it came out and was 
approved by the House and the Senate, roughly, about two--the 
end of 2004/early 2005. That program, while it was marketed 
at--to us at the unit level as an opportunity to increase in 
your moneys available for post-contractual service to--for 
education, however, when all the dust settles, it was more of a 
re-enlistment type of feature. So there's about 2 to 3 years' 
worth of servicemembers who were either coming off of active 
duty--or, coming off the Reserves or right during that time, or 
just to, that never saw the opportunity to plug into that 
resource.
    There are many--on my second deployment, I volunteered, as 
well, with a small unit from South Bend. There was four of us 
that attached to Folsom. Again, it's a very similar situation 
with a lot of these spouses here, where you're augmenting a 
unit. Well, that information, again, is not necessarily sent 
out to you. But what a lot of us were trying to do was 
volunteer to get two consecutive years, to be able to buy into 
the Active Duty GI Bill, because that was the way that we 
understood it.
    Well, in a lot of cases, we ran into roadblocks because the 
higher-ups did not want that to happen. So we had come off of 
one set of orders before going on to the next set of orders, 
which would give you a gap in service so that we wouldn't have 
that two consecutive years; therefore, a lot of us, during that 
time period, were trying to at least accumulate 2 years of 
active service because it was our impression that then we would 
be able to qualify for the REAP Program. Unfortunately, we 
missed out on both opportunities.
    Ms. Herseth Sandlin. Well, I am pleased to inform you we 
have taken some steps to address this. Not all, which would get 
it to your particular circumstances or some of those that you 
have served with. I mentioned, the National Defense 
Authorization Act--and this is going to require additional 
oversight from our perspective, as well as our colleagues and 
Armed Services Committee. We made sure that the Chapter 1607 
now can be utilized by selected Reserve members for 10 years 
following separation of service, and that it's no longer 2 
consecutive years but three cumulative. I believe that's right, 
right?
    I understand the frustration that you experienced there, 
and we have had concerns. We've had a number of Subcommittee 
hearings where we've asked some folks with the Federal agencies 
just how the new program was being marketed, if at all. 
Clearly, there have been problems, and we appreciate you 
explaining, in more detail, your experience that we can take 
back and continue to work to address these shortcomings in 
effective administration of the new program that was designed 
to reward your service, not be so difficult to access.
    Before recognizing Mr. Boozman and Mr. Donnelly for any 
followup questions they may have, let me pose two further quick 
questions. First, Ms. McCool, you state in your written 
testimony that it would be very helpful, and I think families 
would benefit from some sort of compilation to have a book or a 
pamphlet of the services that would be provided and available 
to servicemembers, their spouse, and their families.
    Have you discussed that idea with the Family Readiness 
Group or with anyone in the Indiana National Guard?
    Ms. McCool. Currently, you know, I've talked to my husband 
about it, as he, you know, is a Rear Detachment Commander, to 
try to come up with a--you know, a pamphlet or something just 
so--you know, even if it's a phone number--just somebody that 
the families can contact to let them know, I'm having this 
problem, you know, and try to get them the help that they need, 
because there is help out there, and they just have to be able 
to find and access those types of services.
    Ms. Herseth Sandlin. Right.
    Then a question for Ms. Williams, Ms. McCool, and Ms. 
Masapollo. We are aware that we are going to get a little tight 
on time, so just a yes or no response. Were you, at any time 
during your spouse's deployment, contacted by anyone from the 
Department of Defense, the VA, or the Department of Labor?
    Ms. McCool. No.
    Ms. Williams. No.
    Ms. Masapollo. No.
    Ms. Herseth Sandlin. Ms. Williams.
    Ms. Williams. No.
    Ms. Herseth Sandlin. No? Okay. Ms. McCool, no. We do not 
want to leave you out, Mr. Blosser, so let me just say I'm glad 
that your transition sounds like it was smoother than many.
    Sergeant Blosser. Yes.
    Ms. Herseth Sandlin. It sounds like it's because of, sort 
of, the learning as we go and the great work of the Indiana 
National Guard in the present, in partnership with other 
agencies during the demobilization. I'm very supportive of 
this. Thank you for being here and for sharing your thoughts 
and insights.
    Mr. Donnelly.
    Mr. Donnelly. The only other thing I'd like to say is to 
thank Dayton Freight Line for being such an exceptional 
employer. They really serve as a model to everyone.
    Sergeant Blosser. Thank you.
    Ms. Herseth Sandlin. Mr. Boozman.
    Mr. Boozman. No, I--that's exactly what I was going to say. 
I've heard very much, we do appreciate it.
    Ms. Herseth Sandlin. Thank you.
    Thank you all for being here and for testifying. We know, 
in service to one's country, in addition to your own members of 
your family, there is a team effort here, and we certainly 
appreciate the insights that you have offered and the 
information that, again, we can take back to Washington. We 
look forward to following up with these various agencies. Thank 
you very much.
    We are now going to ask that our witnesses on Panel Three 
please come forward. Participating in the third panel is Mr. 
Stephen Short, Department Adjutant, Indiana, the American 
Legion; and Mr. Gary Whitehead, Service Officer for the Elkhart 
County Veterans of Indiana.
    Because we have to wrap up the field hearing no later than 
3:45, I am going to have to ask you to do everything possible 
to keep your summary of your written statements to 5 minutes so 
that we have plenty of time for questions and have enough time 
for our fourth panel, where we have the representatives from 
our Federal agency joining us today.
    We very much appreciate Mr. Short and Mr. Whitehead for 
your service and your continuing service for our Nation's 
veterans and to veterans here in the 2nd Congressional District 
of Indiana. Thank you.
    Mr. Short, we will start with you. You are recognized for 5 
minutes.

 STATEMENTS OF STEPHEN W. SHORT, DEPARTMENT ADJUTANT, AMERICAN 
 LEGION, DEPARTMENT OF INDIANA; AND GARY M. WHITEHEAD, ELKHART 
          COUNTY VETERANS SERVICE OFFICER, ELKHART, IN

                 STATEMENT OF STEPHEN W. SHORT

    Mr. Short. Thank you, Madam Chairwoman, Members of the 
Subcommittee. Thank you for the great opportunity to present 
testimony today. Since you all have a copy of my complete 
testimony, I will try to highlight the concerns and 
recommendations of the American Legion with regard to the 
enhanced Transition Assistance for members of the National 
Guard and Reserves.
    After the fall of the Soviet Union but prior to September 
11th, 2001, the Bush and Clinton administrations began a 
sizeable drawdown of our active military force structure, 
placing an increasingly large burden on the Reserve components 
of the United States military to fight our Nation's war. During 
that time, Congress enacted Public Law 101-510, which 
authorized the creation of the Transition Assistance Program, 
or TAP, to assist service--servicemembers from several areas 
back into the civilian work force. The Disabled Transition 
Assistance Program, or DTAP, was created by the Department of 
Labor and the Department of Veterans Affairs to assist not only 
disabled military servicemembers but their families back into 
civilian life.
    As I previously mentioned, our Reserve forces have become 
an enormous portion in total force structure. With continued 
DoD reliance on the 1.8 million Reserve and National Guard 
troops, it becomes imperative that we continue to attract and 
retain well-qualified individuals. Without providing proper 
incentives for these individuals to enlist and re-enlist, our 
military will be hard-pressed to accomplish our Global War on 
Terror mission. Currently, many National Guard and Reserve 
troops are returning from the war in Iraq and Afghanistan only 
to encounter problems with their Federal and civilian 
employers. They face the prospect of no job, loss of promotion 
in benefits, and job promotions. Federal law, as we know, is 
supposed to protect these servicemembers from losing jobs, 
benefits, and promotions, but, sadly, in many cases, we've been 
unable to accomplish this because of the lengthy deployment and 
multiple deployments.
    The American Legion believes that these servicemembers 
would greatly benefit from a stronger and enhanced service 
provided by the Transition Assistance Program, particularly 
with regard to the employment, mental health, and small 
business components. On the other side of the coin, along with 
multiple deployments of Reservists, it's had a catastrophic 
effect on employers, as well. Currently, the Small Business 
Administration offers military Reservists the Economic Injury 
Disaster Loans to businesses that can provide evidence that 
their activated Reservist is critical to the success of the 
company.
    The American Legion recommends that the Small Business 
Administration should be part of any Reservist or National 
Guard TAP briefings, and act in an advising capacity to veteran 
businessowners and to assist them with resources and 
information to help lessen the impact of activation on their 
bottom line.
    Another issue of great concern to the American Legion is 
the availability and use of the Montgomery GI Bill, educational 
funds for Guard and Reserve members. Currently, the Montgomery 
GI Bill pays an average Reservist $317 a month compared to his 
active-duty counterpart, who is paid $1101 a month. In 
addition, rising tuition costs force many Reservists to rely on 
commercial loans to supplement the Montgomery GI Bill. When 
Reservists are forced to withdraw from school due to the 
military obligation, the commercial loan must still be paid 
regardless of whether the student finishes the course, adding 
to the cumulated debt of that servicemember. The American 
Legion recommends that TAP briefings include an education 
representative to provide National Guard and Reserve members 
this kind of information so they can avoid undue financial 
hardship.
    Currently, under the Soldiers and Sailors Civil Relief Act, 
this exists for servicemembers with regard to actions 
terminating leases, evictions, foreclosures, default 
judgements, as well as providing for lower interest rates on 
loans, credit cards, and protecting against lapses or 
terminations of insurance policies. With increased reliance on 
Guard and Reserve units, creditors residing in remote areas 
outside the traditional military towns are not aware of this 
act. As a result, servicemembers are experiencing financial 
difficulties and, in some cases, being financially ruined 
because this piece of legislation is unknown. If the Transition 
Assistance Program was made mandatory, much of this confusion 
could be avoided. Currently, the Navy Transition Assistance 
Program reps discuss personal financial planning during 
workshops and seminars, but the Reserve components need to have 
this issue addressed during Transition Assistance, as well.
    The simple fact is that the normal percentage of Reserve 
component troops are separating from Service without the 
benefit of Transition Assistance Programs. Currently, Reserve 
component pilot programs for TAP are underway in Oregon, 
Michigan, and Minnesota. The Department of Defense and 
Department of Labor reports indicate that, in Oregon, 40 
percent of the attending servicemembers were looking for 
employment. The American Legion recognizes the value of this 
program and recommends that it become mandatory for all 
transitioning servicemembers. We recommend that this task be 
accomplished in the following ways: Incorporate TAP into the 
unit's training schedule months before activation. Have the TAP 
briefing during the unit's organization date of a holiday/
family day that would include spouses. Activate the unit for a 
weekend, either before or after deployment. Make TAP briefings 
available to units at their mob station, prior to moving into 
theater, and spend an extra day or two at the demob site to 
include TAP.
    In closing, the American Legion re-affirms its strong 
support of the Transition Assistance Program, but also 
encourages the Department of Defense to require that all 
separating and active duty servicemembers, including those in 
the Reserves and the National Guard, be given an opportunity to 
participate in TAP training not more than 180 days prior to 
their separation or retirement from the Armed Forces, and 
followup counselors not later than 180 days after separation 
from active duty. We also support efforts to mandate that all 
servicemembers be given the opportunity to participate in TAP 
and DTAP.
    Madam Chairwoman, that concludes my remarks, and I'll be 
happy to answer questions.
    [The prepared statement of Mr. Short appears on p. 65.]
    Ms. Herseth Sandlin. Thank you, Mr. Short.
    Mr. Whitehead, you are recognized.

                 STATEMENT OF GARY M. WHITEHEAD

    Mr. Whitehead. Good afternoon, Madam Chairwoman and 
Subcommittee Members. It is a tremendous honor to be here 
today. I have been a County Service Officer for 22 years, after 
I retired from the Navy July 1986. I'm one of 91 Service 
Officers in the State of Indiana. Each county, besides Marion 
County, has a County Service Officer.
    When Indiana Guardsmen and Reservists return home, they're 
required to complete at least 3 days of classes covering 
everything from seeing a Chaplain to having a briefing from 
one--from an individual from Work Force One concerning their 
re-employment rights.
    Even today, when I interview a World War II veteran, Korea, 
or Vietnam veteran, I ask them if their disabilities were 
documented in their service medical record, and they advise me 
that they were not because they would have had to stay on 
active duty several more days, and they wanted to get home to 
their loved ones. This is still happening today, but at least 
they are given the opportunity and the knowledge that there are 
people out in their communities that will be--provide 
assistance for them. Like the old saying, ``You can lead a 
horse to water, but you can't make them drink,'' sometimes our 
veterans are just like that; they think getting medical care or 
compensation from the Department of Veterans Affairs is 
welfare.
    I have spoken with Paul Curtice, the VFW State Service 
Officer, and he advised me of all of the information that he 
and the DAV Service Officers put out during their presentation 
to our returning veterans. Here in Indiana, several months 
after the Guardsmen and Reservists have settled back into the 
community, they are given a program which was referred to 
earlier as the Seamless Program, which is run by the 
Department--Indiana Department of Veterans Affairs. And the 
Department of Veterans Affairs, they work together in this 
program, and they conduct the training with the units, keeping 
them informed about their benefits.
    Personally, I feel that the Department of Veterans Affairs 
and the Indiana Department of Veterans Affairs and the military 
Department of Indiana is doing something--is doing everything 
that they can to make sure our soldiers are informed of their 
benefits and rights as Veterans. It is the veteran's 
responsibility to follow up with their claims for compensation 
and healthcare. They are--I like refer to it as a toolbox, and 
they're given a lot of tools, and they have to use--be able to 
use these tools. The only thing that bothers my fellow Service 
Officers--and there a number of them here in the audience--and 
myself is that, when these training sessions are scheduled in 
our communities, we are not invited to participate since we are 
not a part of Department of Veterans Affairs, or the DOV.
    Overall, the Transition Assistance Program provided to our 
troops is very good, and all of us, working together, can make 
our veterans get re-adjusted back with their families and their 
communities.
    Thank you very much for listening to me, and this completes 
my testimony. God bless America.
    [The prepared statement of Mr. Whitehead appears on p. 68.]
    Ms. Herseth Sandlin. Thank you, Mr. Whitehead.
    Mr. Short, I'm a proud member of the American Legion 
Auxiliary. It's always nice to----
    Mr. Short. Same for me, ma'am.
    Ms. Herseth Sandlin [continuing]. See members of the 
American Legion from other States. Me, too. I appreciate your 
insights and your mention of the pilot program for Reservists 
in Oregon, in Michigan, and Minnesota. It's something important 
for our Subcommittee to follow up, to determine the 
effectiveness of those pilot programs. Again, they may have 
been established as we were working our way through all of 
these deployments and de-activations, and we have had some 
people fall through the cracks. I'd be very interested in 
getting both of your perspectives on what we have heard from 
the prior panel on the smaller detachments, and Ms. Masapollo 
and her husband's situation, in particular, as it relates to 
transition assistance.
    Mr. Whitehead, I agree in terms of the toolbox that 
veterans have and the responsibility to use those tools, but 
we've got to make sure they're getting the toolbox or that, you 
know, once they get the toolbox, they know everything that is 
in it. I mean, a lot is going on at the time that they are 
transitioned back into civilian life.
    Any perspective you would like to share on this issue with 
the smaller detachments?
    Mr. Short. Yes, ma'am. My unit, the Army Reserve Unit, was 
deployed in this war, as well, in 2003, but I was with a 
battalion-sized unit. We also had soldiers who were, both prior 
to our deployment and after our deployment, cross-leveled or 
augmented, as the term was used here earlier. And the--our 
Family Readiness Group was outstanding at the battalion level, 
but as was testified before, these folks that are cross-
leveled--and we had a lot of--probably 25 troops from other 
States from the Army Reserve sent to us to accomplish our 
mission, and I don't know of any contact that their units--
they--of course, they had no Family Readiness Group. This was 
early in the war, 2003.
    And, so, our--my experience was probably limited to the 
fact that we were not--we hadn't learned this process yet. But 
I had troops that were cross-leveled, too, from Illinois and 
Wisconsin, that, you know, basically never heard from their 
folks, and I didn't find out if their families had been.
    But the Family Readiness Group is critical to maintaining 
contact and information flow to the families. And I heard one--
one of the testimonies referred to the fact that their Family 
Readiness Group, their FRG, was very small and not very 
effective, and that can be a killer, as far as keeping the 
folks well-informed.
    My battalion commander and I would do video conferences 
with our FRG leaders about every other month and let them know 
specific issues that were going on. So I'd say that's probably 
very true, because the--in Reserve programs, you got so many 
units that are missing people in specific job skills--
engineers, medics; that type of thing--so you get a lot of 
cross-leveling, and these folks are from, usually, other 
States. And our Family Readiness Groups would try to look after 
them, but a lot of that fell through the cracks, too, ma'am.
    Ms. Herseth Sandlin. Thank you.
    Mr. Whitehead.
    Mr. Whitehead. Yes, ma'am. What we see, as the County 
Veteran Service Officers, we actually don't see that veteran 
until he's home and he's completed everything. Here in Indiana, 
the Director of Veterans Affairs for the State made us, as 
County Service Officers, go through a one-day training to 
provide assistance and be able to do it with what General 
Umbarger had mentioned earlier, the military relief fund. And, 
so, we have been trained to assist the families with those 
applications for any financial assistance and things.
    Other than that, we, as County Service Officers, we're at 
the bottom. You know, we don't really see them, and we don't--
unless that family member comes into our office, we don't know 
who's on active duty, we don't know about the dependents, and 
we wish we were a part of the wheel, but, here again, we 
aren't. And, like Mr. Short said, here, in one hand, you have 
the Reserves. In the other hand, you have the National Guard. 
The National Guard goes through this TAP program through Camp 
Atterbury here in Indiana. I don't know what the Reserves are 
doing. I know the active-duty people are required to go 
through, you know, a three-day TAP class, but the Reserves----
    Mr. Short. I have--if I can comment, I have to say that the 
State of Indiana, with regard to my troops, was fantastic. I 
received letters from the Department of Veterans Affairs from 
Indiana. And this was early. I came home in June of 2004, and I 
wasn't in a position where I needed any educational assistance 
or employment assistance, but I would get a constant barrage of 
letters from the Department of Veterans Affairs, wanting--
offering the opportunity to attend groups. And I've got to say 
the State of Indiana, not just the National Guard, but the 
entire structure of the Department of Veterans Affairs has done 
a wonderful job, in my opinion.
    Ms. Herseth Sandlin. Thank you.
    Mr. Whitehead. The only thing I'd like to add is, I had 
spoken with a couple gentlemen that had been through TAP, and 
actually, it was Mr. Curtice of the VFW, and I asked if we 
somehow, the County Service Officers, could get a list of those 
National Guardsmen that are coming home from their units into 
our communities. Besides getting the letter from the State of 
Indiana, welcoming them home, we could also get them a letter 
from my County Service Office. Here I am. My hours.
    I never wear a coat and tie to work. It's just, sometimes 
that makes--I feel that it makes that veteran feel 
uncomfortable. Here's another government person telling me what 
to do. And if I can come down to his level and be able to get 
that trust in him, I'm gonna make it to second base with him.
    Ms. Herseth Sandlin. Thank you both.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Whitehead. You guys do a great 
job. You really do, and we really appreciate your hard work.
    Tell me the type of people that we're talking about today, 
as they come and visit with you, what are the major problems 
that you're seeing as a result of maybe not getting enough 
information, you know, through the TAP process or all these 
other things that we try and do. What are they asking you to 
help them with, primarily?
    Mr. Whitehead. Basically, getting into the healthcare 
system. And then I--we--I work very close with the Fort Wayne 
VA, Veterans closest hospital. And I can--once I get the 
medical application, look at the DD-214 to make sure they have 
their in-country--you know, their awards and things, making 
sure that their dental has been completed prior to discharge, I 
fax that medical application to Fort Wayne. Within a week, they 
get a phone call from our South Bend Clinic, getting them in.
    We also--the vets--Fort Wayne has a Vet Center, and they go 
to my office once a week to do counseling so my veterans don't 
have to travel to Fort Wayne. And we have worked--I have a--an 
extra office that they're able to counsel veterans without 
having to make--and they also counsel wives and veterans 
together.
    We worked with the court systems to be able to use the Vet 
Center counselors for those veterans that have gotten DUIs and 
things. Instead of paying through the court system, we're able 
to use the VA and the Vet Centers at no cost to the veteran.
    Mr. Boozman. Very good. Thank you.
    Mr. Whitehead. Yes, sir.
    Mr. Boozman. Mr. Short, again, we appreciate all that you 
guys do. We on the Veterans' Affairs Committee really do the 
best we can to tip the sphere and try and push these things 
forward, but we couldn't do that without the veterans and 
reservists' organizations. And, so, we appreciate all that you 
do.
    And I don't mean this bad or in any disrespect to anybody, 
but I'm so glad that you're a fairly young guy. One of the--I 
say that in the sense that one of the great problems that we 
have is that the people--the greatest generation, is getting 
older, and it's very difficult as they come to Washington and 
we look at them. You know, that trip is getting much, much 
harder for them to make every year. And we see people like 
this, people at home, you know--one of the neat things about 
this job is, you get to meet a lot of different people that you 
normally wouldn't meet. And some of my dearest friends have 
been that generation that are involved in the VSOs, but we're 
losing them, you know. And I get--seems like I get an E-mail 
once a week of somebody that's done so much, and yet, they're 
starting to pass away.
    So it's good that--I think that's a great challenge that 
you have and I have in encouraging the VSOs, if we're gonna 
continue to push things forward in the future, you know, it's--
we just got to do that. So, thank you for your hard work. 
Appreciate all you do.
    Mr. Short. You're welcome, sir.
    Ms. Herseth Sandlin. Mr. Donnelly.
    Mr. Donnelly. I want to thank Mr. Whitehead for your 
service and to all the VSOs who are in the audience here. We 
have a number of them from around the district. And, also, to 
all of the State. You're the frontline, and we sure appreciate 
it.
    And, Mr. Short, I wanted to ask you--I want to thank you 
for your service, too, especially to your young look, as well, 
but also in regards to the employment situation. Has that 
become more difficult, as we go on here year after year?
    Mr. Short. Yes, sir. It seems like, in the recent year and-
a-half that's just past, it's getting more difficult. And I 
think that's one of the reasons the education benefit is so 
critical; because that gives the returning veteran an option to 
redo themselves in terms of their skill sets and their 
knowledge. And, as long as we can continue to improve the 
education benefits, that may be a little bit of a hedge against 
the employment issue, too.
    Mr. Donnelly. I mean, we--it's a--it's hard on the 
employers----
    Mr. Short. Oh, absolutely.
    Mr. Donnelly [continuing]. As you well know.
    Mr. Short. Yes.
    Mr. Donnelly. It's--is it the kind of thing where the 
employers are now saying, We just--it's making it tough to keep 
our business going.
    Mr. Short. I haven't heard that, specifically, from 
employers, because it's been my experience the employers we 
talk to appear to be very patriotic and want to be as 
supportive as they can. And the gentleman that was from ESGR 
here before, I know his--he gets a lot more calls on that than 
I do, but I get an occasional call. And so far in Indiana, at 
least, I've been very happy with the cooperation employers are 
showing to our servicemen.
    Mr. Donnelly. And that's really important, because, when 
the young man or woman comes home, they need to work, 
obviously.
    Mr. Short. It can--they--as was testified by one of the 
spouses, the re-adjustment can be huge, regardless of whether 
that person has PTSD issues or not. And adding that employment 
issue to the mix can make it a really difficult family 
situation.
    I should mention, too, that the various VSOs--and I can't 
speak specifically for the Legion, but I know the VFW and the 
AMVETS and DAV, we have programs. Our program is called 
Temporary Financial Assistance, which we give a lot of 
referrals to. And the American Legion, as well as the other 
service organizations, will provide, if there are minor 
children at home in a veteran's family, regardless of when that 
veteran serves, and they've got a problem with a rent payment 
or a medical bill or a utility bill, an issue like that, they 
can apply to us, and we give one-time grants to these folks to 
try to keep them afloat. And I know these other organizations 
have similar programs. So we put our money where our mouth is, 
too.
    Mr. Donnelly. Thank you very much, and, again, Gary. You 
really are--on behalf of all the VSOs, and to all of you, we 
say thank you very much.
    Mr. Whitehead. Just one--I'd just like to make a quick 
comment. Mr. Donnelly, you spoke earlier about, here in 
Michiana being a no-man's land. It's true. We have over 72,000 
veterans in this area, and, for us to get any care at all, it's 
Battle Creek, you know, Chicago, Crown Point, Fort Wayne, 
Marion, and Indianapolis. And we're just here in limbo, and 
it's hard to tell a World War II veteran, 80 years old, he's 
going to have to drive to Fort Wayne to get a hearing test. And 
it's getting tough.
    And the one--the other thing I think I--we're dealing with 
is our younger men that are coming back, and women that are 
coming back, from the war. None of their friends can 
communicate with what they've experienced, you know, and 
they're having a hard--that's what they're having--a hard time 
adjusting. Their friends don't know what they went through in 
Afghanistan, killing people. You know, it's just Vietnam again, 
you know, but this time it's with their friends, and they turn 
to drinking and they turn to drugs. And I'm seeing a lot of 
that.
    Mr. Short. Madam Chairwoman, one other point. This war has 
seen a--in my unit, we've experienced this. We're seeing a huge 
increase in the amount of female soldiers that are going into 
critical jobs that it's not like it was even during Vietnam, 
and I think everyone needs to stay aware of the fact that, for 
years, you were basically dealing with the issues of male 
veterans, but we also have a huge percentage of female veterans 
who are coming back who may have different issues. That needs 
to be monitored, as well.
    Ms. Herseth Sandlin. Thank you for mentioning that. I, and 
a number of my colleagues, introduced a bill specifically to 
address women veterans' healthcare needs. I know that a number 
of our medical centers around the country have undertaken their 
own initiatives, but recognize the need to address various 
access barriers to access for women veterans for healthcare, 
looking at pilot programs to provide childcare during the time 
that they're receiving treatments, especially if they're 
suffering from post traumatic stress disorder. I appreciate 
your comment in that regard, for not only healthcare but other 
transition needs for female veterans.
    I thank you both for your ongoing service to our Nation's 
veterans, for the insights you've offered today, and for your 
very hard work in addition to your own service to our country. 
Thank you for being here today.
    Mr. Short. Thank you.
    Mr. Whitehead. Thank you.
    Ms. Herseth Sandlin. We appreciate it very much.
    We now invite our final panel today to the witness table. 
Participating in our fourth panel is Mr. John McWilliam, Deputy 
Assistant Secretary for the Veterans' Employment and Training 
Service, U.S. Department of Labor. He is accompanied by Ms. 
Heather Higgins, the Acting Regional Administrator for 
Veterans' Employment and Training Service, U.S. Department of 
Labor; Ms. Jane Burke, Principal Director for the Military 
Community and Family Policy, U.S. Department of Defense; and 
Mr. James Whitson, the Director, Eastern Area, U.S. Department 
of Veterans Affairs who is accompanied by Dennis Kuewa, the 
Director of Indianapolis Regional Office, U.S. Department of 
Veterans Affairs.
    Thank you all for being here, and for listening to the 
prior testimony from the prior three panels, as well. Again, in 
the interest of time, if you can summarize your opening 
statement in 5 minutes, your entire written statement will be 
entered for the hearing record.
    Mr. McWilliam. it's good to see you. Good to see you here 
in South Bend. I generally see you in Washington before the 
Subcommittee. You are now recognized.

 STATEMENTS OF JOHN M. McWILLIAM, DEPUTY ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
    LABOR; ACCOMPANIED BY HEATHER HIGGINS, ACTING REGIONAL 
 ADMINISTRATOR FOR, VETERANS' EMPLOYMENT AND TRAINING SERVICE, 
   U.S. DEPARTMENT OF LABOR; JANE BURKE, PRINCIPAL DIRECTOR, 
   MILITARY COMMUNITY AND FAMILY POLICY, U.S. DEPARTMENT OF 
DEFENSE; AND JAMES A. WHITSON, DIRECTOR, EASTERN AREA, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 ACCOMPANIED BY DENNIS KUEWA, DIRECTOR, INDIANAPOLIS REGIONAL 
 OFFICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

                 STATEMENT OF JOHN M. McWILLIAM

    Mr. McWilliam. Thank you, Madam Chairwoman, Ranking Member 
Boozman, and Congressman Donnelly. Thank you for the 
opportunity to appear before the Subcommittee to discuss the 
U.S. Department of Labor's role in providing transition 
services to our returning servicemembers.
    The mission of the Veterans' Employment and Training 
Service is to provide veterans and transitioning servicemembers 
with the resources and services to succeed in the 21st century 
work force. One of the most important ways we do that is to 
provide employment workshops to separating servicemembers. The 
role of Labor is to provide employment workshops during the TAP 
session. Our mission is to provide those employment workshops 
at every location requested by the military. We are proud of 
our partnership with the Departments of Veterans Affairs and 
Homeland Security in this important mission.
    Since 1991, when Labor began providing employment 
workshops, over 1 million separating and retiring 
servicemembers and their spouses have attended the classes. 
This past fiscal year, over 146,000 servicemembers and spouses 
attended over 4,700 employment workshops at 215 military 
installations in the United States and overseas.
    Let me address the National Guard and Reserve component. 
What we have found, as has been mentioned by several of the 
witnesses earlier, is that the demobilization process is rapid, 
leaving little time for the full 2\1/2\ day employment 
workshop. Our State directors work directly with Guard and 
Reserve commanders to make special arrangements, following 
demobilization, to present a modified TAP employment workshop. 
We developed this modified workshop in 2007. It is not a 
separate program, but it is modular so that the Guards and 
Reserve commanders can pick, which modules they think are 
important.
    Since 2001, we have provided transition services to over 
146,000 National Guard and Reservists. These services range in 
size from just mobilization/demobilization briefings to the 
full-scale TAP employment workshop. They have been provided to 
43 States and the District of Columbia. Here in Indiana, we are 
proud to have participated in the Hoosier Veterans Seamless 
Transition Program.
    In the past 14 months, DoL has attended over 58 
mobilization events in Indiana, servicing over 5,300 
servicemembers. A Local Veterans' Employment Representative is 
stationed full time at Camp Atterbury to participate in 
demobilization briefings and to provide employment workshops.
    In closing, I thank you for allowing me to address you 
today on this important issue. Ms. Higgins and I will be 
pleased to address any questions you may have.
    [The prepared statement of Mr. McWilliam appears on p. 69.]
    Ms. Herseth Sandlin. Thank you very much.
    Ms. Burke, you are welcome to the Subcommittee. You are now 
recognized.

                    STATEMENT OF JANE BURKE

    Ms. Burke. Thank you, Madam Chairwoman and distinguished 
Members of the Subcommittee.
    Ms. Herseth Sandlin. Can you pull that just a little bit 
closer to you.
    Ms. Burke. It's been very helpful for us today to hear the 
testimonies earlier, and we'll certainly take those back with 
us. I can't think of a single thing that was addressed that we 
don't have many Committees and commissions working with the 
Department of Labor and the Veterans Administration. We're 
really working hard to try to solve some of these problems, so 
I want to assure you that we are on board and we are listening.
    We're pleased--I'd like to mention, too, that Gerry Carlon, 
the Director of our newly established Joint Family Assistance 
Center in Washington, and the Joint Family Assistance Center is 
augmenting staff at the Indiana National Guard, trying to focus 
on the development of family support. We're also working with 
the governors of Arkansas and the Governors of Indiana, and we 
are moving forward to try and pull all 50 States into this 
consortium of additional resources.
    In this project, we are combining State and DoD resources 
in an effort to increase outreach to the Guard and Reserve 
families. The first panel was exactly right; the outreach is 
really a huge problem. Shortly, South Dakota is going to be 
joining other States in the new outreach efforts. The purpose 
of the new Joint Family Assistance is to bring more awareness 
to the benefits, and to be able to serve people on an 
individual basis as much as we can. We currently have the Joint 
Family Assistance in 15 States and, as I said, Indiana and 
Arkansas were one of the first of the 15 States. These programs 
facilitate partnerships among Federal, State and local 
organizations, they build benefits and transition assistance 
and outreach for the deploying units. Resources are developed 
for State-by-State database for reliable around-the-clock 
family assistance. So I believe that, at the end of the period, 
when we get all 50 States on board, we will see some 
improvement on how we connect with our troops and our families.
    I want to reiterate the Department of Defense's commitment 
to facilitating successful transition from military to civilian 
life, along with my colleagues who are here today. One of our 
paradigm--and we've heard it today. One of our new paradigms 
shifts has been the recognition of financial readiness, 
military and veterans' benefits, and transition assistance as 
closely linked to one another. They must be addressed as a 
whole. Therefore, we set up a new directorate in the last 
couple of months called the Office of Personal Finance and 
Transitioning, and we hope to establish a network of national 
financial and transitional professionals.
    This new approach will ensure that there's 24/7 global 
access to educational resources and individualized financial 
and transition planning resources through multiple delivery 
methodologies. Building on the traditional transition program, 
we launched TurboTAP last year. This is a dynamic automated 
Web-base system for delivery of transition assistance 
information. It allows each National Guard and Reserve member 
to obtain a lifelong account and a tailored Individual 
Transition Plan based on their transition needs. TurboTAP 
connects them to information on the military and Veterans' 
benefits. It's like the ``Google'' of all of the benefits, and 
we're hoping that will give them a place to go, no matter where 
they are in their lifecycle, in the military or after the 
military. This is a 21st century approach to delivering 
individualized information and benefits to servicemembers and 
families with a just-in-time focus.
    Madam Chairwoman, as we continue to expand the capabilities 
of this platform, we will solicit your approval and legislative 
support. In the fall of 2007, DoD TurboTAP Mobile Training 
Teams began training the National Guard and Reserves upon 
request. By the end of 2009, our goal is to have the TurboTAP 
Global Training Teams fully integrated into deployment support, 
transition assistance, and financial awareness programs in all 
50 States.
    I would like to mention one other very important tool, and 
we're working to customize this tool on the ground with the 
National Guard. It's called the Military OneSource. Today I've 
heard many of the ladies here mention there was really nobody 
to talk to, and no outreach. Military OneSource has been hugely 
successful in our active-duty side of the house, and it's 
beginning to spread into the National Guard. It's a 24/7 
capability, where you can call and get a qualified, Master's-
Degree-level person who will help you problem-solve, who will 
get you to the right resource. It's been very, very successful 
so far, and I'm hoping that once we begin with our new outreach 
to 50 States, we will have one person hired to put a Military 
OneSource database together for each State.
    This new State database will be customized by State; it 
won't be just what's available to the Nation but what's 
available in your State. And then we'll have people in this 24/
7, customer-friendly call center able to get you to those right 
resources. We have high hopes that this is going to break a 
little bit of the Code. Of course, it won't fix everything, but 
it should be some place for families of deployed servicemembers 
to reach out for assistance.
    The Military OneSource will be especially beneficial to 
those who are geographically separated, and we are trying to 
take the best of what we do for the active duty and see how we 
can accommodate that to the National Guard and Reserves.
    Madam Chairwoman, on behalf of the men and women in the 
military today, I thank you and the Members of the Subcommittee 
for your steadfast support during these demanding times. Thank 
you.
    [The prepared statement of Ms. Burke appears on p. 71.]
    Ms. Herseth Sandlin. Thank you, Ms. Burke.
    Mr. Whitson, nice for you to be here today. We look forward 
to your testimony. You are recognized.

                 STATEMENT OF JAMES A. WHITSON

    Mr. Whitson. Thank you. Thank you, Madam Chairwoman, 
Members of the Subcommittee. I appreciate the opportunity to 
appear before you today to discuss the VA Transition Assistance 
Program and other outreach efforts to support separating 
servicemembers and their families during their transition from 
military to civilian life. I am accompanied today by Mr. Dennis 
Kuewa, who is the Director of our Regional Office in 
Indianapolis. And also with him today is John Myers, Counseling 
Psychologist, our Vocational Rehabilitation and Employment 
Officer, and Dave Dezern, who is the Assistant Service Center 
Manager at the Indianapolis Regional Office. So they're here 
with us today, as well. And we've all been listening very 
carefully to the testimony, and we are all learning today, 
Madam Chairwoman, as we move through this process.
    My testimony today will cover the comprehensive 
transitional assistance VA provides to all servicemembers, 
including members of the National Guard and Reserves, as well 
as our current efforts here in Indiana to perform outreach. VA 
currently conducts, in conjunction with DoD and the Department 
of Labor, outreach initiatives to disseminate information to 
servicemembers of our benefits and services at various stages 
through the enlistment process and following up in both the 
pre- and post-deployment.
    Our TAP and DTAP program briefings are conducted nationwide 
and overseas to prepare both retiring and separating 
servicemembers for return to civilian life. These briefings are 
presented to both regular active-duty servicemembers and, as I 
mentioned, at both pre- and post-deployment for Reserve and 
Guard members. They are generally followed by the opportunity 
for a personal interview and assistance with the submission of 
claim for benefits.
    Last year, the VA conducted over 8,000 briefings to almost 
300,000 attendees at these TAP and DTAP briefings. During the 
TAP briefings, we introduce attendees to VA vocational 
rehabilitation and employment programs. We also use this 
opportunity to present the ``Five Tracks to Employment'' 
process and our online employment services Web site, which is 
www.Vetsuccess.gov.
    Using our Veterans Assistance at Discharge, program, VA 
also sends welcome-home packages to all separated 
servicemembers. The packages include a letter from the 
Secretary, along with comprehensive VA benefits information. VA 
and DoD jointly sponsor the Benefits Delivery at Discharge, 
BDD, program. At 153 military installations, we accept 
disability claims prior to discharge. We attempt to get these 
claims 60 to 100 days--180 days prior to release from active 
duty. There, we collect the Service treatment records, conduct 
a single cooperative examination, and complete a disability 
rating decision. In many cases, this is completed prior to 
separation so that disability benefits can commence immediately 
upon separation.
    VA and DoD are also piloting a single disability evaluation 
system, the DES system. This is a process where a rating 
decision forms the basis for both the military Medical 
Evaluation Board's process, as well as the VA disability rating 
process.
    With the onset of Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF), VA has expended our outreach 
efforts to ensure that our military veterans are honored for 
their service and receive VA services and benefits they have 
earned. In 2003, VA began to assign permanent, full-time 
representatives at all key military treatment facilities.
    We have also begun hiring recovery care coordinators. These 
VA employees monitor patient progress and coordinate submission 
of claims for our most seriously injured OIF and OEF veterans. 
Also, at our regional offices, case managers ensure that the 
claims of the most seriously injured are expedited and case-
managed throughout the process. Here in Indiana, Mr. Kuewa and 
his staff conduct comprehensive outreach briefings and case-
manage disability claims for seriously injured OEF/OIF 
veterans. Last year, the regional office conducted over 40 
briefings with over 6,000 attendees from both active Guard and 
Reserve Armed Forces.
    Madam Chairwoman, we are--Chairwoman, we are proud of the 
VA for our continuing role in the transition of servicemembers 
to civilian life. Like this Subcommittee, we look for ways to 
continually improve the process, and look forward to working 
with the Subcommittee and Members of Congress to do that.
    Thank you for the opportunity to appear before you today, 
and I would welcome responding questions.
    [The prepared statement of Mr. Whitson appears on p. 76.]
    Ms. Herseth Sandlin. Thank you, Mr. Whitson.
    Mr. Donnelly, you are recognized for questions.
    Mr. Donnelly. Thank you, Madam Chairwoman. I know we're a 
little tight on time. I just want to ask Mr. McWilliam, with 
the TAP program, is it something that you think can be made 
mandatory, and, if so, should it be made mandatory?
    Mr. McWilliam. Mr. Donnelly, that's, of course, a decision 
by the Department of Defense on whether it would be made 
mandatory. Let me say, though, as a result of the Global War on 
Terror Task Force, which worked about a year ago on this, the 
Secretary of Defense has established a goal of 85 percent of 
attendance at the employment workshops, which is, I would say, 
almost everyone that needs to attend. There's a certain 
percentage that are going to school or already have jobs that 
probably don't need to attend. So, they set a very high mark, 
they're working toward it, and I think that's almost full 
attendance, sir.
    Mr. Donnelly. Okay. And then, Ms. Burke, with the Military 
OneSource, when will that be up and running.
    Ms. Burke. It has been up and running for several years 
now, but it's beginning to take off. Marketing is the issue.
    Mr. Donnelly. Okay. That's what I mean. When will it be in 
a position where--that the families we've seen here today will 
be aware of it----
    Ms. Burke. These families----
    Mr. Donnelly [continuing]. And be able to do that.
    Ms. Burke. I'm sorry. It's the awareness issue. It's there. 
It's there for them. It's there for every National Guard and 
Reserve member. It's there for every active-duty member, so 
it's a matter of awareness. We have been putting commercials on 
the Oprah show, advertising, because that's where spouses are 
listening. Also, on the Today Show.
    We are trying to get better effort advertisement there. We 
also need unit help, and the unit help is coming now with the 
new Joint Family Assistance Outreach.
    Mr. Donnelly. Do you ever send correspondence to the 
families, telling them? You know, if you have lists, send an 
actual hard copy, saying, here's what we can do.
    Ms. Burke. We do that on the active-duty side, but we have 
not done that yet with the National Guard and Reserves.
    Mr. Donnelly. Okay. That might be something to think about.
    And, Mr. Whitson and Mr. Kuewa, thanks for--thank you for 
your efforts for the veterans in this area. Obviously, we have 
listened to you, as well as many other parts of the country, 
but I think we have a very strong case for the things that have 
been discussed today.
    Mr. Whitson. And I will take many of the questions and 
observations back to the Secretary for his review.
    Mr. Donnelly. Tell him I'd love to have lunch with him.
    Thank you.
    Ms. Herseth Sandlin. Mr. Boozman.
    Mr. Boozman. Thank you. Again, I agree with Mr. Donnelly. I 
think what we all need, the TAP program is so important, and 
we've had the opportunity in the years past, with the 
Subcommittee, to visit, and I know that you all are working 
hard to do that. We appreciate your hard work helping us in 
Arkansas in a number of different ways. But it is so important, 
because it really affects all this other stuff. You know, all 
the testimony that we've heard, the problems that we're seeing, 
many of them, came from really not knowing.
    So, the more that we can shore that up, I think, the 
better. And, again, I think you're working hard to do that, and 
we really do appreciate your efforts. I know that it's improved 
dramatically, in the last 7 years since I've been around on the 
Committee. But, again, we've got to continue to do that. So I 
think that, there probably should be either a mandatory or that 
we should stick to the 85 percent. And I agree that 85 percent 
probably doesn't take care of the people that need to be there. 
But, again, if these people don't do it, they're causing 
hardship for a lot of other people because they don't know. And 
I know that our troops' strength is important stuff. I mean 
this is very, very important that the commander is looking at 
the troops' strength. You know, sometimes it's not as 
important. But, again, that's better than this.
    Mr. McWilliam, the lady that testified about losing her 
position at Notre Dame, can you comment on that, and kind of 
tell us, kind of, what you're--if you have any thoughts about 
that or--it's okay. You're among friends.
    Mr. McWilliam. That's right, Mr. Boozman. We were talking 
about that. I gave her my contact information. She said her 
husband would contact me as soon as he gets home. We need to 
look into it. You cannot waive your USERRA rights for re-
employment, so we need to understand exactly what his 
employment situation was before he left, and look into it. We 
have very skilled investigators, and we'll get right to the 
bottom of it.
    Mr. Boozman. Well, I know you will. But, it does seem 
like--again, I don't understand the situation, so----
    Mr. McWilliam. No, sir.
    Mr. Boozman [continuing]. On the surface it does seem like, 
regardless of who we're dealing with here. And, perhaps, that 
is something we could look into.
    Mr. McWilliam. Yes, sir.
    Mr. Boozman. Mr. Kuewa? Is that how you pronounce it?
    Mr. Kuewa. Kuewa, sir.
    Mr. Boozman. Well, that's close. I'm Boozman, so I have the 
same problem.
    Mr. Saenz, you know, with his deal with--could you guys, 
kind of look at that and give him some advice and----
    Mr. Whitson. We do have plans on linking up with him 
afterward and see if we can----
    Mr. Boozman. Good.
    Mr. Whitson [continuing]. Be of some assistance.
    Mr. Boozman. Good. I would appreciate that.
    The other thing, very quickly, we've got the TAP program, 
and, again, I can see a lot of improvement, but how should we 
measure that improvement? Do you all have suggestions? How do 
we know? I mean, what are our accountability measures that we 
know that can be--that it's doing what we want it to do? What 
are our measurement factors?
    Ms. Burke. Well, we currently have a form, a government 
form that must be signed before a servicemember leaves Service. 
This form lists all of the benefits that are available, in 
general terms. But that doesn't mean that they're necessarily 
interested at that point. I think that's one of the problems, 
is how do we get just-in-time information to them, not how do 
we get them in five solid days of classes. We're working on 
that with our TurboTAP program. If we can train them in a day 
or two about the possibilities, then they know to go back to 
this resource, they have this account for life. This is the 
TurboTAP strategy.
    We're thinking that that's a solid possibility for solving 
some of the problems if all three of us work together to update 
that information and referral.
    Mr. McWilliam. I've spoken with the various directors of 
the education and employment workshops. We recently had an off-
site meeting with our partners from Defense and some of our 
Advisory Committee people to look at the future of TAP, and one 
of the clear points that we made there was, we need to do 
follow-up with people who attend TAP. Right now, we do an 
immediate survey, right while they're there, on how effective 
the program was. We need to do that once they've left the 
Service and they're in deployment.
    So we are building that into the future of TAP. We're going 
to restructure the entire program and include a survey, a 
followup survey, so that we can look at what was important to 
the person, and what they wished we had also covered.
    Mr. Boozman. Very quickly, because I don't want the 
Chairwoman to be banging me with her gavel, the one thing that 
I think would really help out--I enjoy, when we look at the TAP 
programs, we have to visit with Family Service Support, I 
think, but, also, we have to visit with, kind of, a break-out 
session. What I'd really like to know is, they were very up 
front about the careers that they wanted to pursue. Many of 
them wanted to go into franchises and things like that.
    Could you, in your questionnaire, could you--if it's not 
there now--if it is there, give us the information. I mean, 
that's what we're trying to do, is to facilitate through the GI 
Bill this other stuff, putting veterans to work. Can you make 
that part of your questionnaire as to what they want to get 
into?
    I know Mr. Michaud had an amendment we did the other day 
with trying--with truck driving and trying to upfront this and 
that. I mean, we talked about those things before, but I do 
think that would be very helpful, and I think, really, it would 
be good if we could match up what we're trying to do with 
what--what they actually want to do.
    Mr. McWilliam. Sure. And I'll talk with staff about that.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I want to make sure we have enough time for any other 
additional questions that Mr. Donnelly and Mr. Boozman may 
have. I appreciate the hard work and I appreciate the 
improvement, but there are clearly some problems here, and we 
need to do a better job. Our responsibility in the Subcommittee 
is to make sure you have the resources to do so. It should not 
take a field hearing in South Bend, Indiana, for us to 
understand that there's a particular problem with these smaller 
detachments of Reservists, but there clearly is.
    I'd like some perspective on what you are doing, 
specifically, for folks in Mrs. Masapollo and her husband's 
situation, whether they're Reserve or National Guard, with a 
smaller detachments. How is it that we are not even 
corresponding with them, Ms. Burke? I mean, is it just active 
duty that's getting the correspondence through our Military 
OneSource?
    Ms. Burke. Well, the Military OneSource is given out by the 
commanders; yes. And we can do that with these Reservists and 
we can do it with the National Guard, and I think we're going 
to step up to that.
    Ms. Herseth Sandlin. Okay. I appreciate that, because 
that's something that I think has evolved over the last couple 
of years and will continue to be the case, and we have to step 
up quickly.
    Now, let me ask you a question on the Military OneSource 
and TurboTAP. Is all of this, Ms. Burke, dependent on the base 
budget?
    Ms. Burke. Military OneSource is in the base budget and the 
TurboTAP is in the base budget; however, we are working with 
you, the Congress, to turn the broader program for 50 States 
from emergency supplemental into the base budget.
    Ms. Herseth Sandlin. Okay.
    Ms. Burke. We have high hopes that that's going to happen.
    Ms. Herseth Sandlin. Well, I think that Mr. Boozman--I 
don't want to speak for the other Members of the Subcommittee, 
but I think it's important for this Subcommittee to take it 
upon ourselves, following this Field Hearing, to work with our 
colleagues on the Armed Services Committee and Appropriations 
Committee to make sure that these important programs, 
especially given where we see other needs, that this moves to 
the base budget, because these are the ongoing needs, 
regardless of redeployment and withdrawal over the next few 
years.
    I think we share General Umbarger's concerns, as he 
mentioned, in terms of all of the other resources that are 
coming to help him in his efforts here in Indiana.
    Mr. Whitson, in your written testimony, you had highlighted 
that the VA and DoD's national memorandum agreement shall 
establish a single cooperative examination.
    Mr. Whitson. Yes, ma'am. That's the--under both the DES 
program, the Disability Evaluation System, where we're using 
that for the PEB/MEB process----
    Ms. Herseth Sandlin. Uh-huh.
    Mr. Whitson [continuing]. The unit is not there, as well. 
And, also under our BDD Program, Benefits Delivery at 
Discharge. Now, neither of those programs apply to Guards and 
Reserves.
    Ms. Herseth Sandlin. So, a single cooperative exam has been 
established since 2004 for active duty?
    Mr. Whitson. Yes, it has.
    Ms. Herseth Sandlin. Do they exist for the National Guard 
and Reserves?
    Mr. Whitson. We do not, because of the mobilization 
process. It has been described by so many witnesses, it happens 
so quickly when they come back to stateside and go through 
whether it's Atterbury or--one of the witnesses discussed 
what's happening at Camp Shelby, where we have a very 
comprehensive demobilization TAP briefing process. But stopping 
that process and affording a single VA DoD exam has--we've not 
come to a resolution on how we would do that and still allow 
members to quickly get back to their families.
    Ms. Herseth Sandlin. Has there been ongoing discussions 
about what to do after demobilization?
    Mr. Whitson. Well, at that demobilization TAP and DTAP 
briefing, we attempt to take the application, collect all the 
Service treatment records so that we have everything there, and 
then, once they get back to the State, Indiana, for example, 
here, the exam is scheduled immediately. But it's not a single 
exam; it's a VA exam.
    Ms. Herseth Sandlin. But you must be concerned about some 
of the testimony----
    Mr. Whitson. I am.
    Ms. Herseth Sandlin [continuing]. Of Mr. Saenz about the 
issue of almost an intimidating discussion about being put on 
medical hold if they don't bring forth the issues now versus 
having an opportunity to bring those issues forward later.
    Mr. Whitson. I am, Madam Chairwoman, and I--that's not the 
first time I've heard it, and it is something that we're aware 
of and we're looking into, cooperatively.
    Ms. Herseth Sandlin. This is not the first time we've heard 
it, either, and, we would appreciate you keeping us apprised of 
those ongoing discussions about how to best address that.
    Let me ask one more question, and there may be some 
questions we submit to you in writing.
    For those of you joining us, sometimes it is the final 
panel that gets the most questions, so we like responses, in 
writing, either because we've run out of time or there's so 
much we want to cover.
    You heard Mrs. Williams, Mrs. McCool, and Mrs. Masapollo 
when I asked them had they ever been contacted, at any time, by 
VA, DoL or DoD, and they all said no. Why do you think this is? 
I know that we have put forth resources, and you talked, Ms. 
Burke, about what's there and there's a lot of hard work being 
done. Why do you feel that these families feel there's been no 
outreach? Again, is this an issue of coordination, again, with 
the National Guard and Reserves, that we're making headway on, 
but we still haven't fully integrated to the State, and we're 
still working with the Reserve units in a way that we just 
haven't gotten a handle around this problem yet?
    Ms. Burke. That is a problem in the active duty, as well. 
We don't always have a way to reach them. I mean, we have ways 
to identify them if there's an emergency. It's an issue of 
privacy and how do we get their addresses, into some sort of 
system where it would not cause harm.
    So we're working on it, and we think that Military 
OneSource, if they can come to us, then we can say, Sign up, 
and we'll send you information. If they come to us first, it 
really will be a lot better way of knowing whether they want to 
be contacted. Some people don't want to be contacted.
    Ms. Herseth Sandlin. I hear what you are saying, but I 
think there is so much going on with these families that, for 
them to expect that they are going to come to you first versus 
this outreach and this followup that you were just describing, 
too, Mr. McWilliam follow-up after someone has participated in 
the Transition Assistance Program. I understand there may be 
privacy concerns, but, at the same time, we need to create a 
form when they're separating from Service or de-activating, 
where they sign an authorization to be contacted or something. 
I mean, recognizing privacy concerns, but, at the same time, I 
think it is our responsibility, Federal agencies, as those of 
us in Washington, to be aggressive in communicating the 
benefits rather than sitting back and waiting for someone to 
come to us when there's so much going on during the transition 
to civilian life.
    One last question, Ms. Burke. You mentioned in your 
testimony that, at the request of the National Guard and 
Reserve Units, the Department dispatches consultants with 
financial readiness specialities. How many requests have you 
received from the Guard and Reserves?
    Ms. Burke. I can't give you an exact number, but almost all 
of the States have requested those.
    Ms. Herseth Sandlin. Okay. Well, that's good to know. So, 
you have sent--the consultants have----
    Ms. Burke. We're in the process of hiring those people. We 
have 15 States hired. Is that your question?
    The goal is that we're adding three people, generally, in 
most States, unless they're a very small population of the 
National Guard. Is that your question?
    For each of these States, this new Joint Family Assistance 
Program, as you've heard it in the first panel, has a childcare 
person and counseling with a Military OneSource person to help 
them develop their networks out there. So we have been trying 
to do that in every single State.
    Ms. Herseth Sandlin. You have hired at least three new----
    Ms. Burke. Right.
    Ms. Herseth Sandlin [continuing]. Counselors for each 
State.
    Ms. Burke. Right. And, by the fall, we'll have the 
remainder of the State accomplished. It is very aggressive, 
actually.
    Ms. Herseth Sandlin. Okay. Mr. Donnelly.
    Mr. Donnelly. I have no further questions. I would just 
like to thank Chairwoman Herseth Sandlin and Ranking Member 
Boozman for taking their time to come to our town to hear, 
which, to me, was invaluable testimony, from everybody, to 
provide us with a lot more information about how to do this 
better. And, so, to your staff and to you, we're really 
grateful for you taking this time. Thank you very much.
    Ms. Herseth Sandlin. Mr. Boozman.
    Mr. Boozman. No. I just thank you for the hospitality. It's 
a good hearing, and I appreciate it.
    Ms. Herseth Sandlin. Before I wrap up, I wanted to make 
one--follow up on this point, because it is bothering me, I'm 
sure you can probably tell.
    If we are able to work through, with the Department of 
Defense, the privacy concerns, and you are able to find these 
men and women and mobilize them, you should be able to find 
them to inform them of their benefits.
    I want to thank all of you for your statements this 
afternoon. Ms. Burke, we want to work with you to make this 
happen and address the issues that were raised this afternoon. 
We value the insight and the expertise and the dedication of 
all of those who work with our Federal agency, who work so 
closely with our Committee, with Members of our Committee 
staff, our Counsel, who are here, the VA, the DoD, and the 
Department of Labor. It's been very good to work with them on 
this Committee. We thank you for your time and your travel.
    I want to thank the staff of the Subcommittee for traveling 
here today, the great work that they do, working with all of us 
as Members of the Committee and with our agencies and our 
veterans service organizations. It is great to be here in 
Indiana's 2nd District, well represented by our colleague, Mr. 
Donnelly.
    We thank you all for coming, and we thank all of those who 
have worn the country's uniform in protection of our freedoms. 
Thank you very much.
    The hearing now stands adjourned.
    [Whereupon, at 3:48 p.m., the Subcommittee was adjourned.]


 
                            A P P E N D I X

                              ----------                              

     Prepared Statement of the Honorable Stephanie Herseth Sandlin
            Chairwoman, Subcommittee on Economic Opportunity
    I would like to thank Ranking Member John Boozman of Arkansas for 
joining us here today and Representative Joe Donnelly of Indiana's 
second Congressional district for his hospitality in inviting us to 
South Bend, Indiana. I look forward to building upon our strong bi-
partisan relationship so that we may provide our Nation's 
servicemembers, veterans and their families the best available services 
they need and deserve.
    Much progress has been made in education benefits, vocational 
rehabilitation services, employment programs and VA home loans 
programs. However, I think everyone would agree that we must remain 
vigilant to guard against any decline in benefits or customer service.
    Like many of my colleagues in the Subcommittee, the state of South 
Dakota has had servicemembers that have been activated in support of 
operations in Iraq and Afghanistan. Some of these brave men and women 
have returned injured and are currently in need of healthcare and 
employment services. They, like all disabled veterans from around the 
country, deserve our best efforts to provide a seamless and effective 
transition from military service to civilian life and the work force.
    Earlier last year, this Subcommittee held its first hearing that 
included the Department of Labor's Veterans' Employment and Training 
programs that are created to assist veterans with employment assistance 
and protect a servicemember's employment rights. While these programs 
have been proven to be very successful in other areas across the 
country, today we will receive testimony from servicemembers that could 
benefit from these programs but might not be aware they exist.
    Like many of my colleagues here today, I had the opportunity to 
meet with local government officials and veterans back in my home state 
of South Dakota. During one of my meetings, I had the opportunity to 
speak with the leadership staff of South Dakota Governor Mike Rounds 
and the South Dakota Adjutant General (Major General Steven Doohen) 
about ways to improve existing veterans programs.
    I am glad that we did succeed in making progress for our Nation's 
Reserve Forces. Included in the final version of the National Defense 
Authorization Act of 2008, we were able to gain bipartisan support for 
language that would allow mobilized members of the Reserve Forces to 
use their REAP education for 10 years after they separated from the 
Guard or Reserve. While this is progress in the right direction, we 
must remain committed to expanding all benefits to help meet the needs 
of our servicemembers.
    Furthermore, our Subcommittee has been working with our Committee 
Chairman Bob Filner of California to address the immediate needs of 
possible foreclosure of a servicemember's home. As we will hear from a 
recent Subcommittee hearing, data specific to veterans does not exist, 
or is limited in scope, leaving us with an incomplete puzzle that makes 
it harder for us to get a good idea of how current mortgages are 
affecting our veterans. Fortunately, many of us have heard from our 
returning servicemembers and veterans back home about the problems they 
have encountered.
    Today, thousands of veterans throughout our country deserve better, 
and we must do better to ensure they are afforded the protections they 
need as they adjust to life after their military service.
    I am particularly interested in hearing about the issues of concern 
from servicemembers, veterans and their dependents, and the actions the 
administration is taking to resolve the concerns of employment, 
rehabilitation, housing and education.
    I look forward to working with Ranking Member Boozman, 
Representative Joe Donnelly and other Members of this Subcommittee to 
ensure that our most critically wounded servicemembers are provided 
both proper training to complete their mission and the proper benefits 
to help them succeed in life after the military.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member, 
                  Subcommittee on Economic Opportunity
    Good afternoon Madame Chairwoman, Members of the Subcommittee and 
all of our witnesses and guests.
    It's great to be here in the Hoosier State. I looked up the word 
``Hoosier'' and found several possible origins in early state history 
ranging from answering a knock on the door with, ``Who's here?'' to 
finding a severed ear following a barroom brawl and asking, ``Who's ear 
is this?''
    Regardless of the origin of the term Hoosier, the citizens of 
Indiana have always been well-represented in the defense of America 
from the Indiana territorial militia formed in 1801 to the 196,000 
Hoosiers who served in the Civil War to those now serving in the 76th 
Brigade Combat Team.
    It is no secret that today's National Guard and Reserves are now an 
operational force and no longer a strategic reserve. That is one reason 
H.R. 5684, as amended, introduced by Ms. Herseth Sandlin and me 
contains a significant upgrade to education benefits for the Guard and 
Reserve.
    While Guardsmen and Reservists share many of the challenges of 
military life with their active duty counterparts, they also face some 
unique difficulties and we should endeavor to minimize those negative 
incentives to service. One such challenge is that members of the Guard 
and Reserves face multiple transitions in their deployment cycles. It 
is not easy to leave a job that supports your family. Health insurance, 
retirement benefits, seniority and other factors are important to all 
of us and when a servicemember returns home, we should do everything in 
our power to ease that transition.
    Madame Chairwoman, you and I have visited several states where they 
have solid programs to smooth the transition from combat to civilian 
life and I am eager to hear how Indiana meets that responsibility. I am 
especially pleased that you have invited several wives to testify 
because without their strong support, we would probably have to rethink 
how we structure our armed forces. Finally, I want to thank each of 
those here who wear or have worn the uniform for their service and I 
believe we owe a special recognition to the spouses who pay the bills, 
raise the children, fix the appliances and the cars, and take care of 
the myriad things that keep a family intact while the servicemember is 
deployed.

                                 <F-dash>
         Prepared Statement of Major General R. Martin Umbarger
         Adjutant General of Indiana, Joint Forces Headquarters
                         Indiana National Guard
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to speak to the issues regarding the care, treatment and 
benefits of our soldiers, airmen and families. Soldiers and Airmen of 
the Indiana National Guard continue to answer the call on behalf of our 
Nation and State of Indiana. As you know, the National Guard is a dual 
missioned organization. We have a State mission in support of local 
first responders in their time of need responding to man-made and 
natural disasters of our state. Our other mission is the Federal 
mission of reinforcing the Army and Air Force and their missions all 
over the world. Since 911, you must agree, our great soldiers and 
airmen have done this important mission in spades. We currently have 
over 14,500 soldiers and airmen assigned and makes and we are proud to 
boast of being the fourth largest Army National Guard in the Nation. We 
are presently at 106 percent of authorized strength and over the past 3 
years Indiana ranked in the top five states in the Nation in recruiting 
and retention successes. Each of the past 3 years the Nation's top 
recruiter has come from our ranks. Over 14,000 soldiers and airmen have 
been deployed to fight against the global war on terror. Presently, 
4,133 Indiana Guardsmen, both Army and Air are deployed to multiple 
sites worldwide doing a variety of missions, no state has more deployed 
than Indiana at this time. The accomplishments of our brave soldiers 
and airmen are many, but the stresses of multiple deployments have 
taken the toll on our force and caused many adjustments to be made by 
my Joint Forces Headquarters-Indiana staff to support them during pre-
deployment, deployment and post-deployment phases. Prior to 911, what 
used to be a normal baseline of events, insufficient staffs of maybe 
one deep assisted with providing benefits to Soldiers, Airmen and 
Families. Today, in order to properly ``care of the Soldier/Airmen/
Family'', sweeping changes, administrative procedures, changes to staff 
authorization has been made.
    Prior to 911, the staffing of the Indiana Guard was either 1-2 
people deep or non-existent concerning Veteran's Services to 
servicemembers and Families. Since 911 and the multiple deployments of 
our Hoosier Guardsmen we have created a new Directorate on my Joint 
Force Headquarters-Indiana staff. The Directorate is called J9 (Civil 
Military Affairs Directorate). We are only one of very few states which 
have created the J9 Directorate to support Servicemembers, Families and 
Employers during pre-deployment, deployment and post deployment 
periods.
    The 9 key components of the J9 (Civil Military Affairs Directorate) 
are:
            * Reference attached Information Briefing
    1.  Family Programs--being briefed by Major Cathy Van Bree.
    2.  Veteran's Transition Assistance--being briefed by COL (Ret) 
Roger Peterman.
    3.  Selective Service
    4.  Ceremonial Unit
    5.  Chaplain
    6.  38th  Division Band
    7.  Funeral Honors
    8.  Command Historian
    9.  Employer Support Guard/Reserve

    The creation of the J9 Directorate was designed to assist 
Servicemembers, Families and Employers during the entire period of 
service being performed by the Servicemember. This innovative approach 
to a combined effort lessened the administrative burdens on the 
traditional administrative personnel sections, and provides a unified 
focus for benefits and services for the Servicemember and family.
    Several other changes in the staffing and priority were also made 
to assist the Servicemember through innovative techniques and hard 
decisions. The Indiana National Guard Relief Fund was established to 
assist families that incur economic difficulties during deployment. 
This 501c3 fund was established as a result of many Hoosiers and 
organizations wanting to contribute financial assistance in any way 
possible to help our soldiers and their families. This fund assists 
families during times of economic difficulties as a result of their 
deployment. Stay behind Title 10 Officers and Non-Commissioned Officers 
were authorized at each Armory/Headquarters. These professional 
soldiers are very important to the continuity of support to the 
Servicemember during the pre-deployment, deployment and post-deployment 
phases. An example would be a total of 17 Title 10 soldiers combined 
with Military Technicians man 28 armories vacated by the 76th Infantry 
Brigade deployed to Iraq.
    Our number one asset in the Indiana National Guard always has been 
and will continue to be our people; our Soldiers and Airmen. All the 
weapons systems, vehicles and military equipment are absolutely 
essential to our mission, but nothing is more important than our 
servicemembers and family. During these demanding times to provide 
professional military units for Federal missions in support of our 
Nation, and provide support for Homeland Security missions, we have 
instituted many initiatives to provide support to the Servicemember. In 
many cases we have re-assigned personnel in order to provide the proper 
support, if you will, taking it out of hide. However, recently, I am 
very pleased to say we have received additional funding and 
authorizations which enables me to provide this much needed support to 
the soldiers and airmen. One program, the Community Based Health Care 
Program (CBHCO), is a great program assisting our Wounded Warriors. In 
the past, once our soldiers returned they were quickly demobilized off 
Title 10 which was bad for soldiers. The Army CBHCO program allows our 
Wounded Warriors to remain on Title 10, close to or at home, and work 
at a military facility while their medical issues are being resolved. 
The sustainment of this program, and others to assist the Servicemember 
is a must. With the exception of the Veteran's Transition Assistance 
Advisor Office, which requires at least one more advisor, we are now 
staffed at a ``sufficient'' level to provide the proper support, but I 
am concerned that these resources may some day be pulled from us. This 
would be a mistake, as we have learned the hard way as a Nation that 
caring for our wounded and our veterans must continue long after the 
conflicts end.
    I thank you, key Members of Congress, for providing the funding for 
programs such as the Yellow Ribbon Reintegration Program. Programs such 
as these that care for our soldiers and families prior to deployment, 
during deployments and long after their return from deployment is 
critical to their proper reintegration back into their civilian 
careers. As a Nation we have come a long way in taking care of those 
that are serving our country. I thank all of you for the support you 
have given to our Heroes that have volunteered to serve their State and 
Country. I thank you for the privilege and opportunity to be with you 
today. I am very proud to wear the uniform and serve in the ranks of 
these great young men and women.
    Mr. Chairman, this concludes my testimony. Are there any questions?

                                 <F-dash>
               Prepared Statement of Major Cathy Van Bree
               Director of Family Programs, Joint Forces
                  Headquarters, Indiana National Guard
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to speak to the issues surrounding our servicemembers and 
their families.
    Due to the large numbers of servicemembers deploying recently, the 
Department of Defense, the Office of the Secretary of Defense and the 
State of Indiana have all taken notice that the families of our 
servicemembers need support and assistance. To that end, resources have 
been delivered resulting in increased staff and resources in child care 
& youth programming, family assistance, family readiness, mental 
health, and resource and referral (via Military OneSource).
    Indiana National Guard Soldiers and Airmen are now experiencing the 
largest deployment since WWII (slide #3). Over 4,000 servicemembers 
within Indiana are currently and/or soon to be deployed in 2008. In the 
last 8 months the Indiana National Guard Family Programs staff has 
grown from a staff of 6 to now 32 full time personnel in order to 
better respond to the needs of these personnel and their families 
(slide #4 and #5). This staff serves all servicemembers and their 
families within Indiana, to include National Guard, Reserves, Active 
Duty and retirees from all services.
    The resources we provide during pre-mobilization, mobilization and 
post-mobilization are invaluable to our customers. These services 
include, but are not limited to, Tri-Care training and assistance, 
Family Readiness Group planning and program implementation, youth 
programming, marriage enrichment seminars (Strongbonds), free mental 
health counseling, homecoming support, financial classes, unit rear 
detachment training, National Guard Relief Fund financial grant 
requests, as well as a myriad of other services (slide 6). Financial 
issues are the number 1 topic we assist families with when they are 
facing / returning from deployment. We also assist servicemembers with 
all of our services not currently in a deployment cycle on an as needed 
basis.
    It is critical that we continue to fund these programs in the 
future years. Our families now trust these services and rely heavily on 
them. Unfortunately, most of our new programs are only funded for 12-36 
months. We serve as a combat multiplier on the battlefield, as we are 
able to focus on the families, while Combatant Commanders focus on 
their wartime mission. Further, we are a retention tool that far 
outweighs the cost currently expended on these new programs.
    The transition process is not over when the servicemember returns 
from mobilization. Some servicemembers take 12 months or longer to 
fully re-integrate into their family, civilian employment and/or 
community. We take Indiana citizens out of our state away from their 
loved ones, away from their careers, and send them into a hostile 
environment. We cannot expect them to return mentally, emotionally or 
physically as they departed Indiana. Assisting these servicemembers in 
the transition process is essential. Some servicemembers are now 
volunteering for their 3rd and 4th deployments. The revolving door of 
deployments is a strain to them and their spouses, parents, children 
and careers, which can effectively be addressed via Family Programs, 
Transition Assistance and Employer Support of the Guard and Reserve.
    Tri-Care is part of that transition. While the financial benefit of 
TriCare is sufficient, there are many issues that need attention. 
Little to no provider coverage is available in some areas in Indiana, 
as many families travel over 45 minutes to their primary care 
physician. Referrals are cumbersome and take many weeks to months in 
some instances. Mental health outpatient services are not covered, past 
the 6 free sessions initially available each calendar year. Claims 
processing is slow to providers and re-imbursement to families is slow, 
taking many months in some cases. Lack of providers and lack of updated 
provider lists are also a key complaint from our families.
    Tri-Care is a wonderful option, but has many logistical 
constraints. Families transition from their current insurance to Tri-
Care and back to civilian insurance up to 3-4 times during their career 
and have little time to trip over the logistical stumbling blocks Tri-
Care places in our way. Tri-Care needs to be more user-friendly in 
order to reduce the amount of stress our families already endure.
    Mr. Chairman, this concludes my testimony. What are your questions?

                                 <F-dash>
                Prepared Statement of Roger D. Peterman
         Transition Assistance Advisor, Indiana National Guard
    Mr. Chairman and Members of the Subcommittee, I appreciate this 
opportunity to testify before you today in reference to Transition 
Assistance Advisor (TAA) and Employer Support of Guard and Reserves as 
it applies to Pre-mobilization, Mobilization and Post Mobilization of 
our Indiana Soldiers.
    The TAA program is primarily designed to serve the members of the 
National Guard and their families. Additionally, we gladly provide 
service to members in all of the Reserve components, any Veteran and 
their families.
    As the Transition Assistance Advisor, I work to provide a statewide 
point of contact in assisting members with access to Veterans Affairs 
benefits and medical services. Services are provided at all phases of 
soldier deployment which includes Pre-mobilization, Mobilization and 
Post Mobilization operations in conjunction with other Indiana National 
Guard Directors. TAA also provides assistance in obtaining entitlements 
through the TRICARE Military Health System and access to community 
resources.
    The Transition Assistance Advisor works to build community 
partnerships through the National Guard, Reserves, DoD services, 
Department of Veterans Affairs, Indiana Department of Veterans Affairs, 
Veteran Service Organizations and the local communities. The TAA 
provides communication and coordination between these partners. We 
provide education and support to all eligible servicemembers and their 
families. A very important factor in this process is raising the 
awareness and understanding of available state and Federal VA benefits, 
as well as various community agencies that can assist the soldiers.
    Help is provided to the individual servicemember ensuring they are 
aware of entitlement programs, access to medical care and benefits of 
TRICARE. There are many important deadlines that require action such as 
post dental care. Servicemembers and their families needing counseling 
are advised where and how to get the help they need. Information is 
provided on insurance such as SGLI and TSGLI. The TAA supports the VA 
and local communities in developing Job Fairs designed for 
servicemembers, veterans and their families. Assistance is also 
provided to servicemembers locating lost DD 214's.
    Transition assistance is provided during pre-mobilization, 
mobilization, and demobilization. During homecoming events information 
is made available to the servicemember and their families in the form 
of brochures on VA benefits, educational opportunities, reemployment 
rights and other relevant resources. At this point the reintegration 
process has started. At 90 to 120 days the Seamless Transition is 
conducted at the unit or local community center. Many organizations are 
brought together to ensure our soldiers receive the information and 
resource needed to return to civilian life. Representatives at this 
event include Finance, Legal, VA benefits, VA Medical Center, 
Department of Labor, County Service Offices, TRICARE, Chaplain, Small 
Business Administration, Secretary of State, Employer Support of Guard 
and Reserve, Family Programs, American Legion, DAV, VFW and AMVETS.
    The TAA program is successful because we care about soldiers, 
veterans and their families. Over 90 percent of TAA's are veterans or 
spouses of military members. Many TAA's have worked through the 
disability process. They have experienced the process and can help 
guide the servicemember through it. We have built strong partnerships 
and coalitions with the VA, Directors of VA, Veterans Service 
Organizations, Family Programs, DoL, and Employer Support of Guard and 
Reserve (ESGR). Major Van Bree, Director of Family Programs, and I work 
closely on a daily operational level because our work overlaps. We 
serve as members of the Adjutant General's staff.
    I want to tell you about a volunteer organization in which I serve 
as the State Chairman. Employer Support of the Guard and Reserve also 
known as ESGR is a Department of Defense volunteer organization.
    The mission of ESGR is to gain and maintain active support from all 
public and private employers for the men and women of the National 
Guard and Reserves. Additionally this volunteer organization provides 
education, consultation, and if necessary, informal mediation between 
employers and employees who are Guardsmen or Reservists.
    ESGR is required to inform employers and their National Guard and 
Reserve employees of their rights and responsibilities under the 
Uniformed Service Employment and Reemployment Rights Act (USERRA) Title 
38, USC, Chapter 43. Indiana has 16 trained Ombudsman volunteers who 
serve to mediate these issues between employers and employees serving 
in the military. Currently, Indiana ESGR has 105 volunteers serving 
around the state.
    In summary, ESGR's goal is to support America's employers who share 
their employees with the Department of Defense to ensure our National 
Security. ESGR helps employers to understand the vital role they play 
in the National Defense of the United States. We must develop and 
promote a culture in which American employers support and value the 
Military service of their employees.
    Mr. Chairman, this concludes my testimony. Thanks for this 
opportunity to speak on behalf of the Transition Assistance Program and 
Employer Support of the Guard and Reserves. I would be pleased to 
answer any questions from the Subcommittee.

                                 <F-dash>
              Prepared Statement of Elizabeth L. Williams
          Indianapolis, IN (Indiana National Guard Member and
           Spouse of Deployed Indiana National Guard Member)
    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to be here today to testify on my views and experiences in 
regards to the Transitional Assistance Program and the ability of my 
family to cope with readjustment needs and the deployments of my 
spouse, CPT Christopher M. Williams.
    My husband is scheduled to return this month from his second year-
long deployment. In 2003, he deployed for approximately 15 months. 
Then, he deployed for the second time in June of 2007 and is expected 
to return any day.
    There has been significant progress in the efforts to provide 
transitional assistance to the soldiermembers and their families since 
my spouse's first deployment experience. During his 2003 deployment, I 
can recall very little assistance available to support the families of 
the deployed soldiermembers, outside of the Family Readiness Group and 
Military One Source.
    It appears as though the Family Readiness Group is often used as 
the primary source of communication and information dissemination, as 
it pertains to families and their available resources. Without the unit 
or servicemembers having a functioning Family Readiness Group, the 
soldiermembers and especially the spouses can often be left in the 
dark. I acknowledge that perhaps my testimony is also based on the fact 
that I am also a servicemember, as well as a spouse. Therefore, I have 
the advantage of understanding the military and how it functions, as 
opposed to a spouse that has no military background.
    My husband deployed with a small detachment, which does not have a 
functioning Family Readiness Group. The little detachments can easily 
fall through the cracks, even with the wonderful system we have 
recently established. It appears as though our system may be designed 
for at least company sized units. When small units deploy, similar to 
my husband's unit, they can be easily forgettable. Perhaps, those units 
could be assigned to a Family Readiness Group which has already been 
established or there could be a secondary means of communication, other 
than the Family Readiness Group, used to distribute information to the 
spouses and family members of deployed military members.
    I have recently learned we now have many new tools and resources in 
place, such as the Family Assistance Centers and the Family Readiness 
Support Assistants. We could never have too many of these. We already 
have 15 Family Assistance Centers; however, we could really use more 
Family Readiness Support Assistants to ensure the Family Readiness 
Groups are functioning properly and the Transitional Assistance Program 
benefits and resources are communicated effectively.
    Mr. Chairman, this concludes my prepared testimony. I would be 
pleased to answer any questions you or Members of the Subcommittee 
might have.

                                 <F-dash>
            Prepared Statement of Roy Saenz, South Bend, IN
              (Former Member of the Marine Corps Reserves)
    Thank you Chairwoman Herseth-Sandlin and Congressman Donnelly for 
this opportunity to speak with you about my transition experience. My 
name is Sergeant Roy Saenz. I served in the Marine Corps Reserves for 8 
years from August 1997 to August of 2005. While in the reserves I was 
activated and deployed twice in support of Operation Iraqi Freedom. I 
can only attest to my experiences transitioning back to civilian life 
as a reservist.
    In January of 2003 I was placed on active duty with Eng. Company 
B., 6th ESB, 4th FSSG, South Bend, IN. Prior to leaving the theater of 
operations, we went through a series of debriefings in Kuwait. The 
debriefing I remember best is the medical brief. We were given a 
questionnaire asking about any issues we may have. Two things stood 
out: one, ``If we had issues we would be placed on medical hold in Camp 
Pendleton until they were resolved'' and two, ``We are not telling you 
to not put any issues on the questionnaire, just that you will be a 
medical hold.'' This meant that we would not be able to return home 
with our unit. Meanwhile, we were already aware of the plans being made 
for the reunion back home in South Bend. Friends and family had been 
glued to the papers following our every move because we had an embedded 
reporter with us. So at both ends of the phone lines everyone wanted to 
be reunited, not stuck in California away from home.
    When we arrived at Camp Pendleton, many units were returning so 
there was a very tight and quick schedule to get us through our briefs. 
We again went through a medical brief. This time however, we waited in 
line and met with a doctor for a quick and very basic evaluation. If we 
brought anything up, they told us, ``You can stay and we will do a full 
evaluation but you will have to wait until next week.'' This meant we 
would not return home with the unit. My mom and younger brother had 
already flown in from Arizona to meet the unit in South Bend. So the 
incentive to report anything even minor was trumped by the desire to 
reunite with family and friends.
    When we arrived in South Bend we received a 3 day leave. Upon 
returning we had a variety of classes. Representatives from the Marine 
Corps League, VFW and American Legion came mostly with the intent of 
increasing membership. Although in the presentations I heard, ``Make 
sure you make a copy of your SRB and medical records, and take your dd-
214 to the county recorder's office.'' I stayed on for a few more 
months and went to Camp Lejeune, North Carolina to assist with off 
loading equipment. When I returned to South Bend in September, I was 
demobilized and returned to work.
    In January 2004 I volunteered to go back to Iraq with Bridge 
Company B, 6th ESB, 4th FSSG, Folsom, Pennsylvania. Again the exit 
process was about the same. We took a survey in Iraq, then at Camp 
Lejeune, the same medical process occurred: a quick interview. This 
time they said we would be fixed once we arrived at our home unit. I 
had shoulder surgery that was done locally in January 2005. I was 
released June 23, 2005, less than a month from my end of contract date.

    I have five general issues that I would like to present to this 
Committee:

    1. Pay Issues

        a.  Both times I was mobilized I was shorted on my first pay. 
        When I asked the unit administration they said to wait until I 
        got on the base and they will be able to help. Unfortunately, 
        there was not an opportunity to ask on my first deployment and 
        by the end of the deployment I did not mind because I was just 
        happy to be done. But it again happened on my second 
        deployment. Since I found out while I was at Camp Lejeune I 
        went to administration there and they said they could not do 
        anything about it because it was a reserve issue. The reserve 
        administration people could not access what the dock of pay was 
        for but again after finishing up in Iraq I did not care because 
        I was happy to be home and done. However due to my medical hold 
        my pay was again incorrect. I did not receive notice of this 
        until after I was off of active duty and off of contract. 
        Therefore, my former unit could not answer the questions. I was 
        unable to get through to DFAS--Kansas City because the 
        automated system could not get me to where I needed to go. 
        Finally I received a letter in the mail from different DAFS 
        location and it did not have a phone number so I wrote them and 
        they finally wrote me back but still did not answer all of my 
        questions. So here I am almost 3 years later and I have not 
        resolved my pay issues.

    2.  Education

        a.  When I signed up in 1997 I understood that I would be 
        eligible for the Reserve GI Bill. However it was not until I 
        was finishing up in June of 2005 that I found out that I could 
        have been taking college classes while in Iraq on my second 
        deployment and for the 8 months I was on medical hold.
        b.  My second education issue is that while I was finishing up 
        my second mobilization there was information coming out about 
        the REAP program and the 2 year consecutive/cumulative buy-in 
        option for reserves to look into. Many troops willing to do the 
        2 years to be eligible for the buy-in were blocked because they 
        had to come off of one set of orders and go onto a new set of 
        orders. Everyone was talking about the REAP program but once 
        the dust settled on that program, we found out that you have to 
        be still in the reserves. So many like me who did a cumulative 
        of over 2 years on active duty met that basic requirement for 
        the time eligibility but were already off of contract. Thus we 
        missed out on the REAP and were prohibited from buying into the 
        active duty GI Bill. This left two to three years worth of 
        deployed troops from the beginning of the war that will not be 
        eligible for additional educational benefits.

    3.  Filling a claim with the VA

        a.  While I was taking my dd-214 to the county recorder, I saw 
        the sign for the VA service representative. I walked into his 
        office and introduced myself. There was not much he could do at 
        this time because I was still on contract. But he started a 
        file on me. He recommended I keep a copy of my medical records 
        and SRB when I got off of contract and revisit him. When I fell 
        off of contract I filed an initial claim with the help of the 
        VA Service Representative but it took about 8 months for the 
        decision, coming in May 2006. Between September and December 
        2006, I had six visits for Post Traumatic Stress Disorder 
        (PTSD). I was not aware that I should file those visits with 
        the VA. Around February 2007, I went to the Work One office and 
        saw a sign that said ``Are you a Veteran? Have you talked to 
        the VA representative?'' He was available so I talked to him. 
        He recommended, because of my rating, that I talk to Jim 
        Garwood with the Vocation-Rehabilitation in Fort Wayne, 
        Indiana. So I met with him and he was very thorough and 
        informative. I then sent a letter for a re-evaluation and 
        adding PTSD to the VA April 24, 2007 then on May 7, 2007, the 
        pinched nerve in my back landed me in the hospital. As of May 
        2008, the VA has declined to pay this bill, so I am appealing 
        this decision. I had a C & P exam in June 2007 with pending 
        back issues which resulted in surgery in August 2007. It was at 
        this point that I realized that the VA benefits, C&P, and VA 
        Medical Side have very limited communication with each other. 
        The decision was in July 2007 and my back was rated the same so 
        I immediately appealed and was reevaluated in October 2007. I 
        received the decision finally on April 18, 2008 because it was 
        an appeal it had to go through the Notice of Disagreement 
        process. I found out in December 2007 that the standard 
        procedure for post-back surgery was 100 percent temporary 
        disability. I filed the claim along with my appeal and it was 
        denied. I requested physical therapy for my continued back and 
        neck issues and at first the VA wanted to send me on a 2 hour 
        one-way drive from South Bend to Fort Wayne for physical 
        therapy. After an evaluation in Fort Wayne, nothing happened 
        until after my annual follow up in March 2008. I had to have 
        another evaluation but this time it was with a local physical 
        therapist. I was finally authorized for physical therapy and 
        had my first appointment in late April 2008.

    4.  Filing process

        a.  I initially began my process by filing a claim in South 
        Bend. I picked the VFW to represent me as my advocate. When I 
        went back to file my next claim, I had to wait 2 weeks before I 
        could get in for an appointment due to the previous county 
        service representative. While the new representative was as 
        helpful as possible, I had more knowledge from experience and 
        Internet research. I was under the impression that the 
        organizational service representatives did more but as I found 
        out they are most effective if matters go beyond the Notice of 
        Disagreement process. Otherwise I could file everything on my 
        own directly to the VA. Over the last year I began sending 
        copies of my paperwork to both the VA directly and the VFW. I 
        did this in the hope that it would speed up the process as I 
        grew more and more frustrated with the amount of time the 
        process took.

    5.  PTSD and Lance Corporal Larry Bowling Jr. of Muncie, Indiana.

        a.  LCPL Bowling was with me on my second deployment to Iraq 
        with Bridge Company Bravo. On June 29th 2004, he was on a 
        convoy that was hit with an IED. He was in the response vehicle 
        and helped load up our three dead Marines: Sgt Alan Sherman, 
        CPL John Todd, and LCPL Patrick Adle. When we returned to the 
        South Bend Unit, LCPL Bowling was released on terminal leave. I 
        stayed on and 2 weeks later he called me late one night having 
        suicidal thoughts. I called the Corpsman and he contacted the 
        Commanding Officer. The decision was made to wait until the 
        next day and go down to take him to the VA Hospital in Marion. 
        After evaluation he was given medication and released to myself 
        and Sgt. Eugene Plonski. We were directed to return him to his 
        family. LCPL Bowling was then instructed to come to drill 
        weekends instead of being excused for 90 days from drill 
        weekends. Other than 1 weekend a month he was on his own with 
        no support system from the unit. When I asked the Commanding 
        Officer what we could do for him he said, ``He's Folsom's 
        problem, not ours.'' Within a few months he was given an Other 
        Than Honorable Discharge.
        b.  This Marine, who served honorably, reached out to the unit 
        and we failed him. This is due to a system that was not 
        prepared for handling the PTSD of Reserve Marines and by 
        commands that were not willing or prepared for handling mixed 
        unit issues.

    Based on my experience it is my recommendations to this Committee 
are as follows:

    1.  Evaluate reserve troops returning from Iraq and Afghanistan for 
PTSD related issues at the 45, 90 day and 1 year mark. These 
evaluations should be done whether the servicemember is still on active 
duty, active reserves, individual ready reserves, or off of contract.
    2.  The VA Medical and VA Benefits departments need develop a more 
efficient communication system to allow for the fast and smoother 
processing of claims by veterans.
    3.  Currently there are no efficient programs post-service that 
inform veterans of programs and assistance resources in their regions. 
Many veterans get frustrated and give up on the system.
    4.  Better inform reserve servicemembers, while still under 
contract, of programs while on active duty and better inform them of 
programs available post-service using available VA service 
representatives and other local veterans' representatives including but 
not limited to unemployment agencies.
    5.  Establish a way for troops to deal with administration problems 
that occur after they separate from service such as unresolved pay 
issues.
    6.  Reevaluate what services can be offered at the local level. 
Many veterans do not have the flexibility of schedule or means to 
travel long distances to receive assistance.

    Thank you again for this opportunity. I now invite you to ask any 
questions you may have.
                                                Sgt Roy Saenz, USMC
                                                          1997-2005

                                 <F-dash>
          Prepared Statement of Dawn McCool, North Liberty, IN
              (Spouse of an Indiana National Guard Member)
    Thank you Subcommittee Chairwoman Herseth-Sandlin, Congressman 
Donnelly, and all other Members of the Committee. I appreciate the 
opportunity to share my experiences as a spouse of a National Guard 
member in regard to the transition experience for myself and my family. 
My name is Dawn McCool and my husband Jim was with F Company, 151st 
Infantry (Light Anti-Tank) in Afghanistan. This deployment resulted in 
Jim being gone from May 2003 to July 2005. We have three children, now 
ages 18, 16, and 12. At the time of Jim's deployment, they were 14, 12, 
and 8.
    The main source of assistance for the family of deployed members of 
the guard is the family readiness group, commonly called a FRG. I first 
became involved in the family readiness group on May 4, 2004, the day 
my husband left from South Bend for Camp Atterbury. The wives were 
standing in a group when Laura Williams, who was in charge of the FRG, 
told us about the meetings on the third Monday of each month. I went to 
the first meeting and she asked if I would be the secretary and 
treasurer and whatever else needed. The community created from the FRG 
resulted in me meeting one of my best friends. We still talk and get 
together today, more than 4 years later. Unfortunately with our FRG 
getting started in 2004 things did not go smoothly. The level of 
involvement with a lot of the other moms, wives, girlfriends and 
extended families was low. We tried to involve the spouses and families 
but it was difficult because of the intense emotions involved after a 
loved one first deploys.
    The core of the family readiness group was comprised of only three 
people. The money was not there; however we tried to make up for it 
with effort. We were in touch with Col. Warrick and held a pretty 
successful family day at Culver Military Academy with soldiers that had 
previously deployed, spouses, girlfriends, and families. This event was 
probably the primary success of the FRG during the deployment.
    Overall, though, my experience with the FRG did not result in the 
level of support I had hoped for during what was a very tough 
experience when Jim was gone. We were supposed to be each others' 
support system but it frequently did not happen that way. There were 
two ladies that I could talk to, and they were great. But we felt 
walked on because no matter what we did or tried to do, we could not 
count on participation. One example is a large outing we organized at 
the zoo. We got a call list of all the soldiers' spouses or families 
and contacted all of them for a large outing to the zoo. We received a 
lot of ``yes'' responses but the turnout was terrible. After pouring in 
a lot of work and spending the money to put on the program, the 
involvement was not there.
    In general, that symbolized the difficulty of involvement with the 
other spouses and families. We let them know that if they needed 
anything, they could call my number or Laura's number. My phone was 
constantly ringing. Everyone seemed like they wanted to be involved, 
but no one would put forth the effort to actually do anything. By the 
time the soldiers returned, the FRG had pretty much fallen apart. There 
was not enough organization to get the word out to the spouses and 
families. When F Company deployed again last year, I was asked to lead 
the FRG, but I still had negative feelings from all the difficulties 
that arose during the first deployment and turned it down.
    One resource that was provided on a broader scale to promote the 
success of the FRGs was a conference at Stout Field in Indianapolis 
that I attended. There was a binder with information on making the 
family readiness groups stronger from the conference. It was clear that 
most of the successes came from increased involvement, but given that 
there were only three of us and we were struggling with involvement in 
the first place, it was not clear how to drive that. The conference 
also did not mention at all the transition back home for the soldiers, 
which would have been helpful.
    Jim returned to the U.S. in July of 2005 and came home for good in 
August 2005. Once we knew they were coming home, there were new 
emotions. You want them home but you are used to doing everything by 
yourself. One story about the transition afterward is when I was mowing 
the yard soon after his return. Something was wrong with the mower 
blade. My husband was standing there while I went inside, got the 
hammer, and fixed it myself. Initially, he felt like he was not needed 
around the house. I worked hard to change those feelings. With our 
three children, I put on a strong front for them while he was gone and 
I continued that strong front when he returned.
    Jim had around 5 months off for the time he spent overseas, so he 
did not have to go back to his civilian job right away. He was able to 
do a lot of work around the house and get to know the kids and me 
again. I think this time was essential for his transition. A year and a 
half does not seem like a long time, but people change a lot in that 
time. When he came back, it was almost like we were strangers again and 
it was a major adjustment to re-integrate him into the family. But it 
was mostly great to have him home.
    Before he was deployed, he worked for Shindler elevator, doing 
construction and repairs on elevators and escalators. He returned to 
that job after 5 months of vacation. His unit was eventually sent to 
Iraq after the return from Afghanistan; however he stayed back as the 
Rear Detachment Commander. He spends time every day at the armory in 
South Bend. If any of the soldiers had problems they could call. He 
also tried to help the wives and families as much as he could because 
he knew about my experiences. His unit returned to the U.S. from 
deployment to Iraq 2 weeks ago.
    I would also like to offer special thanks to my employee. I work at 
AM General, where we build military Humvees. I take a lot of pride in 
my work. It makes a difference when you know someone who is over there. 
I become upset when someone says, ``Oh, someone else will do it,'' at 
work because it affects the men and women overseas. My husband's 
service is one of the reasons that I went into Humvee repair. I know 
what they need, so I worked a lot of overtime when he was gone.
    AM General was great when Jim was in Afghanistan, especially if I 
needed time off when my kids were sick. The human resources department 
was very flexible and understanding. AM General offers an employee 
assistance program that I used. I suffered from depression during the 
experience and I was able to go to counseling and take my children so 
we could all talk about it.
    I wish there was some way to help families make the transition 
easier. One way would be more involvement in the FRGs. I am not sure 
how to do it, but the families need to know that there is someone to 
turn to, that there is help available. The soldiers see a lot of things 
overseas. There are still many things that Jim does not talk about, 
that he cannot talk about with me yet. They need to know that it is 
okay for them to go to counseling. This is healthy either with or 
without their spouse, although many are embarrassed to admit that they 
need that counseling.
    I believe it is very important that these families know that there 
is help, that there are resources. If the National Guard or another FRG 
could make a book or pamphlet details about what the soldiers are 
entitled to upon return and what the spouses are entitled to, it would 
be a wonderful resource. Help is there, the spouses simply need to be 
aware of it. We all could take better advantage of the help that is 
available, Jim included. It seems that people are afraid to ask for 
help even when the resources are there.
    Looking back, though, what I think that I wish I would have had 
more than anything else is being able to communicate with the soldiers 
to a greater extent, although it seems that it might not be possible. 
The men that stayed behind at the local unit helped us a great deal. If 
we needed anything, they were there in a heartbeat to help us. A 
deployment is something I wish never had to happen. I wish the guys 
never had to go, but I know they are serving their country.
    The best way to summarize my experience is in a poem that I 
received from someone when Jim was in Afghanistan titled, ``The Silent 
Ranks.'' I believe that every military spouse needs to read it because 
it talks about the fact that your spouse wears the uniform so they 
stand out, while you are in the background. No one sees that the wives 
or children go through. Thank you for giving me the opportunity to 
share my experience.

                                 <F-dash>
            Prepared Statement of Lori Masapollo, Niles, MI
                       (Spouse of Army Reservist)
    My name is Lori Masapollo, and as the wife of a career Army 
reservist, I have been asked to describe my experiences with transition 
services offered by the military over the course of my husband's 
multiple deployments. My husband, Lt Colonel Gary Masapollo, has served 
as a commissioned officer for 22 years. As we speak, he is at Fort 
Benning, Georgia, out-processing from the fourth full-term deployment 
in which he has engaged since 9/11. Additionally, within that same time 
period, he has made numerous shorter duration treks to Germany to 
assist with operations and training there. He has been away from home 
41 of the last 79 months. Unfortunately if I only address the 
transition services our family has been offered--my comments will be 
incredibly brief. Therefore, please indulge me as I attempt to address 
our thoughts on what services we would have appreciated over the course 
of my husband's service.
    As Gary comes off deployment and prepares to return to us, finding 
a job is the primary goal on his mind. When he left last year, he 
forfeited his contracted position as Professor of Military Science at 
Notre Dame so the Army ROTC Battalion there could fill the slot. Now he 
is without a job. As with many veterans who have devoted much of their 
working years to military service, he is struggling with how to find an 
employer who won't be intimidated by his ``previous experience'' or 
wrongfully view him as too regimented or military focused to be of use 
in the civilian workforce. We have been collaborating with other 
transitioned veterans and searching online to find resume templates and 
suggestions for how to best equate the work he has done in foreign 
countries to civilian job skills. If the military offers any kind of 
resume crafting assistance, job placement assistance or help in 
matching returning veterans with companies that would appreciate 
certain skill sets, we have yet to discover those programs. Assistance 
of this type has never been offered.
    If he is unable to locate work, education assistance that would 
allow him to refresh his skills would be beneficial. While he has been 
off defending his country, the civilian world has continued to upgrade 
technology, attend training seminars and create new corporate ``buzz 
words'' that may not have existed 15 months ago. He may no longer be in 
step with corporate America and the business skills that those who 
remained home on the job have continued to hone. Returning veterans 
face a declining economy and lay-offs. The job skills that they 
possessed pre-deployment may not be of use to them now. We personally 
have no idea what education assistance or training may be available to 
assist him; however, classes that focus on brushing up veterans' 
business skills, or help them re-direct their lives to more employable 
options would truly be an asset to all reservists. Once again, this 
type of assistance has yet to be offered.
    When Gary comes off active duty, and until he finds viable 
employment, health care coverage will be a concern for us. Gary and I 
are the parents of five children, and although one recently deployed 
with the Air Force, the remaining four depend on us for health care. It 
also crosses my mind that my husband's transition out of military life 
is going to take its toll psychologically. No matter how much we all 
have missed his daily presence in our lives; the first few weeks are 
never easy as we adjust to living together again and this time he will 
bear the added pressure of unemployment. What if he has physical or 
mental health issues when he returns? Where will we turn? What about 
other returning reservists? Health care issues are briefly addressed 
during out-processing, but returning vets are simply directed to their 
closest VA facility. Our closest VA Hospital is hours away in Battle 
Creek, Michigan. No one has ever checked in on our family either during 
or post-deployment to confirm that all is well, or that we have the 
resources we need to cope.
    I strongly believe that it takes a person of incredible character 
and patriotism to serve in the military reserves as it exists today. As 
the regular armies have downsized, reservists are called upon much more 
frequently to augment troops. As my own husband's story illustrates, 
with five full deployments since 1999 as well as being gone for weeks 
at a time assisting with training and driving 90 miles to drill on 
weekends, he has spent an inordinate amount of time away from home. 
These frequent absences have not helped his civilian career options and 
have only served to place him further behind in terms of rusty skill 
sets, lost promotions, and a smaller 401K nest egg. Sometimes 
reservists are even expected to support and maintain two households. My 
husband served his latest tour at CentCom headquarters at MacDill AFB 
in Tampa, Florida. Because much of the base housing had been condemned, 
he was placed in a furnished apartment in the private sector--to the 
tune of $3800 per month. In addition to paying our home mortgage and 
maintenance fees, he needed to pay for that apartment, renter's 
insurance, and food and wait for the Army to reimburse him. How many 
young reservists are financially prepared to take on that level of 
commitment all for the honor of serving their country?
    If our family lived on a military base, or within close proximity 
to one, perhaps we would have more resources and options available to 
us to deal with transition issues. Certainly base life offers more 
support to the families left behind, as those families are surrounded 
by other military-minded friends who are all in the same situation and 
help is a few steps away. Reservists' families are not so blessed. It 
has been my experience that if it were not for the reservists ``looking 
after their own'', most would never know where to go for the services 
they need. Luckily over the years our family has developed a network of 
reservist families that offer support, share knowledge of third-party 
resources and bolster attitudes as we await the arrival of our family's 
leader and prepare him for civilian employment. I often wonder what 
support exists for younger reservist families that have not had the 
years to establish those types of networks and contacts. It is sad to 
think that they are being left behind while their loved ones are away 
giving so much.
    LTC Gary Masapollo, IAM 38A (Civil Affairs)
    Jan-August 2000: Kosovo (411th Civil Affairs Battalion: attached to 
1st Infantry Division)
    July-December 2002: Kosovo (415th Cvil Affairs Battalion: attached 
to 1st Infantry Division)
    February 2003-April 2004: Iraq (308th Civil Affairs Brigade: 
attached to U.S. V Corps)
    Jan 2006-July 2006: GTMO, Cuba (Secretary of Defense/Office of the 
Administrative Review for the Detention of Enemy Combatants)
    June 2007-June 2008: CENTCOM (Individual Member Augmentee) Central 
Command HQ Tampa.

                                 <F-dash>
         Prepared Statement of Staff Sergeant Donald A. Blosser
              Granger, IN (Indiana National Guard Member)
    Thank you Chairwoman Herseth-Sandlin, Congressman Boozman, and 
Congressman Donnelly for this opportunity to speak with you about my 
transition experience. My name is Staff Sergeant Donald A. Blosser, 
Indiana Army National Guard.
    I served for 12 years, from 1980-1992, on active duty with the 
Army. I was stationed out of Ft. Lewis in Washington when I was sent to 
Arizona to fill a National Guard unit for deployment to what, at the 
time, was Operation Desert Shield. We were motor transfer operators. We 
deployed from Arizona to Saudi Arabia in January 1991. We returned on 
August 7, 1991. The call up went fine, although One Stop was not around 
at that time. We did not see the Veterans Affairs representatives at 
the time. We had general medical exams as a preliminary exercise. On 
the return, we did not stay in Arizona very long, perhaps 1 day, and 
then flew back to Ft. Lewis, Washington. The Army gave us leave after 
they shuffled units around. We did not meet representatives from 
supporting agencies because we were remained on active duty. I spent 
from September 2005 to the present with the National Guard. I went back 
to my civilian job driving trucks from 1992-2005. One large lure to 
joining the National Guard was to receive my benefits that I was not 
receiving due to a youthful oversight. I was put on active duty status 
in July 2006 and deployed to the region on October 7, 2006. I deployed 
with a National Guard unit out of Camp Shelby, Mississippi. There were 
55 soldiers from all over the State of Indiana who joined the unit in 
Mississippi in order to bring it to 299 strong. There were soldiers 
from Kentucky, Tennessee, and Michigan as well in order to reach this 
number. This was difficult at times because it brought together 
different mentalities from different parts of the country.
    When I returned on September 25, 2007 from Iraq, I demobilized at 
Camp Shelby, Mississippi. I spent 3 days out-processing. They broke the 
days into four main areas: two areas were medical, one was personal, 
and one was for meeting representatives and getting information on Army 
One Stop, Veterans Administration benefits, and TRICARE. They gave us 
stations to visit and the whole unit had to pass through. We were 
issued a check-sheet that had to be initialed by each representative to 
assure that we covered each station. The medical area had nine 
substations. The benefits station had five organizations represented. 
Once you went to the final booth, you were cleared. The State of 
Indiana had representatives present and they took care of all of our 
reservations for travel and made sure we were taken care of. This 
professionalism and presence by the Indiana National Guard was 
consistent from the advance before deployment, when a lieutenant from 
joint forces and I were the advance party. We met with the commander, 
made arrangements, and were joined by three to four other Indiana 
representatives who helped transfer the weapons and equipment to 
Mississippi. Upon the return, there were Indiana representatives there 
to take care of the weapons transfer again, which meant that we did not 
have to worry about it. All Indiana representatives were really sharp 
and smooth during the process. The Kentucky representatives were sharp 
as well, and they had 72 people to serve. Michigan and Tennessee did 
not have representatives present because there were only about a dozen 
soldiers between the two states.
    There was a true, individual concern for each soldier passing 
through. We were told that we would be going through this again in 
about 90 days at the state level. Around the middle of January, we did 
this at the 38th Infantry Division Headquarters Armory in Indianapolis. 
I completed medical questionnaires, saw a doctor, and met with 
representatives from the Veterans Administration, One Stop, VFW, 
American Legion, and other support groups. That event went very well. I 
am comparing this from when I came back from Desert Storm. The area 
that needs some improvement is TRICARE. I had a medical situation and 
wanted to consult my family doctor but he was not a TRICARE PPO. I have 
seen him for 9 years, hypertension. I went on the TRICARE website to 
find a PPO. One doctor was in Rochester, Indiana, approximately a 1 
hour drive south. Another doctor was in Michigan City, Indiana, 
approximately a 1 hour drive west. If needed, I could go to a hospital 
in South Bend, St. Joseph Regional Medical Center, which was a 
preferred medical facility. So I went to my doctor and paid for it 
myself. My story is not the only one. A lot of soldiers called me about 
medical issues because I was a squad leader. I had to let them know 
that this is the way it is and that there are not other options.
    The other improvement needed is TRICARE dental. The U.S. Military 
demands that you have good oral health before deploying anywhere in the 
world. Once we return from hard areas such as Iraq, I should be 
entitled to have my oral health checked and brought back up to the 
standards they were in when I deployed. TRICARE discontinued dental 
coverage within 5 days of my return. The Army wants to maintain a 
standard going in, so they should maintain that standard going out.
    Unfortunately, the Army passed the burden back on my civilian 
employment health care. I have been employed by Dayton Freight line for 
9 years. I put them in for an award from the state because when I told 
them I was leaving to serve, they wished me well, told me to be safe, 
and took care of my family and I while I was overseas. They did not ask 
any questions. I let them know that my unit was deploying, and all they 
asked for was something in writing. While I was gone, they sent me 
things, checked on my wife, and continued to provide her my profit-
sharing checks. When I came back, they gave me a profit sharing check 
pro-rated and my medical insurance was reinstated immediately. When I 
had an issue arise, I called corporate and they took care of it. They 
even threw a party for me when I came back. I have heard horror stories 
about other companies but Dayton Freight is great.
    To end on a positive note, overall I must say that the soldier is 
better informed and taken care of than after the Gulf War.

                                                  Donald A. Blosser
                                                        SSG, INARNG

                                 <F-dash>
                 Prepared Statement of Stephen W. Short
      Department Adjutant, American Legion, Department of Indiana
    Mr. Chairman and Members of the Subcommittee:
    With the ending of the Cold War, the Department of Defense (DoD) 
dramatically downsized its personnel strength. In 1990 Congress, in an 
attempt to assist separating service members in making a successful 
transition back into the civilian workforce enacted P.L. 101-510 which 
authorized the creation of the Transition Assistance Program (TAP). 
This law was intended to assist servicemembers who possessed certain 
critical military specialties that could not be easily transferred to a 
civilian work environment and to assist others with educational and 
career choices.
    DoD's TAP and Disabled Transition Assistance Program (DTAP) are 
designed, in conjunction with Department of Labor (DoL) and the 
Department of Veterans Affairs (VA), to help prepare not only 
separating servicemembers but also their families for a seamless 
transition to civilian life. Last year in FY 2007, more than 386,200 
servicemembers were discharged from active duty status and over 500,534 
servicemembers demobilized from active duty service. Public Law (P.L.) 
101-510 (Chapter 58, section 1142) mandates pre-separation counseling 
for transitioning servicemembers. These programs consist of specific 
components: pre-separation counseling; employment assistance; 
relocation assistance; education, training, health and life insurance 
counseling; finance counseling; reserve affiliation; and disabled 
transition assistance seminars. DTAP is designed to educate and 
facilitate disabled veterans to overcome potential barriers to 
meaningful employment. Currently, VA, DoL, and DoD operate 215 
transition offices around the world.
    While the TAP program assists transitioning servicemembers leaving 
the military under their own accord, the DTAP program focuses on the 
specialized needs of the servicemembers who are separating for medical 
reasons. The DTAP workshop is a half-day seminar sponsored jointly by 
DoL, DoD and VA. The workshop provides specialized information on VA's 
many disability benefits:

    <bullet>  Medical Care
    <bullet>  CHAMPVA
    <bullet>  Disability Compensation
    <bullet>  Vocational Rehabilitation
    <bullet>  Disabled Veterans Insurance

    In this current era of a significantly smaller all-volunteer 
military, the reliance on the National Guard and Reserve to fight the 
present Global War on Terror is unprecedented. The Reserve forces have 
become an essential part of all current DoD operations. Reservists in 
Iraq and Afghanistan reflect a significant portion of the total 
deployed force in any given month, and DoD reports that continued 
reliance on the 1.8 million Reserve and National Guard troops will 
continue well into the foreseeable future. Attracting and retaining 
well qualified individuals to execute the fundamental functions of a 
strong and viable national defense is paramount. Without providing 
proper incentives for servicemembers to enlist and reenlist, the 
military will continue to be hard pressed to effectively accomplish 
their Global War on Terror mission.
Reservists Return to Find No Jobs
    National Guard and Reserve troops are returning from the wars in 
Iraq and Afghanistan only to encounter difficulties with their Federal 
and civilian employers at home. Many of these returning servicemembers 
have lost jobs, or lost promotions or benefits, and in a few cases they 
have encountered job demotions.
    According to the Uniformed Services Employment and Reemployment 
Rights Act, employers must by law protect the old jobs of deployed 
servicemembers, or provide them with equivalent positions. Benefits, 
raises, and promotions must be protected, as if the servicemember had 
never left. In many cases this law has not been able to protect many 
returning servicemembers across the country from the negative effects 
of long deployments. Servicemembers would greatly benefit by having 
access to the resources and knowledge that TAP can provide, but the 
program should have stronger employment, mental health, and small 
business components.
The Effects of Reserve Call-ups on Civilian Employers and Veteran Owned 
        Businesses
    The impact of deployment on self-employed Reservists is tragic with 
a reported 40 percent of all veteran owned businesses suffering 
financial losses and in some cases bankruptcies. Many veteran owned 
small businesses are unable to operate and suffer some form of 
financial loss when key employees are activated. The Congressional 
Budget Office in a report titled ``The Effects of Reserve Call-Ups on 
Civilian Employers'' stated that it ``expects that as many as 30,000 
small businesses and 55,000 self-employed individuals may be more 
severely affected if their reservist employee or owner is activated.''
    Currently, the Small Business Administration (SBA) offers Military 
Reservist Economic Injury Disaster Loans. This program offers loans to 
businesses that meet certain eligibility criteria to help offset the 
economic consequences of the loss of their Reservist personnel. To 
qualify, a company must be able to show that the activated Reservist is 
critical to the success of the company. The American Legion recommends 
that the SBA should be part of any Reservist and National Guard TAP 
briefing, and act in an advisory capacity to veteran business owners, 
to assist them with resources and information to help lessen the impact 
of activation on their bottom line.
Education and the GI Bill
    Historically, The American Legion has encouraged the development of 
essential benefits to help attract and retain servicemembers into the 
Armed Services, as well as to assist them in making the best possible 
transition back to the civilian community. On June 22, 1944, then-
President Franklin D. Roosevelt signed the Servicemen's Readjustment 
Act of 1944, which later became known as the GI Bill of Rights. This 
historic piece of legislation, authored by the leadership of The 
American Legion, enabled veterans to purchase their first homes, attend 
college, and start private businesses. The emergence of the American 
middle class, the suburbs, civil rights, and finally a worldwide 
economic boom can be attributed to this important legislation.
    The majority of individuals who join the National Guard or Reserves 
enter the Armed Forces straight out of high school, and many are full 
and part time students. With the number of activations since September 
11, these same Reservists are discovering that their graduation will 
take longer than once anticipated. Currently the Montgomery GI Bill 
pays the average Reservist $317 a month compared to his active duty 
counterpart who is paid $1,101 a month.
    With the rising cost of tuition many Reservists must resort to 
commercial loans and other loans or grants to supplement the Montgomery 
GI Bill. When a servicemember is forced to withdraw from school due to 
military obligation, the commercial loan must still be paid regardless 
of whether the student finishes the course, adding to the accumulated 
debt of that servicemember.
    The American Legion recommends that TAP briefings include an 
education representative to provide National Guard and Reservist 
members this kind of information so they can avoid undue financial 
hardship.
The Servicemembers Civil Relief Act
    On December 19, 2003, the President signed into law a complete 
update of the Soldiers' and Sailors' Civil Relief Act (SCRA) 1940. This 
helps ease the economic and legal burdens on military personnel called 
to active duty status in Operation Iraqi Freedom and Operation Enduring 
Freedom.
    Relief under SCRA extends to actions terminating leases, evictions, 
foreclosures and repossessions, default judgments, lower interest rates 
on credit cards and loans and protects against lapses or termination of 
insurance policies.
    With the military's increased reliance on National Guard and 
Reserve units, creditors residing in remote areas of the country 
outside of the traditional military towns are not aware of this act, 
including members of the reserve component. Therefore, servicemembers 
are experiencing serious financial difficulties while on active duty--
their cars are repossessed, homes foreclosed and credit histories 
ruined because this piece of legislation is unknown.
    The American Legion has produced a brochure on active duty legal 
rights, copies of which will be distributed across the country. If TAP 
was mandatory, servicemembers and local community businesses would also 
know of this program, and a lot of frustration, time and 
misunderstandings could be avoided. To their credit, Navy TAP 
representatives discuss personal financial planning during workshops 
and seminars. However, the Reserve components need to have this issue 
addressed during TAP as well.
Make TAP/DTAP a Mandatory Program
    DoL estimates that 60 percent to 65 percent of all separating 
active duty servicemembers attend the employment TAP seminars and 30 
percent of all separating National Guard and Reservists attend a 
portion of TAP. The American Legion believes this low attendance number 
is a disservice to all transitioning servicemembers. Many 
servicemembers and most National Guard and Reservists are unaware of 
the assistance and resources offered by TAP. Without this program, 
servicemembers who have served their country bravely return to the 
civilian workforce less equipped than their counterparts who took 
advantage of the information provided by TAP. According to written 
testimony from John M. McWilliam, Deputy Assistant Secretary of 
Veterans' Employment and Training, Department of Labor, May 12, 2005, 
``We have been working with the National Guard and Reserve on providing 
TAP services to these returning servicemembers in many states on an 
informal and as needed basis. In this regard, three Reserve Component 
TAP demonstration programs are underway in Oregon, Michigan and 
Minnesota.''
    DoD and DoL report that in Oregon 40 percent of those part time 
servicemembers who attended the TAP session were looking for 
employment. The American Legion recognizes the value of this program 
and recommends that it become a mandatory requirement for all 
transitioning servicemembers.
Access to TAP
    The GAO report, Enhanced Services Could Improve Transition 
Assistance for Reserves and National Guard, May 2005, reports TAP is 
not made available to the National Guard and Reserves. ``TAP managers 
with DoD and the military services explained that the chief problem is 
lack of time during demobilization, which is often completed in 5 
days.'' The American Legion recommends that TAP be instituted in the 
following ways:

    <bullet>  Incorporate TAP into the unit's training schedule months 
before activation
    <bullet>  Have a TAP briefing during a unit's organization day that 
includes spouses
    <bullet>  Activate a unit for a weekend either before or after a 
deployment
    <bullet>  Most units spend three to eight weeks at an installation 
site preparing to move into theater; TAP briefings should be available
    <bullet>  Spend extra day or two at a demobilization site to 
include TAP

    The GAO report also states that many servicemembers are not 
interested in the employment segment because they believe they have 
jobs waiting for them once they return home. That might have been true 
with the first rotations into theater; however, that is not the case 
now for many veterans, especially with back to back deployments. A 
number of complaints have surfaced from servicemembers around the 
country that some businesses are reluctant to hire veterans still in 
the military and businesses have allegedly started putting pressure on 
veterans who have deployed once not to deploy a second time.
Transitional Assistance Program for National Guard and Reserves
Aberdeen Proving Grounds, Maryland
    The TAP program located at Aberdeen Proving Ground, Maryland, has 
been called a unique program and still highly regarded as model for all 
the Army. It is currently the only program that offers transition 
assistance to guard and reserves with an 8-hour presentation of 
services and benefits. Briefings are given covering Finance, Education, 
USERRA, VA compensation and disability claims, Employment Assistance, 
Mental Health Counseling Services, and Tri-Care. The program also has a 
number of unique partnerships with many Federal, State and local 
agencies. Some of those partnerships include: the Maryland Division of 
Workforce Development, Perry Point VA Hospital, Department of Labor, 
Walter Reed Army Medical Center and the Ft. Monmouth, N.J., Transition 
Office. The program has a pro-active philosophy. Some examples include:

    <bullet>  Servicemembers needing employment are given immediate 
assistance. In some cases this has led to immediate hires, and those 
servicemembers returned home with a job while avoiding unemployment. If 
the veteran lives outside the state a point of contact is given for 
that individual to ensure there is a Veteran Representative waiting 
with job service resources.
    <bullet>  The Perry Point VA Hospital offers immediate shelter to 
servicemembers who may be homeless, which lessens the numbers of 
homeless veterans on our Nation's streets. VA reports that more than 
175,000 veterans are currently homeless and another 250,000 are 
homeless over a period of time. VA has also reported that the number of 
homeless veterans who have served in Iraq and Afghanistan is 
increasing, especially among women with children. The American Legion 
believes the first line of defense in preventing additional homeless 
cases is to have a strong and pro-active transitional assistance 
program.
    <bullet>  Servicemembers who need assistance with filling out 
compensation and disability claims are offered immediate assistance by 
visiting VA representatives. The program has received positive feedback 
by servicemembers and commanders.
Assessing Services Rendered
    The American Legion recommends that Congress require Federal 
agencies that deliver TAP/DTAP services to develop a management-
monitoring program to better assess how well services are being 
delivered to transitioning servicemembers. Currently, the effectiveness 
of services provided by TAP agencies is unknown because adequate 
performance goals and benchmarking measures have never been instituted. 
Consequently, there is a lack of any verifiable outcome data. 
Performance measures should be instituted to hold all Federal agencies 
involved in TAP/DTAP accountable for services rendered.
Summary
    America asks its young people to serve in the armed forces to guard 
and defend this great Nation and its way of life. Their selfless 
service provides millions of Americans with the opportunity to pursue 
their vocational endeavors. The successful transition of that 
servicemember back into the civilian workforce must be a shared 
responsibility, especially if that servicemember has suffered service-
connected disabilities. There is much talk about ``seamless 
transition'' between DoD and VA, but it goes beyond that. It should be 
a ``seamless transition'' between all Federal agencies involved in a 
transition assistance program. That means:

    <bullet>  Ensuring servicemembers know their active duty legal 
rights and that those Federal agencies involved should monitor and 
assist in the compliance with those rights
    <bullet>  Prompt adjudication of disability claims
    <bullet>  Prompt adjudication of educational claims
    <bullet>  Timely access to Tri-Care and VA quality health care
    <bullet>  Housing of the homeless
    <bullet>  Employment assistance
    <bullet>  Small business assistance
    <bullet>  Any other Federal assistance as needed

    The American Legion reaffirms its strong support of TAP but also 
encourages DoD to require that all separating, active-duty 
servicemembers, including those from the Reserves and the National 
Guard, be given an opportunity to participate in TAP training not more 
than 180 days prior to their separation or retirement from the armed 
forces, and followup counseling not later than 180 days after 
separation from active duty. The American Legion supports efforts to 
mandate that all servicemembers be given the opportunity to participate 
in TAP/DTAP.

                                 <F-dash>
                Prepared Statement of Gary M. Whitehead
          Elkhart County Veterans Service Officer, Elkhart, IN
    Ladies and Gentlemen,
    It is a tremendous honor to be here today. I have been a County 
Veterans Service Officer for twenty-two years after I retired from the 
Navy in July 1986.
    When our Guardsmen and Reservists return home, they are required to 
complete three days of classes covering everything from seeing a 
Chaplain to having a briefing from individuals from Work Force One 
concerning their re-employment rights.
    Even today when I interview a WWII, Korean or Vietnam veteran, I 
ask them if their disabilities were documented in their service medical 
records and they advise me that they were not because they would have 
had to stay on active duty for several more days and they wanted to get 
home to see their loved ones. This is still happening today but at 
least they are given the knowledge that there are people out in their 
communities that will provide assistance for them. Like the old saying 
``You can lead a horse to water but you can't make him drink.'' 
Sometimes veterans are just like that or they think getting medical 
care or compensation from the Department of Veterans Affairs is 
WELFARE.
    I have spoken with Paul Curtice, the VFW State Service Officer, and 
he advised me about all of the information that he and the DAV Service 
Officer puts out during their presentations to our returning veterans. 
Here in Indiana, several months after the Guardsmen and Reservists have 
settled back to being at home, the Indiana Dept of Veterans Affairs 
along with the Dept of Veterans Affairs (both compensation and health 
care) conducts follow up training with units to continue keeping them 
informed about their benefits.
    Personally, I feel the Department of Veterans Affairs, the Indiana 
Department of Veterans Affairs and the Military Department of Indiana 
misdoing everything they can to make sure our troops are informed of 
their benefits and rights as veterans. It's the veteran's 
responsibility to follow up with their claims for compensation and 
health care. The only thing that bothers my fellow County Veterans 
Service Officer's and myself is that when training sessions are 
scheduled in OUR communities, we are not invited to participate since 
we are not really a part of the Department of Veterans Affairs.
    Overall, the Transition Assistance Program provided to our troops 
is very good and all of us working together can make our veterans get 
readjusted back with their families and the community. Thank you for 
your time in listening to me.
    God Bless America.

            Very Respectfully,
                                                  Gary M. Whitehead

                                 <F-dash>
                Prepared Statement of John M. McWilliam
          Deputy Assistant Secretary, Veterans' Employment and
                   Training, U.S. Department of Labor
    Madam Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Members of the Subcommittee:
    Thank you for the opportunity to appear before this Subcommittee to 
discuss the role of the U.S. Department of Labor (DoL) Veterans' 
Employment and Training Service (VETS) in providing transition 
assistance to our returning servicemembers.
    The mission of VETS is to provide veterans and transitioning 
servicemembers with the resources and services to succeed in the 21st 
century work force. One of the most important ways that we meet that 
mission is by providing employment workshops to separating active, 
Guard, and Reserve servicemembers as part of their transition to 
civilian life. Our services are provided through the Transition 
Assistance Program (TAP).
    TAP is a Department of Defense (DoD) program that partners with 
DoL, the Department of Veterans Affairs (VA), and the Department of 
Homeland Security. TAP has four components:

    1.  Pre-separation counseling--this is mandatory for all 
transitioning servicemembers and is provided by the military services;
    2.  TAP employment workshops--these are voluntary on the part of 
the transitioning servicemember and are administered through DoL and 
its state partners;
    3.  VA benefits briefing--these briefings are also voluntary and 
administered by the VA; and
    4.  Disabled Transition Assistance Program (DTAP)--also voluntary 
and administered by the VA.

    Historically, 60 percent to 65 percent of active duty transitioning 
servicemembers have attended the TAP employment workshops. This has 
risen from a 50 percent participation rate in 2001. As a result of the 
Global War on Terror Task Force, the DoD has established a goal of 85 
percent attendance.
    Since 1991, when DoL began providing employment workshops pursuant 
to section 502 of the National Defense Authorization Act for Fiscal 
Year 1991 (P.L. 101-510), over one million separating and retiring 
military members and their spouses have been provided employment and 
job training assistance and other transitional services. DoL was 
further directed to provide these services at overseas locations by 
section 309 of the Veterans Benefits Act of 2003 (P.L. 108-183). Before 
this law took effect, VETS began facilitating TAP workshops at overseas 
military installations where, by previous interagency agreement, the 
DoD had provided TAP workshops since the program's inception. VETS 
continued to expand additional overseas sites and we are extending 
efforts to provide workshops whenever requested to those Guard and 
Reserve units returning from the Global War on Terror. We are currently 
conducting TAP employment workshops at 55 sites overseas including 
Germany, Japan, Italy, Korea, Guam and the United Kingdom. Our mission 
is to provide TAP at every location requested by the Armed Services or 
National Guard and Reserve Component.
Employment Workshop Overview
    DoL is authorized by Chapter 58 of title 10, U.S. Code, to assist 
the DoD and VA in providing transition assistance services to 
separating servicemembers and their spouses. The role of VETS in this 
effort is to conduct employment workshops based on projections made by 
each of the Armed Services and the Department of Homeland Security for 
the U.S. Coast Guard. In the United States, Disabled Veteran Outreach 
Program (DVOP) specialists and Local Veterans Employment 
Representatives (LVER) lead most employment workshops. In some cases, 
due to the distances from some State Employment Offices to the military 
installations, and to assist with the rapid growth of the program, 
contract facilitators were added in early Fiscal Year 1992 and Federal 
staff in Fiscal Year 1996. In overseas locations, contract staff leads 
most workshops.
    To maintain a quality of service delivery and ensure uniformity 
between locations, all workshops use a common workbook and program of 
instruction. In addition, all facilitators, whether DVOP/LVER, Federal 
staff, or contract, are trained and certified by the National Veterans' 
Training Institute.
    In Fiscal Year 2007, over 146,000 separating military personnel and 
spouses were trained in 4,716 employment workshops at military 
installations across the Nation and worldwide. In Fiscal Year 2008, 
VETS plans to provide employment workshops to over 150,000 
servicemembers and spouses at military installations in the United 
States and overseas.
    The VETS employment workshop is a comprehensive 2\1/2\ day session 
where participants learn about job searches, career decisionmaking, 
current occupational and labor market conditions, resume and cover 
letter preparation, and interviewing techniques. Participants are also 
provided an evaluation of their employability relative to the job 
market and receive information on the most current veterans' benefits. 
Components of an employment workshop include: career self-assessment; 
resume development; job search and interview techniques; U.S. labor 
market information; civilian workplace requirements; and documentation 
of military skills.
Reserve Component (RC) and National Guard (NG) Employment Workshop
    Global military commitments have necessitated a mobilization of 
Guard and Reserve members that is unprecedented in modern times. The 
longer mobilization periods result in these servicemembers now being 
eligible for veterans' benefits, including TAP. The employment workshop 
is available for most servicemembers at one of the 215 transition 
offices located on military installations in the United States as well 
as overseas locations.
    However, Reserve and Guard members usually transition at fewer 
locations, referred to as demobilization sites. Typically the 
demobilization process is rapid, taking a matter of days once the 
servicemembers arrive back in the United States from overseas. For 
example, the Army standard is to demobilize units in 5 days, and it is 
not uncommon for military installations to get two or fewer days 
advance notice before returning troops arrive. During demobilization, 
servicemembers may be expected to participate in as many as 18 separate 
briefings or activities such as physical examinations at various 
locations. This leaves little or no time for a full 2\1/2\ day 
employment workshop. Nevertheless, we have found that many Guard and 
Reserve servicemembers would benefit from such transition assistance. 
Our State Directors are working directly with the reserve and guard 
commanders to make special arrangements following demobilization in 
order to present a modified TAP employment workshop to Guard and 
Reserve servicemembers.
    Based on requests from Reserve Component Commanders or Adjutant 
Generals and through coordination with our VETS' state directors, TAP 
employment workshops in some form have been conducted in most states.
    DoL State Directors have contacted each state Adjutant General to 
offer outreach and assistance to returning members of the Guard and 
Reserves during the demobilization process. We offered to tailor the 
workshops to the identified needs of the transitioning Reserve and 
Guard members.
    Since 2001 VETS has provided transition services to over 146,000 
National Guard and Reservists. These transition services range in size 
and content from mobilization/demobilization briefing to the full scale 
TAP employment workshop. They are provided in 43 states and the 
District of Columbia. In some states National Guardsmen and Reservists 
have been allowed to attend the regular TAP for Active Component 
servicemembers. The services provided to the Guard and Reserve are 
tailored to the needs and requests by the DoD.
    Minnesota has been in the forefront of providing the needed 
transitional services to Guard and Reservists and has developed a 
program that is currently being reviewed for replication in other 
states. In early 2005, the state of Minnesota implemented the 
Transition Assistance Program to not only assist the contingent of 
active duty servicemembers within the state, but also, the National 
Guard and Reserves. Realizing the Guard and Reserve components need the 
same quality of transition assistance that their active component peers 
receive, emphasis was placed on coordination through the state's 
Adjutant General (AG) down through individual units for implementation 
of the program as a part of the overall ``Beyond the Yellow Ribbon'' 
Reintegration efforts. The mini-TAP workshops or MN/TAP is a program 
designed primarily for the Reserve and Guard servicemembers who are 
limited in time to attend a full TAP. MN/TAP focuses on job search, 
resume and applications, interviewing, and follow-up.
    To meet the transition needs of the National Guard and Reserves, in 
FY 2007, DoL directed the National Veterans' Training Institute (NVTI) 
to develop a modular version of the TAP employment workshop. The 
traditional TAP employment workshop was turned into a 15-module menu 
that Reserve/National Guard commanders may choose from in providing 
these services to their unit members. This training includes a 
mandatory module that covers local labor market information, USERRA, 
the One-Stop Career Center system, small business opportunities, and 
the risks of homelessness. The other 14 modules consist of the current 
TAP employment workshop curriculum broken down into logical and 
connected blocks of instruction. This is not a new or separate 
curriculum for the RC/NG; rather it has been packaged to better serve 
the Reserve/National Guard community.
Indiana Programs
    I have provided an overview of what is being done to assist those 
servicemembers transitioning from the military to civilian life. I 
would now like to focus on what we are doing in the state of Indiana. 
Recognizing the need to focus on and deal with the problems and issues 
military members often face several months or years following military 
service, many agencies came together to create the ``Hoosier Veteran 
Seamless Transition Program''. A formal Memorandum of Understanding was 
signed in 2006 by the Governor, Joint Forces Headquarters, Indiana 
Department of Veterans Affairs, U.S. Department of Veterans Affairs, 
Indiana Department of Workforce Development, U.S. Department of Labor's 
Veterans' Employment and Training Service, National Guard Family 
Assistance, Employer Support of the Guard and Reserves, Hoosier 
Veterans Assistance Foundation, TRICARE, American Legion, American 
Veterans, Disabled American Veterans, and Veterans of Foreign Wars. The 
purpose of the collaboration is to ensure that Indiana National Guard 
members, after deployment, are provided all necessary services and to 
help these returnees with the multitude of applications and benefits.
    Camp Atterbury is one of two major demobilization locations in the 
Chicago Region. The Indiana Department of Workforce Development has 
stationed a Local Veterans Employment Representative full-time at Camp 
Atterbury to participate in all demobilization briefings, to provide 
mini-TAP workshops, and to provide individualized employment services 
to those Guard members and Reservists that are demobilizing. Since 
January 1, 2008, the LVER has provided briefings to almost 900 
demobilizing servicemembers and provided mini-TAP classes to over 300 
servicemembers. Services provided by the LVER include:

    <bullet>  Information on the One-Stop Career Centers, DVOPs, LVERs, 
Unemployment Compensation, and the services available through the One-
Stop; and
    <bullet>  Completion of a referral form for all demobilizing troops 
indicating a desire to receive employment assistance. These forms are 
forwarded to the appropriate VETS' State Director (DVET) for action.

    An official TAP site is in the process of being established at Camp 
Atterbury for active duty soldiers. These servicemembers currently 
travel to Ft. Knox to attend TAP. It is projected that the Atterbury 
TAP site will be operational in July 2008.
    In closing, I again thank you for allowing me to address you today 
on this very important issue and program. I am happy to answer any 
questions you may have.

                                 <F-dash>
                    Prepared Statement of Jane Burke
               Principal Director, Military Community and
               Family Policy, U.S. Department of Defense
    Chairwoman Herseth Sandlin and distinguished Members of the 
Committee: thank you for the opportunity to discuss what the Department 
of Defense (DoD) is doing to provide servicemembers and their families 
with the information and resources necessary to facilitate a successful 
transition from military to civilian life.
    We require a great deal from our servicemembers and their families, 
whether they be Active, National Guard, or Reserve, and I want to 
affirm the Department's steadfast commitment to them.
    Returning to private life after serving in the military is a very 
complex undertaking. To assist them in doing so, we must empower our 
servicemembers with the tools and information they need to develop 
individual solutions to the challenges they may face as they return to 
civilian life. Service members' and their families most immediate goals 
are finding a job, changing careers, enrolling in higher education, and 
ultimately improving their economic quality of life.
Federal Collaboration
    I am impressed by the dedication and willingness of all our Federal 
partners to provide an assortment of highly desirable transition 
services. You can be truly proud of the manner in which the DoD, 
Department of Labor (DoL), and Department of Veterans Affairs (VA) have 
continued to enthusiastically support our men and women in uniform. The 
sustained interest and support of this Committee is also vital to our 
efforts.
    The three Federal departments have been working together in earnest 
for well over a decade. The many professionals within these departments 
are bringing DoD, DoL, and the VA even closer together for a common 
goal of preparing servicemembers and their families for military life 
and transition into the civilian community at a pace greater than at 
any time before. Examples of our increasingly focused efforts include 
the Transition Assistance Program Steering Committee and the Secretary 
of Labor's Advisory Committee on Veterans Employment, Training, and 
Employer Outreach (ACVETEO). DoD and VA also continue to partner 
extensively through the VA/DoD Joint Executive Council (JEC), the 
Benefits Executive Council (BEC), and the Health Executive Council 
(HEC).
    The rest of my statement today will touch on the many programs, 
actions, and activities under way that reflect the shared commitment to 
delivering transition assistance, employment assistance, and benefits 
information to our servicemembers and their families.
Office of Personal Finance and Transition (PF&T)
    The DoD has undergone a paradigm shift and adopted a new philosophy 
with respect to assisting our transitioning servicemembers and their 
families. Recognizing that financial readiness, military and veterans 
benefits, and transition assistance are closely linked to one another 
and must be addressed as a whole, the Office of the Deputy Under 
Secretary of Defense for Military Community and Family Policy (ODUSD 
(MC&FP)) established its newest directorate, the Office of Personal 
Finance and Transition (PF&T), this past March.
    Combining oversight for both the Financial Readiness Program and 
the Transition Assistance Program (TAP), previously operating 
independently within separate Office of the Secretary of Defense 
directorates, the office is responsible for a broad range of policies, 
educational programs, and resource services that address both the 
financial readiness and transition assistance needs of military members 
and their families.
    Through education, counseling, and an inventory of high-tech and 
interactive resources and programs, PF&T is responsible for ensuring 
all military members and their families have access to the tools 
necessary to attain economic security throughout their military careers 
and beyond and to make educated decisions regarding their next military 
career milestones and ultimate transitions to the civilian workforce. 
Ensuring military members and their families have an accurate and 
complete understanding of both military and veterans' benefits, and how 
application of those benefits affects their individual transition and 
economic security plans, can have significant retention implications, 
which, in turn, can contribute to mission and force readiness. Part of 
the office's philosophy is that military life is a series of key 
transitions, and that ``transition assistance'' is a lifelong process, 
required for these transitions within the military just as much as it 
is for the transition out of the military.
    With a mission inclusive of all Services and components (Active 
Duty, National Guard, and Reserve) and their families, PF&T is 
establishing a national network of financial and transition 
professionals and resources through a ``train-the-trainer'' approach to 
ensure the DoD is responsive to the financial readiness and transition 
needs of state Adjutant Generals and Governors, military regions and 
installations, and individual units. Additionally, this new approach 
will ensure 24/7 global access of educational resources and 
individualized financial and transition plans using the latest 
technology and multiple delivery methodologies throughout the 
servicemembers' and their families' life cycle.
    However, while this represents the future vision of the nature of 
transition assistance, it is important to discuss the formal TAP as it 
exists today to show how it currently assists our troops and families.
Transition Assistance Program
    Since its inception in 1990, the goal of TAP has been to provide 
servicemembers and their families the skills, tools, knowledge, and 
self-confidence necessary for a successful reentry into the Nation's 
civilian workforce. The goal is to help prepare them to move into the 
job market or an educational institution. We deliver TAP through a 
collaborative effort involving DoL, the Military Services, VA, the 
Department of Homeland Security (DHS), the Department of Education 
(ED), the Small Business Administration (SBA), the National Veterans 
Business Development Corp., and other Federal, state, local and non-
profit organizations. The Veterans Service and Military Service 
Organizations provide outstanding support to TAP and to our 
servicemembers and their families at both the national and local 
levels.
    There are four key components to TAP, the responsibility for each 
shared among DoD, Labor, and the VA.
    Preseparation Counseling is the first component of TAP. This 
counseling is mandatory for separating and retiring servicemembers and 
all eligible demobilizing members of the National Guard and Reserve. 
The Military Services are responsible for providing Preseparation 
Counseling. Servicemembers are introduced to information about 
employment opportunities and how to go about finding a job. Also during 
this phase of TAP, Active Component servicemembers, looking for a job 
post-military, are encouraged to attend a DoL TAP Employment Workshop. 
For the National Guard and Reserve, similar information is provided 
geared to their needs. The Guard and Reserve receive a Uniformed 
Services Employment and Reemployment Rights Act (USERRA) briefing. 
USERRA briefings are scheduled at installation demobilization sites in 
coordination with the demobilization commander. National Guard and 
Reserve personnel are also informed, during the Preseparation 
Counseling session, about the services available to them at the DoL 
One-Stop Career Centers. Surveys show that the overwhelming majority of 
the Guard and Reserve activated have jobs when they are activated; 
therefore, they have jobs to which they will return. However, members 
looking for jobs or a career change are encouraged to visit and 
register with the One-Stop Career Center nearest their residence, once 
they return home.
    While at the demobilization station, they get information about 
their eligibility to receive employment assistance and other transition 
services up to 180 days after demobilization from any of the Military 
Services Transition Offices and DoL One-Stop Career Centers.
    In addition to the DoL Employment Workshops, the Military Services 
provide a vast array of additional employment seminars and one-on-one 
counseling to servicemembers. This extensive assistance covers resume 
and cover letter writing, information about electronic job banks and 
Internet access to automated employment tools (resume writer, cover 
letter and job assistance tutorials), tools on salary negotiation; 
location of job fairs, details about Federal employment workshops and 
seminars, opportunities for post military employment networking, 
relocation assistance, information about government partnerships for 
employment and training, benefits for members who are involuntarily 
separated, employer panels, and information about Veterans benefits 
(including disability benefits).
    The second component of TAP is the DoL TAP Employment Workshop. 
Attendance is voluntary for Active Duty servicemembers and their 
spouses, with the exception of the Marine Corps, which has made 
attending the DoL Employment Workshop mandatory. The curriculum, 
facilitators, workshop materials, data collection and analysis related 
to the employment workshops are the responsibility of DoL. 
Servicemembers receive information on labor market conditions, 
assessing individual skills and competencies, how to write effective 
resumes and cover letters, proper interviewing techniques, and the best 
methods of searching for jobs. They also learn how to use electronic 
employment data banks. Finally, they get information addressing the 
special employment needs of those separating with a disability.
    The third component of TAP is the VA Benefits Briefing. Attendance 
at the VA Benefits Briefing is voluntary for Active Component 
servicemembers. The briefing addresses education and training, health 
care, home loans, life insurance, vocational rehabilitation and 
employment (VR&E), disability benefits, burial benefits, and 
dependents' and survivors' benefits.
    Demobilizing National Guard and Reserve servicemembers receive a VA 
briefing which also includes information on Disabled Transition 
Assistance Program (DTAP). The materials, information, counselors, and 
all data collection and analysis related to the VA Benefits Briefings 
are the responsibility of the VA.
    The fourth component of TAP is the Disabled Transition Assistance 
Program. Attendance at DTAP is voluntary for Active Component 
servicemembers and is a separate briefing. DTAP is for servicemembers 
and veterans who have, or suspect they have a service-connected 
disability or an injury or illness that was aggravated by service. 
During the DTAP briefing, VA addresses VR&E, sometimes referred to as 
Chapter 31. DTAP addresses the five tracks to employment: re-
employment, rapid access to employment, employment through long term 
services, independent living services, and self employment. DTAP also 
addresses other services such as medical, dental, optical, mental 
health treatment, special adapted housing, vet centers, vocational/
educational counseling and special hiring authorities for Federal 
employment. VA provides all materials and information, counselors, data 
collection and any analysis related to DTAP.
    We also cannot overlook the many options for Federal employment 
such as Veterans Recruitment Appointment (VRA), Veterans Employment 
Opportunities Act (VEOA), Appointment of 30 percent or More Disabled 
Veterans, Federal Career Intern Program (FCIP), SBA, and the National 
Veterans Business Development Corp. Programs for those who want to 
start their own business or franchise.
    Finally, as a result of recommendations from the VA's Returning 
Global War on Terror Heroes Task Force, DoD has established a goal for 
TAP and DTAP attendance of 85 percent for separating servicemembers and 
demobilizing National Guard and Reserve Forces. To meet this goal, we 
have tasked the Services to allow servicemembers to attend these 
sessions so they have access to the employment resources they need to 
help them transition into the workforce or into an educational 
institution. In partnership with the DoL and VA, a lifelong learning 
approach to transition assistance is being developed, to include the 
redesign and modernize of existing TAP curriculum and course objectives 
for the four components of TAP. TAP will be designed into a ``purple'' 
solution for transition assistance using highly interactive features 
hosted on the TurboTAP website and multi-media mobile learning 
technologies (m-learning) to deliver program modules as stand-alone, 
web-based, and hybrid courses with a blend of web-based and traditional 
classroom instruction. The TAP will also provide instructors and 
facilitators with access to the latest interactive technologies and 
teaching methodologies to maximize student participation and increase 
effectiveness and value of course curriculum, regardless of delivery 
location. This modernization of the TAP programs will provide global 
24/7 access and increased quality control of TAP and enable commanders 
to meet the 85 percent goal while enhancing the servicemembers' and 
their spouses' learning experience.
TurboTAP
    There is much concern about how we can better serve the National 
Guard and Reserve Components coming from Operation Enduring Freedom 
(OEF)/Operation Iraqi Freedom (OIF). As I've stated earlier, we are 
leveraging technology in its many forms to change how the National 
Guard and Reserve members transition out of the military, in addition 
to serving as a valuable tool for the Active Component servicemembers 
as well. This leveraging has resulted in what we call ``TurboTAP''.
    When TAP was originally developed in 1990, we did not design it 
with the needs of the National Guard and Reserves in mind. Their 
mission has changed dramatically since 9-11 and the requirements, with 
respect to TAP, warrant a fresh look. To better meet the needs of the 
Guard and Reserves, DoD, with the cooperation and collaboration of the 
Military Services, National Guard Bureau (NGB), DoL, VA, ED, SBA, and 
the National Veterans Business Development Corp., has designed a 
dynamic, automated web-based system for delivery of transition 
assistance and related information. The TurboTAPweb portal, launched in 
2007, allows each servicemember, regardless of component, to obtain a 
lifelong account and a tailored Individual Transition Plan based on 
their transition needs which can also connect them to information on 
military and veterans benefits, many of which have significant cash 
value. Examples include the Montgomery GI Bill, the Thrift Savings Plan 
and the Savings Deposit Program.
    This portal architecture is the backbone of the updated DoD TAP 
process for National Guard and Reserve servicemembers. Usability, 
flexibility, adaptability, and individual customization are the keys to 
successful implementation of this new technology-enabled process. The 
goal for this system is to increase servicemember participation, 
satisfaction, and ultimately, enhance awareness of military benefits 
for recruitment, retention, and transition.
    We continue to be encouraged by the possibilities for TurboTAP. 
Military personnel can access a comprehensive Transition Guide for 
Guard and Reserve and a Pre-separation Guide for the Active Component, 
obtain employment information, build a resume online, conduct a job 
search, contact and locate their local One-Stop Career Center for 
employment assistance, locate the nearest VA Regional Office, Vet 
Center, and Medical Center, use helpful checklists reminding troops of 
key things to do prior to leaving the Service, be connected to 
information about VA benefits, services, and programs, and the list 
goes on.
    TurboTAP better meets the needs of the National Guard, Reserve, and 
Active Component servicemembers and their families because the website 
gives them the tools to connect and access the information to meet 
their needs when they are ready--present or future. This is a 21st 
century approach to delivering individualized information and benefits 
to servicemembers and families. We plan to make the transition to an 
online transaction, much like banking and bill paying have become. The 
success and accountability of the transition will be managed online 
versus a form being hand carried to a personnel file. As we continue to 
expand the capabilities of the website, we will solicit your approval 
and legislative support.
    The site can be accessed at www.TurboTAP.org.
Outreach, Counseling, and Decision-Making Tools
    There are multiple ``high-tech, high-touch'' initiatives, both 
online and in person, that exist to better serve our troops and 
families with their transition, financial readiness, and benefits 
awareness needs.
    In the Fall of 2007, DoD TurboTAP Mobile Training Teams began 
training the National Guard and Reserves. These highly specialized 
outreach teams travel to State level deployment support and 
reintegration programs at the request of National Guard and Reserve 
Component leaders to connect servicemembers to the benefits they have 
earned through military service. The TurboTAP Mobile Training Teams 
provide information about transition assistance, service-related 
benefits, and related on-demand financial counseling services. By the 
end of 2009, DoD's goal is to have the TurboTAP Mobile Training Teams 
fully integrated into deployment support, transition assistance, and 
financial awareness programs in all 50 states. By coupling financial 
assistance with transition assistance, servicemembers will better 
understand how their benefits can help them reach their military 
career, personal and family goals and provide economic security 
throughout their lifetime.
    DoD is expanding and enhancing its network of financial 
professionals to provide financial counseling and planning services to 
meet the needs of all our servicemembers and families, ranging from 
budgeting and debt consolidation to advanced financial planning. To 
augment our own network of contracted financial professionals, DoD is 
building and expanding relationships with United States Department of 
Agriculture Cooperative Extension educational institutions, community 
colleges, universities, non-profit financial readiness partner 
organizations, financial planning associations, and DoD on-installation 
banks and credit unions to provide our troops with a variety of 
financial planning and counseling resources. A key to the success of 
expanding resources and partnerships is the train-the-trainer program 
being developed by DoD. The websites and multimedia mobile learning 
technologies (m-learning) will deliver train-the-trainer program 
modules as stand-alone, web-based, and hybrid courses with a blend of 
web-based and traditional classroom instruction. Benefits awareness and 
an understanding of how these benefits fit into a larger financial 
wellness plan can act as a powerful retention tool, or, should the 
member still decide to leave the Service, can assist tremendously with 
the decisionmaking process for a second career.
    Additionally, at the request of National Guard and Reserve units, 
the Department is dispatching consultants with financial readiness 
specialties to attend special events such as drill weekends, 
reintegration, pre-deployment, and wellness fairs, to meet with Guard 
and Reserve members and families and provide education on many aspects 
of financial readiness and transition.
    One of the newest key outreach and benefits awareness initiatives 
is the Joint Family Support and Assistance Program (JFSAP). Originally 
started in 15 States and now projected to expand to all 50 (to include 
the four territories) by the end of 2009, the JFSAP facilitates 
partnerships among Federal, state and local organizations, builds 
benefits and transition assistance outreach for deploying units, and 
resources a vital state by state database for around the clock family 
assistance. Through partnerships with such groups as the Red Cross, 
JFSAP will help reach servicemembers and their families within each 
State, especially the geographically dispersed families of the National 
Guard and Reserve, to ensure they are aware of and can easily be 
connected to benefits within their area. In this manner, we can 
contribute to the financial well-being of all troops and families, and 
in keeping with the new DoD philosophy, leverage this awareness as a 
retention tool.
    Regarding financial tools, DoD is committed to providing our 
servicemembers and families with those that will enable them to truly 
enhance their financial wellness and economic security. DoD is building 
a catalog of resources through technology, expanding online counseling 
and mentoring tools, and researching and providing more decisionmaking 
calculators for financial career decisions to help troops address the 
question that all servicemembers eventually have to confront: ``Should 
I go or should I stay?''
    Three of the key online resources sponsored by DoD that contain 
transition, financial, and benefits information are Military OneSource 
(www.militaryonesource.com), Military Home Front 
(www.militaryhomefront.DoD.mil), and TurboTap (www.turbotap.org).
    Military OneSource provides support services 24/7 for all troops 
and their families, including the Guard and Reserves, regardless of 
their mobilization status, and offers free, convenient access to 
confidential resource and referral support. When a servicemember or 
spouse calls or emails, a master's level consultant provides 
assistance. Military OneSource is especially beneficial to those 
geographically separated from installation services or those who are 
unable to seek assistance during traditional working hours. The ``Money 
Matters'' section of Military OneSource contains financial calculators, 
DVDs, CDs, and informational pamphlets to assist a family in its 
financial plan. Additionally, Military OneSource now features 
telephonic financial counseling to augment those programs provided by 
the Services.
    Military Home Front is DoD's ``Google'' for quality of life 
information. As a sister site to Military OneSource, MilitaryHOMEFRONT 
is the library of DoD information on quality of life issues--to include 
transition and financial readiness--useful to installation staff and 
policy makers. In Fiscal Year 2007, there were over 1.7 million visits 
to the site.
    MilitaryHOMEFRONT, in coordination with the JFSAP, has introduced 
the MySTATE database (www.mystate.mhf.DoD.mil), a powerful new tool 
providing State and local servicemembers and their families across the 
Nation with access to various organizations and businesses that offer 
special discounts and services specifically for military personnel and 
their families. MySTATE includes State directories, locations of 
programs and services, maps, directions and much more. The website also 
gives users the opportunity to provide feedback on the organizations or 
businesses listed.
Credentialing and Certification
    While in the Service, servicemembers receive extensive, high-
quality training in a wide range of military professional fields 
(referred to as MOS's and Rates). The training, combined with military 
work experience, contributes significantly to a highly skilled 
workforce. Making the conversion from military occupations and skill 
sets to civilian jobs and certification presents challenges for 
transitioning military members. It is critical that DoD assist these 
troops in overcoming these challenges since credentials help pave the 
way to immediate employment in the civilian world and long term 
economic security.
    In response, DoD, in partnership with the DoL, formed the 
Credentialing Working Group to address the issue of the conversion of 
military training and experience into nationally recognized industry 
accepted certifications. The Working Group is carrying out its mission 
by expanding current information, leveraging assistance resources, and 
promoting uniformity and reciprocity across the States with regard to 
certification, licensing, and apprenticeship to assist and prepare 
individuals to transition into civilian life with credentials for high-
wage high-demand jobs that can provide economic security.
Conclusion
    In conclusion, our servicemembers and their families have 
sacrificed much in support of the Global War on Terror. Our military is 
experiencing a dynamic deployment cycle of unprecedented levels. It is 
DoD's duty to provide our troops with the decisionmaking tools they 
need to help them with the key financial and transition decision points 
in their life to enable them to execute their individual career and 
economic security plans. The new DoD Office of PF&T in partnership with 
other Federal and private agencies will get us there.
    Madame Chairwoman, on behalf of the men and women in the military 
today and their families, I thank you and the Members of the Committee 
for your steadfast support during these demanding times.

                                 <F-dash>
                 Prepared Statement of James A. Whitson
        Director, Eastern Area, Veterans Benefits Administration
                  U.S. Department of Veterans Affairs
    Madame Chairwoman and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today to discuss the Department of 
Veterans Affairs (VA) Transition Assistance Program (TAP) and other 
outreach efforts to support separating servicemembers and their 
families during their transition from military to civilian life. I am 
accompanied by Mr. Dennis Kuewa, Director of the Indianapolis Regional 
Office. My testimony today will cover the comprehensive transitional 
assistance VA provides to all servicemembers, including members of the 
National Guard and Reserves, as well as the current outreach efforts by 
the Indianapolis Regional Office.
VA Outreach Efforts
    VA currently conducts outreach initiatives to servicemembers that 
explain VA benefits at various stages of enlistment, as well as 
following discharge. Many of these activities are done in conjunction 
with the Department of Defense (DoD). VA and DoD are working through 
joint initiatives to ensure wide dissemination of information on the 
array of benefits and services available to servicemembers; including 
health care, educational assistance, home loans, vocational 
rehabilitation and employment, disability compensation, pension, 
insurance, burial, and memorial services.
Transition Assistance Program (TAP)
    Transition Assistance Program (TAP) briefings are conducted 
nationwide and in Europe to prepare retiring or separating military 
personnel for return to civilian life. At these briefings, 
servicemembers are informed of the array of VA benefits and services 
available, instructed on how to complete VA application forms, and 
advised on what evidence is needed to support their claims. Following 
the general instruction segment, personal interviews are conducted with 
those servicemembers who would like assistance in preparing and 
submitting their applications for compensation and/or vocational 
rehabilitation and employment benefits.
Disabled Transition Assistance Program (DTAP)
    Disabled Transition Assistance Program (DTAP) is an integral 
component of transition assistance for servicemembers who may be 
released because of disability. Through VA's DTAP briefings, VBA 
advises transitioning servicemembers about the benefits available 
through VBA's Vocational Rehabilitation and Employment Program (VR&E). 
The goal of DTAP is to encourage and assist potentially eligible 
servicemembers to make an informed decision about the VR&E program and 
expedite delivery of these services to eligible persons.
    While TAP and DTAP briefings are central to VA's efforts to inform 
servicemembers about VA benefits and services, VA also provides 
briefings to servicemembers about military separation and retirement 
services programs, military medical facilities, Physical Evaluation 
Boards, Casualty Assistance Services, and various other military 
liaison activities.
    The chart below reflects the number of briefings and personal 
interviews conducted by VBA representatives for the past 5 years. This 
includes briefings conducted for regular active duty military members, 
pre- and post-deployment briefings for Reserve and National Guard 
members, and briefings conducted overseas. VA has increased the number 
of briefings presented by 39.6 percent since 2003.


----------------------------------------------------------------------------------------------------------------
                     Fiscal Year                           Briefings           Attendees          Interviews
----------------------------------------------------------------------------------------------------------------
              2003                                                5,840             210,015             102,402
----------------------------------------------------------------------------------------------------------------
              2004                                                7,834             276,574             122,120
----------------------------------------------------------------------------------------------------------------
              2005                                                8,184             326,664             124,092
----------------------------------------------------------------------------------------------------------------
              2006                                                8,541             393,345              93,431
----------------------------------------------------------------------------------------------------------------
              2007                                                8,154             296,855             100,976
----------------------------------------------------------------------------------------------------------------
              2008                                                3,962             161,749              39,917
    (Through March 2008)
----------------------------------------------------------------------------------------------------------------


Veterans Assistance at Discharge System (VADS)
    VA also distributes information on benefits and services through 
the Veterans Assistance at Discharge System (VADS), which generates a 
``Welcome Home Package'' for all recently separated veterans (including 
Reserve and National Guard members). The package contains a letter from 
the Secretary, pamphlets describing VA benefits and services, and a 
benefits timetable. In addition to the VADS mailings, a separate 
personal letter from the Secretary, along with benefits information, is 
sent to each returning servicemember.
Vocal Rehabilitation (VR&E) ``Five Tracks to Employment''
    Based on the 2004 Secretary's Task Force on Vocational 
Rehabilitation and Employment, VA redesigned the delivery of VR&E 
benefits into a program that emphasizes veterans' informed choice and 
employment at the beginning of the process. This redesign, entitled the 
``Five Tracks to Employment'' process, included the development and 
implementation of a standardized orientation program, creation of the 
new Employment Coordinator position, training for the new Employment 
Coordinators, training for all field staff on the Five Tracks to 
Employment process, creation of an online employment services website--
www.Vetsuccess.gov, and the establishment of Job Resource Labs in all 
regional offices.
    The Employment Coordinator (EC) serves as an expert in the VR&E 
program to provide services to enhance veterans' job readiness and 
assist veterans to become employed within their interests, aptitudes, 
and abilities. The EC also serves as an expert about the local labor 
market, assisting Vocational Rehabilitation Counselors to develop 
rehabilitation plans that match current employer hiring demands. The EC 
works collaboratively with the Department of Labor VETS program 
Disabled Veterans Outreach Program Specialists (DVOPS) and Local 
Veterans Employment Representatives (LVERS) in the provision of direct 
job placement services for veterans and also partners with community 
employers to develop future career opportunities for veterans served 
through the VR&E program. Combined, all of these activities serve to 
focus the VR&E program on its most vital outcome goal of assisting 
veterans to obtain and maintain suitable employment.
Benefits Delivery at Discharge
    The Benefits Delivery at Discharge (BDD) program is an initiative 
jointly sponsored by VA and DoD. The program provides transition 
assistance to separating or retiring servicemembers who have 
disabilities related to their military service. VA began accepting 
disability compensation claims from servicemembers in the BDD program 
at 3 VA regional offices and 3 Army installations in 1995. National 
expansion of the program began in 1998. In November 2004, VA and DoD 
signed a national memorandum of agreement to establish a single 
cooperative examination that meets the requirements of a military 
separation examination and a VA disability rating examination.
    Current BDD program participants include 40 regional offices and 
153 military installations (142 DoD sites and 11 Homeland Security 
Coast Guard sites). This number includes 5 locations overseas (3 in 
Korea and 2 in Germany). Participation in the BDD program is offered to 
servicemembers who are within 60 to 180 days of release from active 
duty and who remain in the area in order to complete the medical 
examinations.
Disability Evaluation System (DES)
    In response to recommendations by the Dole-Shalala Commission, 
West/Marsh Independent Review Group, Secretary Nicholson's Global War 
on Terrorism Returning Heroes Commission and the Veterans Disability 
Benefits Commission, VA and DoD launched a Disability Evaluation System 
(DES) pilot on November 27, 2007, scheduled to run for 1 year. The 
pilot program differs from the existing DoD DES process in the 
following significant ways: 1. VA is brought into the process at the 
Medical Evaluation Board (MEB) stage, counseling the servicemember and 
taking a claim for disability compensation; 2. one examination is 
performed according to VA protocols, normally done by VA, which forms 
the basis for the MEB and Physical Evaluation Board (PEB) 
decisionmaking as well as the VA disability rating, should the member 
be found unfit. If the PEB determines that the member is unfit, VA 
assigns the evaluation for the unfit condition(s) as well as any other 
claimed conditions. The VA rating for the unfit condition is generally 
binding on DoD for purposes of determining the amount of severance pay 
or placement on the temporary or permanent disability retired list. In 
conjunction with the DES pilot, VA is also initiating enhanced data 
sharing between DoD and VA regarding medical information.
Seamless Transition Program
    With the onset of Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF), VA expanded its outreach efforts even further with 
the Seamless Transition Program. In 2003, VA began to assign permanent, 
full-time representatives at key military treatment facilities where 
seriously injured OEF/OIF returnees are hospitalized; including Walter 
Reed Army Medical Center, Bethesda Naval Medical Center, Eisenhower 
Medical Center, Brooke Medical Center, and Madigan Army Medical Center.
    VA representatives at these facilities provide benefits information 
and assist in filing claims. They monitor patient progress and 
coordinate the submission and smooth transfer of claims to VA regional 
offices. Each veteran's claim is then case-managed at the appropriate 
regional office of jurisdiction to expedite processing. Additionally, 
VA assigns special benefits counselors, social workers, and case-
managers to work with these servicemembers and their families 
throughout the transition to VA care and benefits systems to ensure 
expedited delivery of all benefits.
    VA also began hiring Recovery Care Coordinators, who are charged 
with assisting seriously ill, injured, or wounded servicemembers 
navigate the various systems and benefits programs to which they may be 
entitled.
National Guard and Reserve Members
    In peacetime, outreach to Reserve and National Guard members is 
generally accomplished on an ``on call'' or ``as requested'' basis. 
But, with the onset of Operations Enduring Freedom and Iraqi Freedom 
(OEF/OIF) and the activation and deployment of large numbers of Reserve 
and National Guard members, VBA's outreach to this group has been 
greatly expanded. VA has made arrangements with Reserve and Guard 
officials to schedule briefings for members being mobilized and 
demobilized. These benefits briefings for Guard and Reserve members 
increased from 821 briefings for more than 46,000 attendees in FY 2003 
to over 1,800 briefings for more than 96,000 attendees in FY 2007.

----------------------------------------------------------------------------------------------------------------
                Fiscal Year                        Briefings              Attendees              Interviews
----------------------------------------------------------------------------------------------------------------
        2003                                                  821                 46,675                    N/A
----------------------------------------------------------------------------------------------------------------
        2004                                                1,399                 88,366                    N/A
----------------------------------------------------------------------------------------------------------------
        2005                                                1,984                118,658                    N/A
----------------------------------------------------------------------------------------------------------------
        2006                                                1,298                 93,361                 10,515
----------------------------------------------------------------------------------------------------------------
        2007                                                1,868                 96,355                 11,488
----------------------------------------------------------------------------------------------------------------
        2008                                                  791                 56,372                  5,377
----------------------------------------------------------------------------------------------------------------

    VA has also published a brochure, A Summary of VA Benefits for 
National Guard and Reserve Personnel, which is widely distributed to 
Guard and Reserve units. A special page on VA's main Web site is 
dedicated for use by Guard and Reserve members.
Transition Assistance Advisors (TAAs)
    A memorandum of agreement was signed in 2005 between the Department 
of Veterans Affairs and the National Guard Bureau to institutionalize a 
partnership and to support better communication between the two. VA is 
encouraging state National Guard Coalitions to improve local 
communication and coordination of benefits briefings to assure that 
National Guard and Reserve members are fully aware of benefits. As a 
part of this partnership, the National Guard Bureau employs 57 
Transition Assistance Advisors (TAA) for the 50 states and 4 
territories.
    The TAA's primary function is to serve as the statewide point of 
contact and coordinator. They also provide advice regarding VA benefits 
and services to Guard members and their families and assist in 
resolving problems with VA healthcare, benefits, and TRICARE. VA and 
the National Guard Bureau teamed up at the beginning of the program in 
February 2006 to provide training to the TAAs on VA services and 
benefits as well, as define their role as VA advocates. VA has 
participated in subsequent annual refresher training, as well as 
monthly TAA conference calls.
Outreach for Indiana Servicemembers
    The Indianapolis Regional Office (RO) conducts several outreach 
initiatives for Indiana veterans and servicemembers. In FY 2007, the RO 
conducted more than 40 briefings, attended by over 6,000 active-duty 
personnel and their families. Through March 2008, the RO conducted 16 
briefings for over 1,600 attendees.
    As of March 2008, the RO Veterans Service Center and VR&E Division 
jointly provided a full-time presence at the Roudebush VA Medical 
Center Seamless Transition Integrated Care Clinic (STICC). To provide 
better services to veterans in Northern Indiana, the VR&E Division 
operates a satellite office at the Northern Indiana Healthcare System 
Medical Center in Ft. Wayne, Indiana. The RO is also in the process of 
establishing an out-based office at both Camp Atterbury and in 
Logansport, Indiana. The Indianapolis VR&E Division has established a 
number of working partnerships with Federal, State, and local 
government entities. One of the partnerships includes a pilot program 
with the Crane Learning and Employment Center for Veterans with 
Disabilities. Veterans who complete the program are offered jobs at the 
Naval Support Activity at Crane, Indiana.
    Madame Chairwoman, we at VA are proud of our continuing role in the 
transition of servicemembers from military to civilian life, and seek 
to continually improve the quality and breadth of our outreach efforts 
to active duty, Reserve, and National Guard members.
    Thank you for allowing me to appear before you today. I would be 
pleased to respond to any questions from Members of the Subcommittee.

                                 <F-dash>
           Prepared Statement of Charles T. ``Tom'' Applegate
   Director, Indiana Department of Veterans Affairs, Indianapolis, IN
    Ms. Chairwoman and Members of the Subcommittee:
    I'm honored to be here today to speak to you on behalf of the 
Indiana Department of Veterans Affairs. My Department supervises 
Indiana's ninety-one (91) County Veterans' Service Officers who, in 
turn, represent the veterans of Indiana.
    I am proud to be able to say that the Indiana Department of 
Veterans Affairs was one of the first in the Nation to partner with the 
State Adjutant General of the National Guard to bring first-class 
transition services to the officers and enlisted members of that 
organization. Since our first workshop in Portage, Indiana on 29 April 
2006, we have helped to transition 1,078 National Guard men and women 
back into civilian society.
    The official Memorandum of Understanding was signed by Governor 
Mitch Daniels in a public ceremony at the Indiana Statehouse on March 
17, 2006. That MOU established the Hoosier Veterans Seamless Transition 
Program (HVSTP) to assist Active Reserve Forces, which includes the 
Indiana National Guard and Reserves, with the transition to civilian 
life upon returning from active-duty overseas.
    Governor Daniels remarked, ``Our veterans have performed the most 
important public service of all. We are a state of patriots and we 
should do everything we can to assist and thank these men and women who 
have given so much for our benefit.''
    The program ensures that returning veterans are provided with 
assistance related to their transition from military active-duty to 
civilian life, including necessary medical care, information about 
benefits and entitlements, and employment. The HVSTP is a partnership 
between the Indiana Department of Veterans Affairs, Joint Forces 
Headquarters, U.S. Department of Labor, the U.S. Department of Veterans 
Affairs (Benefits), the U.S. Department of Veterans Affairs (Health), 
the National Guard Family Assistance Offices, the Employer Support of 
the Guard and Reserves (ESGR), TRICARE, Indiana Workforce Development, 
and the Hoosier Veterans Assistance Foundation as well as other state 
veterans' service providers.
    The Governor was joined by Adjutant General R. Martin Umbarger, 
myself from the Indiana Department of Veterans Affairs, and 
representatives from various veterans service organizations across the 
state, including the American Legion, VFW, AMVETS, and the Disabled 
American Veterans.
    The workshops enable the participants who have not already done so 
to enroll in the VA Health Care System, file a claim for service-
connected disabilities they may have sustained while on active duty, 
receive readjustment counseling from either the Operation Enduring 
Freedom/Operation Iraqi Freedom (OEF/OIF) counselors from the VA 
Medical Centers or from the counselors at a local Vet Center, resolve 
any employment difficulties they may be experiencing, find resolution 
for any TRICARE problems, enroll in family assistance weekends, and 
learn of any state veterans' benefits to which they may be entitled.
    This program has been highly successful and the participants 
themselves have scored the workshops with high marks.
    On 17 March 2006 Governor Daniels also signed Senate Bill 75 which 
established the Military Family Relief Fund (MFRF). This fund provides 
grants for the families of Hoosier members of the Indiana National 
Guard or Armed Forces Reserves who have been called to active duty 
since September 11, 2001. A portion of the money for the fund is raised 
through the sale of the ``Hoosier Veteran'' license plate and the new 
``Support Our Troops'' plate created by the bill. The fund can be used 
by the reservist or their family for things such as non-receipt of pay, 
loss of funds, medical, dental & hospital expenses, clothing, 
utilities, fire or other disasters, essential private owned vehicle, 
unexpected repairs/maintenance, dependent funeral expenses, emergency 
travel, rent, or food.
    To be eligible, the servicemember must have been on active duty 
orders for 30 days or more and the cause of the financial difficulty 
must be connected to the mobilization or deployment. Eligibility 
extends to 6 months after being released from their active duty orders.
    To date this fund has provided grants to the families of National 
Guard and Reserve members totaling over $100,000.
    On May 3, 2007 the Governor signed Senate Enrolled Act 480 which 
established the Veterans Affairs Trust Fund. Once a funding source is 
established, this fund will provide the same kind of relief for members 
of the active duty and their families and for members of the general 
veterans' community.
    On March 24, 2008 Governor Daniels signed HB 1249 (IC 21-14-10) 
which provides a remission of tuition fees at state supported colleges 
and universities for recipients of the Purple Heart medal. This will 
assist those returnees who suffered injuries resulting in the receipt 
of this medal to attend college tuition-free.
    State law also provides that National Guard and Reserve members who 
are employed by the State of Indiana and who are called to active duty 
in the Guard or Reserves, will receive the difference between their 
military pay and their state salary.
    Senate Bill 480 also provides a tax break to returnees the year 
following their return. Any military pay earned during the entire 
duration of their active duty orders is exempt from state taxes, not 
just the time they served in a combat zone. This will provide a 
tremendous relief to this group of taxpayers.
    We have recently learned that some of these men and women return to 
Indiana and face the possibility of becoming homeless. This is totally 
unacceptable and the Indiana Department of Veterans Affairs has lately 
become more involved in preventing this condition for those who have 
given so much for their state and Nation.
    In conclusion, I wish to thank the House Committee on Veteran's 
Affairs Subcommittee on Economic Opportunity for the opportunity to 
present this testimony.

                                 <all>

</pre></body></html>
